<html>
<title> - THE CHALLENGE OF PROTECTING MASS GATHERINGS IN A POST-9/11 WORLD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    THE CHALLENGE OF PROTECTING MASS GATHERINGS IN A POST-9/11 WORLD

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2008

                               __________

                           Serial No. 110-124

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
44-652 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     4

                               Witnesses
                                Panel I

Colonel Robert B. Stephan, USAF (Ret.), Assistant Secretary, 
  Infrastructure Protection, National Protection and Programs 
  Directorate, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Vice Admiral Roger T. Rufe, Jr., USCG (Ret.), Director, Office of 
  Operations Coordination and Planning, Department of Homeland 
  Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Panel II

Dr. Thomas H. Blackwell, MD, Medical Director, Center for 
  Prehospital Medicine, Carolinas Medical Center, Charlotte, 
  North Carolina:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47
Sergeant Scott McCartney, Program Manager/Exercise Planner, Large 
  Stadium Initiative, Governor's Office of Homeland Security, 
  Sacramento, California, and Sergeant, Sacramento County 
  Sheriff's Department:
  Oral Statement.................................................    51
  Prepared Statement.............................................    52
Mr. Douglas Reynolds, Director of Security, Mall of America, 
  Bloomington, Minnesota:
  Oral Statement.................................................    58
  Prepared Statement.............................................    61

                                Appendix

Questions From Chairman Bennie G. Thompson for Robert B. Stephan.    75
Questions From Chairman Bennie G. Thompson for Roger T. Rufe, Jr.    80
Questions From Chairman Bennie G. Thompson for Thomas H. 
  Blackwell......................................................    81
Questions From Hon. James R. Langevin for Thomas H. Blackwell....    83
Questions From Chairman Bennie G. Thompson for Scott McCartney...    84
Questions From Hon. James R. Langevin for Scott McCartney........    84
Questions From Chairman Bennie G. Thompson for Douglas Reynolds..    84
Questions From Hon. James R. Langevin for Douglas Reynolds.......    86


    THE CHALLENGE OF PROTECTING MASS GATHERINGS IN A POST-9/11 WORLD

                              ----------                              


                        Wednesday, July 9, 2008

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, Lowey, Jackson 
Lee, Christensen, Etheridge, Cuellar, Carney, Clarke, Green, 
Perlmutter, Pascrell, King, Shays, Lungren and Dent.
    Chairman Thompson. We are going to call the hearing to 
order.
    We will ask Mr. Shays to sit in for Ranking Member King who 
is--well, speak of the angel. He is here.
    The Committee on Homeland Security will come to order. The 
committee is meeting today to receive testimony on the 
challenge of protecting mass gatherings in a post-9/11 world.
    Good morning. I would like to thank our witnesses for 
appearing before us today.
    When Americans think of mass gathering events, the Super 
Bowl, the national conventions and the Pope's recent visit come 
to mind. How the Department of Homeland Security manages and 
coordinates these high-profile national security events is 
certainly worthy of discussion, but that is a discussion for 
another day. Today, we will turn our attention to the 
challenges of securing mass gatherings that are not considered 
national special security events, that do not have the Federal 
Government coming in to run security and are held in 
communities that do not have huge amounts of resources for 
security.
    Think of State fairs, collegiate sporting events and even 
large shopping complexes during the holiday season. Mass 
gatherings, whether they have national security event rating or 
not, could be particularly tempting targets for Al Qaeda and 
other terrorist organizations with the goal of killing or 
injuring the most people, destroying the most infrastructure 
and having the greatest impact possible with the least amount 
of effort.
    As you all know, I made it a priority to look at mass 
gatherings of all types. In fact, last year I directed 
committee staff to explore a variety of venues to see how mass 
gatherings are being handled. At these venues, committee staff 
observed members of the public and private sectors working to 
ensure the health, safety and security of all involved. They 
found that support personnel at these venues are doing the best 
they can with what they have, especially when they do not have 
the benefit of substantial Federal support.
    This exploration culminated in a report that the majority 
staff of the committee released in May entitled, ``Public 
Health, Safety and Security for Mass Gatherings.'' The report 
concluded that while local and State official efforts are 
laudable, the Federal Government needs to partner with them in 
three particular areas: countering biological threats, 
collaborating and planning, and partnering across sectors.
    Among the report's recommendations were that the Department 
of Homeland Security help these localities in hosting these 
mass gatherings now by strengthening public health and other 
critical infrastructures, establishing comprehensive biological 
surveillance systems and ensuring that intelligence about 
biological threats is made actionable for decisionmakers on the 
scene.
    It is remarkable how State and local and private sector 
partners have worked together to develop solutions on their 
own, given the absence of dedicated Federal resources. Fighting 
a common fight, they have established trusted relationships 
with other very different entities and that trust serves as the 
basis for sharing information and resources that would not 
otherwise occur. The Department of Homeland Security could 
stand to learn a lesson about information sharing here.
    The Department of Homeland Security should also take note 
that the districts that the Members of this committee represent 
are diverse. Some, like mine, are largely rural, while others, 
like the one represented by the gentlelady from New York, Ms. 
Clarke, are decidedly urban. However, when it comes to mass 
gatherings, we all share the same goal, ensuring that our 
communities are prepared for and can respond to the challenges 
of protecting mass gatherings. To that end, I look forward to 
this morning's testimony.
    [The statement of Chairman Thompson follows:]

           Prepared Statement of Chairman Bennie G. Thompson

    Good morning. I'd like to thank our witnesses for appearing before 
us today.
    When Americans think of ``mass gatherings''--events like the Super 
Bowl, the National Conventions, and the Pope's recent visit come to 
mind. How the Department of Homeland Security manages and coordinates 
these high-profile National Security Events is certainly worthy of 
discussion but that is a discussion for another day. Today, we turn our 
attention to the challenges of securing mass gatherings that: are not 
considered ``National Special Security Events''; do not have the 
Federal Government coming in to run security; and are held in 
communities that do not have huge amounts of resources for security.
    Think of State Fairs, collegiate sporting events, and even large 
shopping complexes during the holiday season.
    Mass gatherings, whether they have National Security event rating 
or not, could be particularly tempting targets for Al Qaeda and other 
terrorist organizations with the goals of: killing and injuring the 
most people; destroying the most infrastructure; and having the 
greatest impact possible with the least amount of effort.
    As you all know, I have made it a priority to look at mass 
gatherings of all types. In fact, last year, I directed committee staff 
to explore a variety of venues to see how mass gatherings are being 
handled. At these venues, committee staff observed members of the 
public and private sectors working to ensure the health, safety, and 
security of all involved. They found that support personnel at these 
venues are doing the best they can with what they have, especially when 
they do not have the benefit of substantial Federal support. This 
exploration culminated in a report that the majority staff of the 
committee released in May entitled ``Public Health, Safety, and 
Security for Mass Gatherings.'' The report concluded that while local 
and State officials' efforts are laudable, the Federal Government needs 
to partner with them in three particular areas: Countering biological 
threats; collaborative planning; and partnering across sectors.
    Among the report's recommendations were that the Department of 
Homeland Security help the localities hosting these mass gatherings now 
by: Strengthening public health and other critical infrastructures; 
establishing comprehensive biological surveillance systems; and 
ensuring that intelligence about biological threats is made actionable 
for decisionmakers on the scene. It is remarkable how State, local, and 
private sector partners have worked together to develop solutions on 
their own, given the absence of dedicated Federal resources. Fighting a 
common fight, they have established trusted relationships with other 
very different entities and that trust serves as the basis for sharing 
information and resources that would not otherwise occur.
    The Department of Homeland Security could stand to learn a lesson 
about information sharing here. The Department of Homeland Security 
should also take note that the districts that the Members of this 
committee represent are diverse. Some (like mine) are largely rural 
while others (like the one represented by the Gentlelady from New York, 
Ms. Clarke) are decidedly urban. However, when it comes to mass 
gatherings, we all share the same goal: ensuring that our communities 
are prepared for--and can respond to--the challenges of protecting mass 
gatherings. To that end, I look forward to the testimony this morning.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from New York, Mr. 
King, for an opening statement.
    Mr. King. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    Obviously, mass gatherings are a matter of great concern 
always but certainly since September 11; and I want to commend 
the Department for what it has done through the NIPP to try to 
address this, because this is primarily a local and State and 
private matter. But, on the other hand, it does need 
cooperation and assistance from the Department of Homeland 
Security; and I think that the NIPP goes a long way toward 
addressing that. But, again, this is a matter of great concern.
    I know certainly in New York we have had--for instance, in 
2004, we had the U.S. Tennis Open, we had the Republican 
National Convention, and we had the Yankees all playing in the 
same night. There is any number of events like that, such as 
New Year's Eve, such as when the U.N. General Assembly is held. 
Often there is a Federal and local component. You may have the 
U.N. General Assembly and you have the Yankees or the Mets 
playing at the same time.
    So this is something, obviously, that is of great 
importance in a post-9/11 era. It, to me, shows the absolute 
necessity of having cooperation at all levels, with a 
significant input from the Federal Government, with the concept 
being that the locals know better than anyone. Certainly the 
Federal Government can provide whatever intelligence or perhaps 
coordination is needed, but it is primarily a local 
responsibility.
    Also the importance of layered defenses. Because there is 
no silver bullet that is going to provide the type of blanket 
coverage that we may like. For instance, a key component I know 
in New York has been the Securing the Cities program which has 
been pushed very much by the Department which basically is 
intended to protect the city from radioactive devices being 
brought in as a first line of defense.
    So, all in all, Mr. Chairman, I think this hearing is 
vital. It is important. This whole issue is important.
    I think the Department has taken very significant first 
steps. I commend them for what they have done. Obviously, more 
needs to be done. More needs to be done at all levels, and we 
have to continue to work toward that.
    Mr. Chairman, no opening statement by me would be complete 
without my once again stating what I believe is an absolute 
necessity of us having an authorization bill this year and 
having hearings on it and going forward both for the purposes 
of the Department of Homeland Security, for the Committee on 
Homeland Security, and also so we can establish a benchmark 
that I think has to be set by this committee if we are going to 
be a successful committee.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Thompson. Other Members of the committee are 
reminded that, under committee rules, opening statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]

           Prepared Statement of Honorable Sheila Jackson Lee
                              July 9, 2008

    Mr. Chairman, I would like to thank you for convening this 
important hearing that examines the challenge of protecting mass 
gatherings across the United States. Each year, millions of Americans 
attend sporting and theatrical events, visit resorts, and frequent 
shopping venues. In many ways, these places allow people to gather as 
they desire in order to participate in activities that bring them joy 
and entertainment.
    Unfortunately, these locations are also a potential target for 
terrorists. On several occasions, Al Qaeda's leadership has asserted 
that causing economic damage to our country is among its chief 
objectives. In November 2004, for example, Osama bin Laden asserted 
that, ``[w]e are continuing this policy in bleeding America to the 
point of bankruptcy.'' When the economic consequences of an attack on a 
mass gathering event are combined with the spectacle that video 
coverage of it worldwide would cause, it is clear that we need to 
ensure that these events are secure and that effective response 
measures are in place.
     I am grateful, therefore, that Chairman Thompson has provided this 
necessary forum to speak on this vital issue and for us to discuss the 
best way forward to making sure that the American people can go about 
their way of life while knowing that their security is the top 
priority.
    As Chairwoman of the Transportation Security and Infrastructure 
Protection Subcommittee, I am quite familiar with many of the issues 
that will be covered in today's hearing. I believe that my 
subcommittee's robust oversight over DHS' infrastructure protection 
efforts has played a major role in helping to make the Department's 
efforts more effective.
    The DHS effort to secure mass gathering events is coordinated by 
the Commercial Facilities Sector (``CFS''), one of among 18 critical 
infrastructure sectors in the National Infrastructure Protection Plan 
(``NIPP''). Under this regime, the Department coordinates security 
efforts for assets and stakeholders within each of the 18 sectors, many 
in the private sector. Each sector has a ``Sector Specific Agency'' 
(``SSA'') that is responsible for leading the sector's efforts in NIPP 
compliance and, therefore, must liaise with the private sector, State 
and local governments, and the relevant departments and agencies of the 
Federal Government. In the case of the CFS, the SSA is DHS. To be sure, 
this is a large task. Not only is DHS a new department with a well-
documented track record of ineffective management, but the CFS, unlike 
most of the other 17 sectors, is not a traditionally regulated sector. 
In the case of the Energy Sector, for example, the SSA is the 
Department of Energy which has a long history of coordinating and 
regulating the sector's various stakeholders. Although such 
coordination and regulation has not, hitherto, been based upon 
security, preexisting partnerships can be leveraged for security-
related activities.
    Not only is DHS the SSA for the CFS, but it does not have a long 
history working and cooperating with the sector. Therefore, DHS must 
work harder. Accordingly, I know that my subcommittee will continue to 
provide DHS and the sector with the resources it needs to execute its 
vital mission.
    I must state clearly, however, that I commend Assistant Secretary 
Robert B. Stephan's leadership at DHS and the work he has done to 
develop the NIPP and to coordinate the relevant departments and 
agencies. I do believe his authority to coordinate NIPP-related 
functions must be legislatively strengthened to ensure better 
implementation of the NIPP--something that has been greatly lacking.
    With regard to the CFS specifically, Chairman Thompson and I have 
directed committee staff to assist us in examining the activities of 
this very important--and visible--sector. I applaud the organizational 
work that DHS has done to enable it to do more security-related work in 
the sector. By forming eight subsectors and convening regular meetings, 
Assistant Secretary Stephan has taken important steps to solidify a 
sector that was not preexisting prior to September 11, 2001. With that 
said, several steps are necessary to move from organizational progress 
to robust implementation of security and response-related measures and 
I have many concerns.
    First, my subcommittee held a hearing on March 12, addressing the 
security efforts currently underway in the United States in preparation 
for the Vancouver Olympics in 2010. During that hearing, several 
experts testified that Congress should consider creating a lead at DHS 
for non-National Special Security Events.
    Second, DHS needs to develop clear metrics for the implementation 
of security and response-related measures in the CFS as soon as 
possible. These metrics need to address exercises, resources 
allocation, and contingency planning efforts. I look forward to working 
with the Department to learn what it needs to make the metrics 
development process work as well as to help it acquire the necessary 
information from industry to feed those metrics. One response that I 
will not tolerate from the Department, however, is that the Paperwork 
Reduction Act prohibits the Department from acquiring information about 
security from the private sector. If the Department needs assistance to 
develop these surveys, then my subcommittee is eager and ready to 
assist.
    Third, I also encourage the Department to utilize the authorities 
that Congress has already allocated. For example, Assistant Secretary 
Stephan has effectively begun to use the convening power provided by 
the Critical Infrastructure Partnership Advisory Council (CIPAC). I 
hope, however, that the CIPAC will seek to incorporate members that do 
not merely represent an association, but include individual asset 
owners and operators so that it is clear that these entities are 
acquiring the necessary knowledge to implement security and response-
related procedures.
     Fourth, I hope that the Department leverages its voluntary private 
sector preparedness certification program that was a part of the 
``Implementing Recommendations of the 9/11 Commission Act of 2007.'' 
This program can be used to encourage companies to meet voluntary 
standards using a market-based approach. I look forward to hearing from 
Assistant Secretary Stephan about how this program has been introduced 
to the CFS.
    Fifth, I am very interested in the exercises taking place in the 
CFS and how post-exercise reports are utilized: I would like a full 
description of these exercises, their participants, and their 
frequency.
    On all of these topics, I am eager to hear from the Department 
about the tools and resources it needs to effectively secure the CFS.
    Thank you again, Mr. Chairman, for holding this important hearing 
today. I look forward to continuing to work aggressively on these 
issues.

    Chairman Thompson. I welcome our first panel of witnesses.
    Our first witness is well-known to the committee. 
Lieutenant Colonel Robert Stephan is Assistant Secretary for 
Infrastructure Protection at the Department of Homeland 
Security. He is responsible for the Department's efforts to 
secure different aspects of the Nation's infrastructure, 
including our commercial facilities where many mass gatherings 
occur and for which risk management assessment is a must.
    Our second witness is Vice Admiral Roger Rufe, Director of 
Operations Coordination and Planning at the Department of 
Homeland Security. His responsibilities include integrating 
component agency operations across the Department, coordinating 
with other Federal and non-Federal agencies and ensuring that 
the National Operations Center, which monitors many mass 
gatherings, functions efficiently and effectively.
    We thank both witnesses for their service to the Nation and 
for being here today.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his statement in 5 
minutes, beginning with Assistant Secretary Stephan.

    STATEMENT OF ROBERT B. STEPHAN, USAF (RET.), ASSISTANT 
 SECRETARY, INFRASTRUCTURE PROTECTION, NATIONAL PROTECTION AND 
     PROGRAMS DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Colonel Stephan. Thank you, Mr. Chairman, Ranking Member 
King and distinguished Members of the committee. I appreciate 
the opportunity to speak to you today and address DHS's efforts 
to enhance the security of mass gathering venues.
    Places of mass gathering actually comprise a very diverse 
group of commercial facilities and assets, typically privately 
owned and operated, which may include sports venues, amusement 
parks, concert halls, retail malls, office buildings, 
residential apartment buildings, hotels or resorts, a very 
diverse landscape of things that we have to worry about as 
potential target sets. These facilities make up the Commercial 
Facilities Sector under the National Infrastructure Protection 
Plan, or the NIPP, and generally follow a model of open access 
to enable operations and hence represent an inherent security 
challenge.
    Maintaining a balance between open access and security is a 
primary concern to both the Department and stakeholders at the 
State, local and private sector level within this sector. To 
address this complex dichotomy, DHS plays a key role in terms 
of information sharing, threat awareness, risk assessments, 
exercises and training, best practices, facilitating public-
private sector interactions, sometimes at the local level, and 
incident management. These activities are frequently augmented 
by specific Federal support to select special events at 
commercial venues.
    It is necessary to frame the context of this discussion 
around a central point: Mass gatherings are overwhelmingly and 
predominantly owned and operated by the private sector. Hence, 
the Department must leverage partnerships and relationships 
with the sector as well as State and local government officials 
to achieve success. This engagement supports a balanced 
approach that fairly addresses public and private sector 
concerns and, more importantly, ensures that risks are 
appropriately and reasonably mitigated.
    Within this engagement, most security and emergency 
response planning across localized venues is principally the 
responsibility of the private sector and State and local 
officials at the venue level, with the role of the Federal 
Government to augment and facilitate this process in many 
significant ways as appropriate.
    To facilitate and catalyze strong interaction among various 
private sector, local and State authorities, the Department has 
developed a series of initiatives that involve face-to-face 
venue-level engagements. These interactions serve a variety of 
purposes. Our protective security advisors are in place in 
communities throughout the Nation to assist with local to 
protect local efforts to protect assets and provide a Federal 
resource to communities, businesses and State and local law 
enforcement and emergency managers.
    Over the life of the program, our folks in the field have 
provided support to over 400 mass gatherings and special 
events. We have also supported selective security assessments 
and planning, as examples, for the papal visit to Washington, 
DC, New York City, the Super Bowl and Rose Bowl earlier this 
year.
    DHS has also provided similar support to sporting 
organizations and events, including 30 outreach activities to 
NASCAR venues, supporting mass evacuation and emergency 
response planning, providing situational awareness, exercise 
planning, and observation and participation in various security 
summits.
    DHS also sponsors the buffer zone protection plan program 
grant initiative. As of May, 2008, we have reviewed 863 buffer 
zone plans for the commercial facilities sector, awarding grant 
funds to State and local jurisdictions exceeding $50 million.
    Sir, as an important and troubling side note, the House 
markup of the 2009 DHS budget includes effectively an 
elimination of this program. This is a very important error I 
think that needs to be corrected, because this is one of the 
most unique programs in our inventory that specifically drives 
me and my staff down to a local level of collaborative planning 
and focusing money on targeted capabilities, gaps within State 
and local law enforcement jurisdictions that surround these 
particular commercial venues. That money has effectively been 
zero-ized in our 2009 budget. We would like your support to 
correct that wrong as the bill moves through Congress.
    To augment our boots-on-the-ground efforts in coordination 
with our private sector partners we have created a suite of 
planning and informational resources that assist commercial 
facility owners and operators in enhancing their security 
posture. The various publications, vulnerability and risk 
assessment methodologies, reports that highlight common 
vulnerabilities within the commercial facility sectors, 
recommended approaches to reduce or manage risk and to 
effectively deal with various aspects of various threat vectors 
have all been provided in my written testimony. I will not 
elaborate on them there, other than to reemphasize the fact 
that we have done quite a bit of work across a wide range of 
activities, including information sharing exercises, 
vulnerability assessment, on-site collaborative security 
planning. The Department continues to move forward in this 
area.
    In terms of concluding my opening remarks, I would like to 
take a moment to thank the committee for bringing this very 
important topic to the floor of discussion.
    As many of you recall, 3 years ago the Department was 
severely chastised by our own Inspector General's office and by 
the media for focusing on special events that happened to take 
place in local venues across the country. One that specifically 
comes to mind is the Mule Day Parade in Tennessee. We were 
specifically criticized for tracking and putting that event in 
our national asset database. That is unfortunate because, 
setting aside the importance of the mules temporarily, there 
are 150,000 to 200,000 people that gather in rural Tennessee 
one place, one time, 1 weekend every year. That to me is 
150,000 to 200,000 potential targets that involve the loss of 
human lives.
    So I am glad to see that this committee considers and 
acknowledges the importance of these particular mass 
gatherings. Because they make up the fabric of America, and we 
are here to secure that piece of America that often goes 
overlooked.
    Thank you, sir; and I look forward to your questions.
    [The statement of Colonel Stephan follows:]

                Prepared Statement of Robert B. Stephan
                              July 9, 2008

    Thank you, Chairman Thompson, Ranking Member King, and all of the 
distinguished Members of the committee. I appreciate the opportunity to 
speak to you about the Department of Homeland Security's efforts to 
enhance the security of mass gathering venues. Today also serves as an 
opportunity to initiate a dialog to address the issues identified in 
the majority staff report, ``Public Health, Safety and Security for 
Mass Gatherings.''
    ``Places of mass gathering'' actually comprise a very diverse group 
of commercial assets and facilities, typically privately owned and 
operated, which may include sports venues, amusement parks, concert 
halls, retail malls, office buildings, residential apartment buildings, 
and hotels and resorts. These facilities, which make up the Commercial 
Facilities Sector under the National Infrastructure Protection Plan 
(NIPP) framework, may be generally characterized by one of four common 
traits: business activities, personal commercial transactions, 
recreational pastimes, and accommodations. The Commercial Facilities 
Sector's requirement of open access, which is necessary to successfully 
conduct operations associated with these types of facilities, 
represents an inherent security challenge.
    Maintaining a balance between open access and security is a primary 
concern to both the Department and the stakeholders of the Commercial 
Facilities Sector. As is consistent throughout the private sector, 
business activities are driven by profitability. Owners and operators 
strive to ensure that patrons enjoy easy access to facilities; however, 
there is also an increasingly clear understanding within the sector 
that today's risk environment dictates a degree of security not 
previously seen in this very visible sector. To address this complex 
dichotomy between business operations and effective security solutions, 
DHS plays a key role in terms of information sharing, threat awareness, 
risk assessment processes and tools, exercises and training, best 
practices, facilitating public/private sector interactions, and 
national incident management activities. These activities are augmented 
by specific Federal support to select special events at commercial 
venues.
    Reviewing the Department's efforts in this Sector, I think it is 
necessary to frame the context of this discussion around a central 
point: Much like the bulk of the Nation's CIKR, this sector is 
overwhelmingly and predominantly owned and operated by the private 
sector. Hence, the Department must leverage partnerships and 
relationships with the sector and State and local government entities 
to achieve success. This engagement supports a balanced approach that 
fairly addresses both public sector and private sector concerns and, 
more importantly, ensures that risks are appropriately and reasonably 
mitigated.
    The partnership framework for those relationships is laid out in 
the NIPP. As you know, the NIPP is an outcome of Homeland Security 
Presidential Directive 7 (HSPD-7), which identified 17 Critical 
Infrastructure and Key Resource sectors and tasked the Department with 
developing a plan to enhance protection and security found in and 
around the Nation's critical infrastructure and key resources (CIKR). 
In addition, HSPD-7 designated the Department as the Sector Specific 
Agency (SSA) for a number of the 17 (now 18) CIKR sectors, including 
the Commercial Facilities Sector. Subsequently, DHS, in conjunction 
with 17 executive branch signatory departments and agencies, developed 
the NIPP, along with the associated Sector Specific Plans (SSP). DHS, 
as the SSA for the Commercial Facilities Sector, spearheaded the 
development of the Sector's SSP, which was released in May of last 
year.
    The NIPP provides guidance on addressing both terrorist threats and 
all-hazard incidents using the Sector Partnership Model through which 
coordinated planning and program implementation may take place. The 
Commercial Facilities SSP, much like the other SSPs, molds the NIPP's 
guidance to effectively address the diverse, complex, and unique 
environments and relationships found within the Sector. Moreover, the 
Sector Coordinating Model serves as an avenue through which the sector 
can inform the Department of requirements for tools, information, and 
training.
    Reviewing the wide range of products and services that DHS has 
developed in collaboration with the Commercial Facilities Sector, I 
once again emphasize the importance of strong partnerships between and 
among DHS, the private sector, and State and local government 
officials. Ultimately, security and emergency response planning is the 
primary responsibility of the private sector and State and local 
officials at the venue level. The role of the Federal Government is to 
augment and facilitate this planning process as appropriate. Incident 
response typically highlights this division of roles; in the event of a 
terrorist attack or natural disaster, local law enforcement and 
emergency services providers will be the first on the scene, 
immediately coordinating and collaborating with the private sector. The 
more informed both parties are of facility and community capabilities 
and gaps, the better the planning process and overall joint response 
will be.

          VULNERABILITY ASSESSMENTS AND SITE SECURITY PLANNING

    To facilitate strong interaction among DHS, the private sector, and 
local authorities, the Department has developed a series of programs 
and initiatives that involve face-to-face, venue-level engagements. The 
interactions serve a variety of purposes, including leveraging security 
specialist subject matter expertise to identify vulnerabilities and 
security gaps, recommending strategies to close security gaps, 
facilitating communications, initiating and maintaining relationships 
between the private sector and local authorities, and providing 
training and situational awareness.
    As you are no doubt aware, the Department's infrastructure 
protection work is not performed only in Washington, DC; rather, it 
takes place across the country via the Protective Security Advisor 
(PSA) cadre. PSAs are in place in communities throughout the Nation to 
assist with local efforts to protect critical assets, providing a 
Federal resource to communities and businesses. During natural 
disasters and contingency events, PSAs work in State and local 
Emergency Operations Centers. PSAs also provide real-time information 
on facility significance and protective measures to facility owners and 
operators, as well as State and local representatives.
    Typically, PSAs are engaged to support the planning and execution 
of National Special Security Events (NSSEs), led by the U.S. Secret 
Service, as well as non-NSSEs, led by the Department's Office of 
Operations Coordination and Planning under the direction of my 
colleague Vice Admiral Roger Rufe. These programs are designed to 
provide an objective framework through which Federal, State and local 
entities can identify special events occurring within their 
jurisdiction; request Federal support and training; and, after careful 
evaluation and assessment, receive Federal operational support as 
appropriate. I'll defer to VADM Rufe for a more in depth discussion of 
the NSSE program, although I will briefly describe contributions from 
personnel within the Office of Infrastructure Protection. These 
personnel administer a variety of training courses for the relevant 
public and private sector personnel; conduct site assistance visits and 
buffer zone plans for the venue and adjacent infrastructure; provide 
situational awareness and intelligence briefings; and provide 
geospatial products of area CIKR. Over the life of the program, PSAs 
and other security specialists from my office have provided support to 
over 400 mass gathering and special events, and 156 Special Event 
Assessment Rating (SEAR) Levels 1, 2, and 3 Special Events. Most 
recently, we have supported security assessments and planning for the 
Papal Visit to Washington, DC, and New York City, Super Bowl XLII, and 
the Rose Bowl.
    As part of their steady-state activities, PSAs work with State and 
local law enforcement and the private sector in identifying critical 
infrastructure assets, identifying vulnerabilities, recommending and 
implementing protective actions/measures, and providing risk mitigation 
training designed to teach terrorism prevention, detection, and 
awareness to facility owners/operators and State and local law 
enforcement entities.
    DHS has provided similar support to sporting organizations and 
events, such as the National Football League, Major League Baseball, 
National Basketball Association, National Collegiate Athletic 
Association, as well as sporting and mass gathering venue managers 
associations in general. For example, specific to race events, PSAs 
work closely with NASCAR--having conducted over 30 outreach efforts to 
NASCAR venues, including mass evacuation and emergency response 
planning, providing situational awareness in the run up to and 
throughout events, exercise planning and observation, participating in 
NASCAR Security Summits, and conducting security surveys.
    In addition to the PSA program, the Buffer Zone Protection Program 
(BZPP) grant initiative, one of the Department's most successful, long-
running programs, is administered by my office in conjunction with 
FEMA. This program is designed to provide local law enforcement and 
emergency responders and other public sector entities with the 
resources necessary to enhance security and responsiveness ``outside 
the fence'' at CIKR sites, including those in the Commercial Facilities 
Sector. Local entities are able to purchase equipment and training 
resources for the purpose of increasing preparedness, thereby 
complicating a terrorist's plans to attack from the vicinity adjacent 
to CIKR sites, ultimately buying down risk on a local and regional 
level. As of May 2008, the amount of BZPP grant funds awarded to the 
commercial facilities sector has exceeded $50 million.
    The Site Assistance Visit (SAV) program is another long-running DHS 
program that has had a measurable impact on the Commercial Facilities 
Sector, particularly those sites that would be considered places of 
mass gathering. SAVs identify vulnerabilities, leading to a dialog 
between DHS and the facility owners/operators and local authorities 
concerning means of mitigating identified vulnerabilities. As of May 
2008, there have been 246 SAVs performed at various commercial 
facilities across the Nation. We are also in the process of adding a 
cybersecurity analysis component to the SAV program, which will further 
enhance this program's value to our private sector partners.

          PLANNING DOCUMENTS AND TOOLS FOR PRIVATE SECTOR USE

    To augment our boots-on-the-ground efforts, in coordination with 
our private sector partners, DHS has created a suite of planning and 
informational resources that assist owners and operators of the 
Nation's CIKR in enhancing security around their facilities. One of 
these products, the Protective Measures Guide for U.S. Sports League, 
released in January 2008, has been specifically designed for use by 
participating representatives of the Sports Leagues and Public Assembly 
Sector Coordinating Subcouncil (an organization formed under the NIPP 
framework). Private sector participants included Major League Baseball, 
Major League Soccer, NASCAR, the National Basketball Association, the 
National Football League, the National Hockey League, and the United 
States Tennis Association. The guide provides an overview of protective 
measures that can be implemented to assist sports teams and owners/
operators of sporting event facilities in planning and managing 
security at their facilities. DHS plans to develop additional 
protective measures guides for the remaining six Commercial Facilities 
subsectors over the next 2 years, with guides for the Retail, Lodging, 
and Outdoor Events (Amusement Parks/Fairs) subsectors to be released in 
fiscal year 2009.
    The Department has also developed Common Vulnerability (CV), 
Potential Indicators of Threat (PI), and Protective Measures (PM) 
Reports based on data gathered from Site Assistance Visits and the 
Buffer Zone Protection Program, for use by local law enforcement and 
asset owners and operators to support their efforts in securing CIKR 
assets. The CV, PI, and PM reports have been updated and conveniently 
integrated into a single document for 17 facility types within the 
Commercial Facilities Sector. They have been distributed widely, 
including via the Commercial Facilities Sector Coordinating Council and 
its eight Subcouncils, in addition to the Homeland Security Information 
Network--Commercial Facilities Sector (HSIN-CFS) portal.
    FEMA has also created the Risk Management Series, designed 
specifically for commercial facilities, which includes a large suite of 
man-made disaster publications directed at strengthening the building 
inventory to reduce the potential impact from the forces that might be 
anticipated in a terrorist assault. The objective of the series is to 
reduce physical damage to structural and nonstructural components of 
buildings and related infrastructure, and to reduce resultant 
casualties from impact by conventional bombs, chemical, biological, and 
radiological (CBR) agents; earthquakes; floods; and high winds.
    One publication in the FEMA Risk Management Series, Methodology for 
Preparing Threat Assessments for Commercial Buildings (FEMA 452), is 
designed to assist commercial facility owners/operators in assessing 
the vulnerabilities, threat, and risks associated with their 
facilities. FEMA 452 has been used to assess hundreds of buildings 
within the Commercial Facilities Sector. Currently, the number of 
people trained in FEMA has increased to 775; it is estimated that an 
additional 15 training sessions will be offered by September 2009.
    In terms of self-assessment tools available to the Commercial 
Facilities Sector, DHS is currently redeploying the Vulnerability 
Identification Self-Assessment Tool (ViSAT), to be designated the 
Risk--Self-Assessment Tool (R-SAT). R-SAT's building block, ViSAT, is a 
Web-based self-assessment tool developed by DHS and provided free of 
charge to CIKR asset owners/operators. The goal of this program is to 
raise the level of security at CIKR facilities across the Nation and to 
assist in establishing a common baseline of security from which all 
assets in certain sectors or subsectors can identify weaknesses and 
establish protection plans. Modules have currently been deployed for 
stadiums, arenas, convention centers, performing arts centers, and 
speedways. Approximately 1,000 commercial facilities have access to 
ViSAT, and DHS has provided a grant to the International Association of 
Assembly Managers, a co-chair of the Public Assembly Subcouncil, to 
promote and provide training for this tool.

                          INFORMATION SHARING

    The Department's Homeland Infrastructure Threat and Risk Analysis 
Center (HITRAC) conducts all-source intelligence research and analysis 
to assess the potential threat to critical infrastructure and key 
resources across the Nation, as well as develop lessons learned 
products derived from attacks on commercial venues abroad. HITRAC's 
goal is to provide owners and operators of CIKR with strategically 
relevant and actionable information on threats they face, primarily 
from terrorists. HITRAC conducts outreach to both private and public 
sector partners through classified and unclassified threat briefings to 
members of private sector coordinating councils; Government 
coordinating councils; State and local officials; and individual 
companies. In the last 10 months alone, DHS HITRAC has released more 
than seven products specific to places of mass gathering, including 
bulletins related to Super Bowl XLII, the recent Papal visit to 
Washington, DC, and New York City, and threats to popular sports and 
entertainment venues.
    Among other means, DHS disseminates these bulletins by the Homeland 
Security Information Network (HSIN), the Department's primary platform 
used to facilitate the information-sharing necessary for coordination, 
planning, mitigation, and response by the Government and the private 
sector regarding threats to sectors identified by DHS. HSIN is an 
internet-based platform that enables secure, encrypted Sensitive But 
Unclassified/For Official Use Only (SBU/FOUO) level communications 
between DHS and vetted private sector members, both within the 
Commercial Facilities Sector and across other sectors identified by 
DHS. The Commercial Facilities Sector maintains an independent site on 
the HSIN portal, which was designed and implemented in collaboration 
with its Government Coordinating Council and Sector Coordinating 
Council, and presently has 131 registered GCC and SCC organizational 
users.
    The next generation of HSIN for the Commercial Facilities Sector, 
based on requirements developed by the sector itself, will include 
additional features enhancing the value and utility of the platform. 
Updates will include a virtual incident coordination center acting as a 
``one-stop-shop'' for incident operations information sharing and 
improved Sector content management capabilities.

                         TRAINING OPPORTUNITIES

    We are also firm believers that in addition to providing on-site 
assessments, self-assessment tools, and disseminating threat and 
intelligence information, providing training to the private sector is a 
critical component of enhancing security capabilities. DHS engages the 
private sector through a number of different educational opportunities, 
including conferences and seminars, and takes advantage of association 
and trade conferences, working with our partners in the Commercial 
Facilities Sector. DHS has made presentations, facilitated table-top 
exercises, or exhibited educational materials at 12 major sporting 
events related seminars or conferences since 2005. Audiences have 
included sport-specific conferences as well as facility manager 
conferences.
    The Private Sector Counterterrorism Awareness Course is designed to 
improve the knowledge of private sector security professionals by 
providing exposure to key elements of soft target awareness, 
surveillance detection, and improvised explosive device (IED) 
recognition. The workshop training materials enhance and reinforce 
participants' knowledge, skills, and abilities related to preventing, 
protecting against, responding to, and recovering from terrorist 
threats and incidents. The workshop outlines specific counterterrorism 
awareness and prevention actions that reduce vulnerability and mitigate 
the risk of domestic terrorist attacks. DHS has provided this training 
to 336 Commercial Facilities Sector representatives.
    The Soft Target Awareness Course is available to property/facility 
managers, supervisors, first-line managers and their security and 
safety staff, and entry level employees. Participants receive an 
introduction to terrorism; learn to recognize and prevent terrorist 
activities (basic surveillance detection methods); learn the basics of 
prevention, response, and recovery; and then discuss with other 
attendees issues specific to their sector of business. DHS has provided 
this training to 1,935 Commercial Facilities Sector representatives.
    The Surveillance Detection Course is intended for commercial 
infrastructure operators and security staff. This course is designed to 
provide attendees with a foundation for identifying locations conducive 
to observing facility operations and/or personnel, employing the 
fundamentals of surveillance detection, and observing and reporting 
suspicious individuals and activity around facilities. DHS has provided 
this training to 509 Commercial Facilities Sector representatives.
    The Protective Measures Course is the Department's newest training 
available to Commercial Facilities Sector personnel in the public/
private sector and is designed to provide students with the knowledge 
to identify vulnerabilities and select appropriate Protective Measures 
for their unique facility. The course focuses on providing information 
pertaining to common vulnerabilities, available Protective Measures, 
and strategies for selecting appropriate Protective Measures.
    DHS is also developing an Active Shooter Training Guide to enhance 
CIKR employee preparation for active shooter events. An active shooter 
event is generally defined as a situation where an armed person has 
used deadly force against other persons and continues to do so while 
having access to additional victims. The final product will be a desk 
reference guide addressing how employees, managers, training staff, and 
human resources staff, at their respective levels, can mitigate and 
appropriately react in the event of an active shooter. This material is 
slated to be distributed to the commercial facilities sector partners 
prior to the 2008/2009 holiday shopping season.
    The Bomb-Making Materials Awareness Program (BMAP) is designed to 
increase private sector and citizen awareness of activity associated 
with bomb making, including the manufacture of homemade explosives for 
use in the construction of IEDs. The program reaches out to businesses 
that manufacture and sell many of the materials that bomb makers will 
attempt to acquire, instructing retail employees not only which 
materials they need to be aware of but also how to better identify 
``suspicious behavior.'' The awareness tools, which include cards and 
posters, are industry-specific and can be kept at the point of sale for 
easy reference. DHS has provided this training to 28 Commercial 
Facilities Sector representatives.
    DHS also has developed a number of courses and training tracks for 
Commercial Facilities Sector association training venues, such as the 
International Association of Assembly Managers (IAAM) Academy for Venue 
Safety and Security (AVSS). This training includes security planning 
and life safety management for the public assembly venue industry. The 
core educational tracks are Risk Management, Emergency Planning, 
Security Operations, and Training. These tracks familiarize students 
with the many types of emergencies that can occur at public assembly 
facilities, and they offer techniques for planning, implementing, and 
ensuring the safety of patrons, staff, and facilities. Later this 
month, we will visit the Academy to discuss Evacuation Planning at 
Events/Venues of Mass Gathering.
    Going beyond private sector association activities, DHS is reaching 
out to academia for research and education focused on the Commercial 
Facilities Sector through the University of Southern Mississippi's 
Center for Spectator Sports Security Management Advisory Board. The 
Center was established through a grant awarded by DHS. The Center is 
the first of its kind in the United States, building capabilities among 
those responsible for sports events and security management through 
research, education, and outreach efforts. Research conducted at the 
Center for SSSM has already paid off, identifying gaps in the education 
and training of current sport event management professionals. DHS works 
closely with the Center, participating with the Advisory Board in an 
information-sharing capacity.

         NASCAR MASS EVACUATION PLANNING GUIDE FOR MAJOR EVENTS

    Last, as you know, earlier this year, DHS released the NASCAR Mass 
Evacuation Planning Guide for Major Events, which was developed through 
a DHS/NASCAR coordinated effort and provides guidance on utilizing a 
mass evacuation plan template for NASCAR-sanctioned facilities. The 
template was designed to assist NASCAR venues in developing site-
specific evacuation procedures for responding to potential incidents in 
an all-hazards environment. The guide was rolled out to the sector in 
January 2008 at the annual NASCAR Security Summit. The development of 
this guide was an extensively collaborative effort. Meetings with 
NASCAR security officials between December 2006 and January 2008 hinged 
upon on-site visits to four NASCAR tracks--Lowe's Motor Speedway, 
Talladega Superspeedway, Infineon Raceway, and the Milwaukee Mile.
    Our intent was to develop a flexible guide that each NASCAR venue 
type could utilize as a baseline for developing an individualized plan 
suited to the unique characteristics and jurisdictions that exist from 
track to track. This requires a collaborative planning process with the 
active participation of both private and public sector stakeholders at 
the local level. This process also ensures that the plan is developed 
to the resources available to support plan implementation.
    Our long-term objective is to develop similar evacuation guides for 
other venues within the Sports Leagues Subsector and, eventually, for 
the entire Commercial Facilities Sector. A working group comprised of 
Federal agencies, stadium associations, universities, and private 
sector partners is currently making adaptations to the NASCAR guide for 
use at collegiate and professional sports stadiums. This guidance will 
be deliverable by January 1, 2009.

         PUBLIC HEALTH, SAFETY AND SECURITY FOR MASS GATHERINGS

    Concluding my discussion of our progress and accomplishments in 
evacuation planning, I would like to take a moment to thank the 
committee for the commentary and constructive criticism provided within 
the report on Public Health, Safety and Security for Mass Gatherings. 
The report highlights the complexity of the Commercial Facilities 
Sector, and the Sports Leagues Subsector in particular, to wit: there 
are 42 NASCAR events annually, 32 NFL teams, 30 NBA teams, 30 MLB 
teams, 30 NHL teams, 14 MLS teams, 116 Division 1 college football 
teams that compete weekly from late August through early January of 
each year, among a host of other sporting events that occur each and 
every week of the year at the professional, amateur, and recreational 
level.
    From State to State, jurisdictional boundaries vary, law 
enforcement and emergency services capabilities vary, legal authorities 
vary, and even the characteristics of the numerous sports venues 
themselves vary significantly. The one constant is that the individual 
facility owner or operator, and the corresponding State and local 
officials know the unique circumstances facing the specific asset, and 
are, therefore, best positioned to serve as primary lead in 
coordination of security and emergency response planning at the venue 
level. DHS' role in Commercial Facility Sector events is to augment and 
facilitate planning and operational support where necessary and 
appropriate, with the specific facility developing the individual plan 
side-by-side with local and State authorities. As I previously 
outlined, DHS facilitates this coordination through a variety of 
engagements. These programs have been made readily available to the 
private sector and will be provided on a continual basis to ensure that 
DHS thoroughly engages with the multitude of facilities of this type 
throughout the Nation--also ensuring that the parties with the unique 
knowledge are enabled and contributing to the planning process. The 
feedback we have received from our partners has validated our efforts, 
and we will continue to solicit feedback on our activities and refocus 
where and as necessary.
    We are committed to continued engagement with the Commercial 
Facilities community not only by sharing our expertise, but also by 
enabling frank, two-way discussions focused on the overarching goals of 
enhancing their security efforts and protecting the general public.
    Thank you for your attention, and I would be happy to answer any 
questions you may have at this time.

    Chairman Thompson. Thank you very much. I am sure the 
people in Tennessee appreciate that shout-out for Mule Day.
    Vice Admiral Rufe for 5 minutes, please.

STATEMENT OF ROGER T. RUFE, JR., USCG (RET.), DIRECTOR, OFFICE 
OF OPERATIONS COORDINATION AND PLANNING, DEPARTMENT OF HOMELAND 
                            SECURITY

    Admiral Rufe. Good morning Mr. Chairman, Ranking Member 
King and Members of the committee. I am Roger Rufe, Director of 
the Office of Operations Coordination and Planning at the 
Department of Homeland Security. I am pleased to appear today 
alongside Assistant Secretary Stephan and the other 
distinguished witnesses. Thank you for inviting me to discuss 
how the Office of Operations Coordination and Planning conducts 
plannings for mass gatherings and other special events.
    It is important to recognize that, as Assistant Secretary 
Stephan just acknowledged, that the vast majority of planning 
that must be done for special events is the responsibility of 
State, local and tribal entities. As such, as it is in almost 
all cases, Federal support to a special event or a mass 
gathering not on Federal property comes only after a request is 
received from the special event planners for support and is 
deemed to require Federal coordination.
    A special event is defined as a function that draws a large 
public crowd to the host city or venue. It may also be a 
significant political function or world event hosted on U.S. 
soil. It can be free or a ticketed event. It may be local or 
have regional importance.
    The Special Event Working Group, known as the SEWG, or 
SEWG, is a group of representatives of various Federal entities 
who are involved in planning and coordinating Federal 
activities for a special event. The SEWG facilitates a unified 
interagency planning and coordination effort for all special 
events. In addition, the SEWG identifies events that may 
require a coordinated Federal response and collectively 
coordinates Federal assets to bridge any capability gaps 
identified by State and local partners that have not already 
been addressed by exhausting local mutual assistance 
agreements.
    Within this process, the mission of OPS is to act on behalf 
of the Secretary to fulfill his Homeland Security Presidential 
Directive 5 responsibilities to integrate DHS and interagency 
planning and coordinate operations for designated special 
events.
    The membership of the SEWG consists of representatives 
designated by their respective Federal departments, agencies 
and components. Presently, there are upwards of 50 Federal 
entities with representatives assigned to the SEWG. I submitted 
a list of these member agencies along with my written statement 
today.
    DHS has developed a method for assigning a relative risk 
level to the multitude of special events Nation-wide brought to 
our attention by State, local and tribal entities. This is 
important as the Federal Government cannot support every 
special event occurring across the 56 States and territories of 
the United States. It is important to understand that entry of 
a request to be evaluated for a designated risk level is 
completely voluntary. Except in rare cases, DHS does not 
evaluate events for risk level unless the event is nominated by 
an appropriate State, local or tribal entity.
    The first step in this evaluation process is a Special 
Event Data Call. This automated system allows special event 
planners from across the country to enter information regarding 
upcoming events into a database. The most recent data call, 
which covers calendar year 2008, had over 4,000 events entered 
primarily by State and local planners.
    Once the data call is closed, the events are run through 
the risk methodology program, which analyzes response criteria 
captured by the questionnaire and then assesses stages of 
threat, consequences and vulnerabilities for each event. This 
results in a preliminary Special Event Assessment Rating, or 
SEAR, level for an event, categorized as SEAR levels 1 through 
5.
    The preliminary ratings are passed to the SEWG co-chairs by 
OPS for further consideration. The SEWG co-chairs are made up 
of FEMA, OPS, our risk management folks at DHS, the FBI and the 
Secret Service.
    These co-chairs treat the preliminary SEAR rating output as 
a starting point to identify the final SEAR level. The co-
chairs analyze the initial ranking to account for any special 
circumstances, such as whether there has been a request for 
assistance from planners and whether a current threat has been 
identified for the event.
    The Federal Government coordination and non-SSE special 
events is concentrated on those events designated as SEAR Level 
1 or 2. These events are ones for which either direct or 
extensive Federal interagency security and incident management 
preparedness is required and some level of predeployment of 
Federal assets is required. For every SEAR Level 1 or 2 special 
event, a Federal coordinator is appointed by the Secretary to 
serve as the Secretary's representative and has responsibility 
for coordinating Federal assets for an event. An Integrated 
Federal Support Plan is also developed.
    For these events, SEWG's interagency threat committee also 
generates a Joint Special Event Threat Assessment. These 
assessments are crafted by interagency Intelligence Community 
professionals and are distributed to Federal partners as well 
as to State and local fusion centers in need of the 
information. The focus is upon intelligence, threat, risk 
information and identifies critical infrastructure and key 
resources in proximity to large events.
    Regardless of the SEAR level designation assigned, the 
Federal Government can remain involved with a special event. 
DHS will maintain awareness of all known special events through 
monitoring by a national operations center. In addition, State 
and local planners may request support for their events from 
the Federal Government and agencies located near the event.
    I am pleased to report to you today this progress that DHS 
has made with the interagency community and how we deal with 
these special event requirements each year. I would be happy to 
answer any of your questions.
    [The statement of Admiral Rufe follows:]

                Prepared Statement of Roger T. Rufe, Jr.
                              July 9, 2008

    Good morning, Chairman Thompson, Ranking Member King and Members of 
the committee. I am Roger Rufe, Director of the Office of Operations 
Coordination and Planning at the Department of Homeland Security (DHS). 
I am pleased to appear today alongside Assistant Secretary Stephan and 
the other distinguished witnesses. Thank you for inviting me to discuss 
how the Office of Operations Coordination and Planning (OPS) conducts 
planning for Mass Gatherings and other Special Events. I welcome this 
opportunity to discuss the Special Events Working Group and how their 
planning effort facilitates the ability of the Secretary of DHS 
(Secretary) to execute his incident management responsibilities in 
accordance with Homeland Security Presidential Directive-5 (HSPD-5).
    The Secretary's role in this arena is that of his overall 
responsibility for the execution of the key missions of DHS: preventing 
terrorist attacks; reducing the country's vulnerability to terrorism; 
minimizing damage and assisting in recovery from terrorist attacks that 
do occur in the United States. It is important to recognize, though, 
that the vast majority of Special Events are the responsibility of 
State, local and tribal entities. As such, in almost all cases, Federal 
support to a Special Event or a Mass Gathering not on Federal property, 
comes only after a request is received from the Special Event planners 
for support and is deemed to require Federal coordination.

                   SPECIAL EVENT WORKING GROUP (SEWG)

    The Special Event Working Group (SEWG) is a group of 
representatives of various Federal entities who may be involved in 
planning for or coordinating Federal activities for a special event. To 
paraphrase, a special event is defined as a function that draws a large 
public crowd to the host city or venue in combination with political 
importance and local, regional or international significance. The SEWG 
was formed in April 2004, to validate a methodology for identifying and 
categorizing special events (other than those designated as National 
Special Security Events (NSSE)), and coordinating Federal support to 
those events.\1\
---------------------------------------------------------------------------
    \1\ National Special Security Events are significant domestic or 
international events, occurrences, contests, activities, or meetings, 
which, by virtue of their profile or status, represent a significant 
target, and therefore warrant additional preparation, planning, and 
mitigation efforts. The designation process for NSSEs is established by 
NSPD-46/HSPD-15, Annex II and HSPD-7.
---------------------------------------------------------------------------
    The mission and purpose of the SEWG is to support a unified 
interagency planning and coordination effort for Special Events and to 
ensure coordination of Federal support to the designated event. The 
SEWG identifies events that may require a coordinated Federal response 
and collectively coordinates Federal assets to bridge any capability 
gaps identified by State and local partners that have not already been 
addressed by exhausting local mutual assistance agreements. Within this 
process, the mission of OPS is to act on behalf of the Secretary and 
his HSPD-5 responsibilities to integrate DHS and interagency planning 
and coordinate operations for designated Special Events in order to 
prevent, protect, respond to and recover from terrorist threats/
attacks.
    The SEWG consists of several elements: (1) The five Co-chairs of 
the SEWG who consist of senior or executive level (GS-15/SES) managers 
from OPS, the Federal Emergency Management Agency (FEMA), the Federal 
Bureau of Investigation (FBI), the United States Secret Service (USSS) 
and DHS Office of Risk Management & Analysis (RMA); (2) the SEWG 
General Membership itself; and (3) the DHS programmatic, coordination 
and administrative staff dedicated to SEWG which is housed in OPS.
    The membership of the SEWG consists of representatives designated 
by their respective Federal Departments, Agencies and/or Components. 
These representatives are traditional Federal agencies with missions 
that are related to Special Events planning, coordination, and 
execution, and span the four pillars of the National Response 
Framework: Prevention, Protection, Response and Recovery. Presently, 
there are upwards of 50 Federal Departments/Agencies and their 
Components with representatives assigned to the SEWG (see the attached 
exhibit No. 1).

                      PRIORITIZING SPECIAL EVENTS

    DHS, including the Office of Risk Management and Analysis (RMA) and 
the Office of Intergovernmental Programs (IGP) has developed a method 
for assigning a relative risk level to the multitude of special events 
Nation-wide brought to our attention by State, local and tribal 
entities. This is important as the Federal Government cannot possibly 
support every ``Special Event'' occurring across the 56 States and 
territories of the United States. It is important to understand that a 
request to be evaluated for a designated risk level is completely 
voluntary. Except in exceedingly rare cases, DHS does not evaluate 
events for their appropriate risk level unless the event was nominated 
by an appropriate State, local, or tribal entity. On numerous 
occasions, DHS's Office of Intelligence and Analysis has reviewed and 
provided substantive input into a State and local produced threat 
assessments.
    The first step in this evaluation process is the Special Event Data 
Call. This automated system, allows Special Event planners from States, 
cities and localities to enter information regarding upcoming special 
events into a database. The most recent Data Call which covers Calendar 
Year 2008 had over 4,000 events entered primarily by State and/or local 
Planners. This list is the crucial starting point and is the only 
method that provides DHS and the SEWG with situational awareness.
    In order to ensure the Special Event Data Call properly conducts a 
preliminary assessment of events, the DHS SEWG has developed a 
questionnaire for individuals at the State and local level who are 
users of the system and entering their special event data. Once the 
data call is closed, the events are run through the risk methodology 
program,which analyzes response criteria captured by the questionnaire 
and assesses stages of threat, consequences and vulnerabilities for the 
event. This results in preliminary Special Event Assessment Rating 
(SEAR) level results, which are categorized as SEAR Levels 1-5. The 
preliminary ratings are passed to the SEWG co-chairs by OPS for further 
consideration. The SEWG, OPS, RMA, and IGP work with their respective 
subject matter experts to ensure the methodology fits the needs for the 
users at the Federal, State and local levels.
    The SEWG co-chairs treat the preliminary SEAR rating output as a 
starting point to identify the final SEAR level. The co-chairs analyze 
the initial ranking to account for any special circumstances, such as 
whether there have been requests for assistance from planners and 
whether a current threat has been identified.

                        SEAR LEVEL 1 & 2 EVENTS

    The Federal Government involvement in non-NSSE special events is 
concentrated on those events designated as SEAR Level 1 or 2.
    An event is considered to be a SEAR Level 1 when it is an event of 
significant national and/or international importance that may require 
extensive Federal interagency security and incident management 
preparedness. Pre-deployment of Federal assets as well as consultation, 
technical advice and support to specific functional areas in which the 
State and local agencies may lack expertise or key resources may also 
be warranted. In order to ensure unified Federal support to the local 
authorities and appropriate national situational awareness, a Federal 
Coordinator (FC) will be designated, and an Integrated Federal Support 
Plan (IFSP) will be developed.
    A SEAR Level 2 event is a significant event with national and/or 
international importance that may require direct national-level Federal 
support and situational awareness. The magnitude and significance of 
these events calls for close coordination between Federal, State, and 
local authorities and may warrant limited pre-deployment of USG assets 
as well as consultation, technical advice and support to specific 
functional areas in which the State and local agencies may lack 
expertise or key resources. In order to ensure unified Federal support 
to the local authorities and appropriate national situational 
awareness, a Federal Coordinator (FC) will be designated and an 
Integrated Federal Support Plan (IFSP) will be developed.
    On the other hand, SEAR Level 3, 4 and 5 events do not have a FC 
identified nor an IFSP generated, however, State and local officials 
may still solicit resources from Federal agencies at the agencies' 
expense.
    Regardless of the SEAR Level designation assigned, the Federal 
Government can remain involved with the special event. DHS will 
maintain awareness of all special events through reporting produced by 
the National Operations Center (NOC). In addition, State and local 
planners may request support for their events from the Federal 
Departments and Agencies located near the event.
    I would like to note that the SEAR levels themselves are an 
excellent illustration of the cooperation and coordination accomplished 
in the SEWG. The SEAR level system is the evolution of various Special 
Event ratings previously used in the Federal Government. Until 2006, 
DHS used Special Event Homeland Security (SEHS) as the DHS standard. 
The Federal Bureau of Investigation used Special Event Rating Level 
(SERL) as their standard. Often levels were different from one 
organization to another. Through interagency cooperation fostered by 
the SEWG, it was agreed that the SERL/SEHS terminology would be 
eliminated, and the common term SEAR would be utilized by Federal 
planners for all rated events. For the first time, the interagency 
community had one term and one method to describe and categorize 
Special Events.
    A Federal Coordinator (FC) is assigned for every SEAR Level 1 or 2 
special event. The FC is nominated by a SEWG member agency, approved 
and appointed by the Secretary, and has responsibility for coordinating 
Federal Assets for an approved SEAR Level 1 or 2 Event. He or she 
serves as the Secretary's representative locally and is selected from 
the ranks of the trained Principal Federal Official cadre if available 
or another experienced senior or executive Federal manager. Whenever 
possible, the FC is selected from the local area of the event being 
supported.
    Responsibilities of the FC include:
  <bullet> Engaging Federal, State and local officials; consult State 
        and local authorities on their event plans;
  <bullet> Coordinating the field information required for the 
        completion of the Integrated Federal Support Plan;
  <bullet> Coordinating Integrated Federal Support Plan (IFSP) input 
        from interagency HQS elements through OPS Special Events Staff;
  <bullet> Assessing, evaluating and de-conflicting requests for 
        Federal assistance;
  <bullet> Coordinating requests for assistance and identified 
        capability gaps with DHS, HQ and/or Field Elements and other 
        Federal Departments/Agencies.
    For every SEAR Level 1 and 2 event, an IFSP is also prepared. The 
IFSP is a collaborative effort of the SEWG and is designed to:
  <bullet> Inform the Secretary and FC of all the Federal activities 
        and support in preparation for and execution of a Special 
        Event;
  <bullet> Facilitate the FC's ability to initially participate within 
        the Unified Coordination Group in case of an incident to 
        support the Secretary's incident management responsibilities;
  <bullet> Educate Federal interagency partners on Federal resource 
        application.
    Additionally, there are special threat products produced for each 
SEAR Level 1 and 2 event. The SEWG has a robust interagency threat 
committee which works to generate Joint Special Event Threat 
Assessments (JSETA). These assessments are crafted by interagency 
intelligence community professionals who belong to the SEWG threat 
committee and are specific to Level 1 and Level 2 events. JSETA are 
distributed to the interagency community for situational awareness as 
well as to the State and local fusion centers in need of the 
information. They focus upon intelligence, threat and risk information, 
and identify critical infrastructure and key resources in proximity to 
large events.

                               CONCLUSION

    I am very pleased to report on the progress DHS and the interagency 
community has made in how we support Federal, State, and local events. 
The SEWG, in conjunction with the SEWG Threat/Risk Assessments, 
Methodology, Airspace Security committees, continue to work together to 
ensure that appropriate events are covered from a Federal perspective. 
The SEWG also ensures that there are no gaps in local plans and/or 
duplication of Federal efforts to support those plans. The SEWG does 
not interfere or limit any member agency's ability to conduct its core 
mission, if appropriate, regardless of the SEAR level of the event. The 
success of DHS in supporting Special Event Planners is due to the 
cooperation and coordination found in the SEWG, with the ultimate goal 
of rendering appropriate Federal support for mass gatherings and 
Special Events.
    I hope that this testimony leaves you with an understanding for the 
efforts that DHS, OPS Coordination and Planning and the SEWG have made 
to improve planning and Special Event coordination. Thank you for the 
opportunity to report to the committee on our ongoing efforts. I 
request that you place this testimony and the list of SEWG member 
agencies in the permanent record and would be pleased to answer any 
questions at this time.

        EXHIBIT 1.--2008 SPECIAL EVENTS WORKING GROUP MEMBERSHIP

    The interagency Special Event Work Group has members from the 
following organizations:
  <bullet> Department of Homeland Security (DHS)
    <bullet> Customs and Border Protection (CBP)
    <bullet> Federal Emergency Management Agency (FEMA)
      <bullet> Office of Grants and Training (G&T)
      <bullet> Office of National Capital Region Coordination (NCRC)
    <bullet> Immigration and Customs Enforcement (ICE)
    <bullet> Transportation Security Administration (TSA)
    <bullet> United States Coast Guard (USCG)
    <bullet> United States Secret Service (USSS)
    <bullet> Office of Intelligence and Analysis (I&A)
    <bullet> Office of Operations Coordination (OPS)
      <bullet> Incident Management Division (IMD)
      <bullet> National Operations Center (NOC)
    <bullet> National Preparedness and Programs Directorate (NPPD)
      <bullet> Office of Infrastructure Protection (IP)
      <bullet> Office of Intergovernmental Programs (IGP)
      <bullet> Risk Management & Analysis (RMA)
      <bullet> Cyber Security & Communications (CSC)
    <bullet> Domestic Nuclear Detection Office (DNDO)
    <bullet> Office of Private Sector Coordination
    <bullet> Office of Science and Technology (S&T)
    <bullet> Office of Health Affairs (OHA)
    <bullet> Office of General Counsel (OGC)
    <bullet> Office of Public Affairs (OPA)
  <bullet> Department of Justice (DOJ)
    <bullet> Alcohol, Tobacco, Firearms & Explosives (ATF)
    <bullet> Counterterrorism Division/DOJ HQS
    <bullet> Criminal Division/DOJ HQS
    <bullet> Federal Bureau of Investigation (FBI)
    <bullet> Terrorist Screening Center (TSC)
    <bullet> U.S. Marshals Service (USMS)
  <bullet> Department of Agriculture (USDA)
  <bullet> Department of Commerce (DOC)
  <bullet> Department of Defense (DOD)
    <bullet> U.S. Northern Command (NORTHCOM)
      <bullet> Joint Task Force--Civil Support (JTF CS)
    <bullet> National Guard Bureau (NGB)
    <bullet> Joint Staff
    <bullet> NORAD
    <bullet> Office of Assistant Secretary for Homeland Defense
    <bullet> National Geospatial-Intelligence Agency (NGA)
    <bullet> Defense Threat Reduction Agency (DTRA)
  <bullet> Department of Energy (DOE)
  <bullet> Department of Health and Human Service (HHS)
  <bullet> Department of the Interior (DOI)
  <bullet> Department of State (DOS)
  <bullet> Department of Transportation (DOT)
  <bullet> Department of Treasury (TREAS)
  <bullet> Environmental Protection Agency (EPA)
  <bullet> Homeland Security Council (HSC)
  <bullet> National Counterterrorism Center (NCTC)
  <bullet> National Security Agency (NSA)
  <bullet> Nuclear Regulatory Commission (NRC)
  <bullet> Office of Management and Budget (OMB)

    Chairman Thompson. Thank you very much.
    I will start our questions for our first panel.
    Assistant Secretary Stephan, before I ask my first 
question, I want to just share with you my disappointment in 
the chemical security bill progress that we worked with your 
staff and this committee staff on for more than 9 months. At 
the beginning of that process, another committee had a hearing; 
and a day before the hearing, we received a letter saying you 
were against the bill. We had worked in good faith with you on 
that.
    I have since sent the Secretary a letter asking for a 
clarification on how we worked for 9 months on getting a 
chemical facility bill through this body. This committee passed 
it. When another committee takes it up, you are against it.
    So I just wanted to let you know that some of us are real 
concerned that if there was opposition to a bill, the way we 
work it out--and this committee does a good job at it--is we 
work it out before we go public. That was a real concern on my 
part, and I just wanted to make sure that you understood the 
disappointment we had. Because we spent time in my office and 
committee staff on trying to work the bill out.
    Colonel Stephan. Sir, may I respond to your point?
    Chairman Thompson. Sure.
    Colonel Stephan. I just would like to remind you that we 
did, in fact, provide several objections to the bill during a 
previous testimony that I delivered personally to your 
committee Chairmanship and to several of the subcommittee 
meetings chaired by Chairwoman Jackson Lee. We have also worked 
with your staff to voice our objections over time as the bill 
seemed to get larger and larger and larger and more complex 
over time, and I believe we did a fairly good job at bringing 
you and your staff and Ms. Jackson Lee up to speed in terms of 
our specific objections. Not many of those objections, however, 
were noted in the final version of the bill.
    Chairman Thompson. Well, thank you. We are both on the 
record now. So we have a record.
    Admiral Rufe, one of the things we are told by State and 
locals is that, every time an event occurs, they have to make 
an application, whether it is an event that--let's take the 
mule event. If it happens every year, there is some concern as 
to whether or not the laborious process of repeating the 
submission of the data can somehow be streamlined. Have you all 
looked at that?
    Admiral Rufe. Yes, sir. We have a questionnaire that we 
have developed over time. In fact, we just met yesterday with a 
focus group to look at it again. We try to improve that over 
time to make sure it meets the needs of the State and local 
folks so that we are not asking for information that is not 
useful.
    I understand the concern that we would be asking for the 
same thing for a similar event each year. But, over time, the 
State and local capacity to be able to handle those events may 
change, may get better or may degrade. The event itself may 
grow or shrink. The participation could grow or shrink. 
Certainly the threat from year to year may change. So while an 
event may rate at one level one year, it may change the next 
year depending upon the response to the questionnaire by the 
State and locals who are submitting the information.
    Chairman Thompson. So is your testimony that you plan to at 
some point re-look at the information requested?
    Admiral Rufe. Yes, sir. Actually, we do that every year. 
The process starts right about now for next year, in fact. We 
hope to have it complete by December 1.
    The initial step in the process is to meet with 
representatives of about five to eight States who represent a 
focus group for us to look at what we did the previous year to 
make sure the questionnaire is meeting their needs as well as 
our needs and then changing it as we need to, and we will do 
that each year depending upon feedback that we get from our 
partners.
    Chairman Thompson. Colonel Stephan, you know, most of us 
live in communities where there are a number of gatherings of 
all sorts, from State fairs to what have you. They do make 
attractive targets. To what extent have you communicated with 
State and locals what you have to offer in support of their 
security concerns?
    Colonel Stephan. Sir, I principally do that through my 
protective security advisors. I have 78 of them deployed now 
throughout the country, some in rural areas, some in major 
urban areas in the United States. We have a request for 10 
additional positions in our 2009 budget which I hope that you 
all support.
    Those are my eyes and ears forward. They are my boots on 
the ground. They have developed, over the 3 years of the 
program's life span to date, very extensive collaborative 
relationships with State homeland security advisors, local 
officials, municipal officials, emergency managers and, most 
importantly of all, private sector owners and operators, to 
include commercial venue owners and operators where lots of 
these mass gatherings take place. Principally through that 
forward arm, they facilitate a more detailed level planning for 
events that don't necessarily pop up on Admiral Rufe's radar 
screen through his process.
    I think top-down through that process as well as bottom-up 
through my protective security advisors, I think we are doing a 
fairly good job now of providing more blanket coverage 
situational awareness training exercise involvement doing site-
specific vulnerability assessments and just helping out our 
State and local partners in many ways.
    Chairman Thompson. I yield to the gentleman from New York 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    Colonel, Admiral, I want to thank you for your testimony.
    Secretary Stephan, one of the things we have learned over 
the last several years--and Congressman Lungren made this clear 
during the whole port security debate about the importance of 
layers of defense and levels of cooperation in trying to stop 
the enemy from getting here.
    As you look back over the last several years with what you 
have tried to do with mass gatherings, what has struck you as 
being the most successful part of your program? As we look to a 
new administration, what do you feel has to be done over the 
next several years to strengthen our position? I am not asking 
you to give away any weaknesses. What particular areas would 
you recommend the next administration focus on when it comes to 
mass gatherings?
    Colonel Stephan. Sir, some of the most important progress 
we have achieved again lies in the area of the massive boots-
on-the-ground interaction we have now at these local venue 
levels. But I think we have also set up a framework with the 
leadership at the State and local level as well as within the 
private sector venue owner and operator community.
    We have provided them risk assessment and vulnerability 
assessment methodologies. We focus, based upon risk, on 
actually conducting physical and cyber on-site assessments of 
these different facilities. We have provided them massive 
amounts of training to both security guys at the venues 
themselves as well as within State and local law enforcement 
jurisdictions that have responsibility in some way, shape or 
form for securities venues. We have attempted to target grant 
money specifically to capabilities gaps that have been 
identified in collaborative security plans.
    So I think the planning framework, the training framework, 
the exercise framework is there. The challenge for the 
remainder of this administration and the next administration is 
to try to figure out how to stretch the dollars, the Federal 
grant dollars, and to support to the extent that you can so you 
can make sure that no important things fall through the cracks.
    As Admiral Rufe pointed out, it is impossible for us to be 
everywhere, nor is it really our responsibility as the Federal 
Government to be everywhere. But we do need to continue the 
pace of the interaction providing the framework, the tools, the 
methodologies, the planning templates for security and mass 
evacuation and so on and so forth that we have established. So 
we just need to push that kind of activity further, further, 
further down the bean trail and hopefully at some point in time 
the trainer concept will kick in; and for every dollar I spend, 
State and local officials and the private sector, most 
importantly, will be spending $10, $100 or $1,000 based upon 
the models and templates we have provided them.
    Mr. King. Do you find that local officials are cooperative? 
For instance, is there a difference between doing a New Year's 
Eve event in Manhattan and doing a Mule Day event in Tennessee? 
Do you feel that your Department is able to cope with different 
part of the country and adapt to different situations?
    Colonel Stephan. Certainly. One thing I have learned is 
every jurisdiction is different from every other jurisdiction 
across the country, and I think the places where we have 
probably the most challenge is where a certain number of scarce 
resources are distributed across different law enforcement and 
emergency management jurisdictions. Getting everybody to 
acknowledge that they need to be part of a collective plan 
instead of all individually trying to own a shiny new fire 
truck and a swat team capability and sexy night vision goggle 
equipment--not everybody needs all of that. We need to have a 
collaborative plan, multijurisdictional in nature for these 
specific areas we can carve out and define across the United 
States and have people support their part of the plan. We 
train, organize and equip to do that. I think that is one of 
the most significant challenges we face.
    Mr. King. Thank you.
    Admiral Rufe, the DHS information network that you have 
that provides intelligence and information, how do you screen 
who is going to get that? What are the precautions that are 
taken? Who is going to receive that? At what level are they 
getting it?
    Admiral Rufe. Yes, sir. In fact, I was going to add to what 
you just asked Assistant Secretary Stephan. One of the 
improvements I think we have made in this area is in that 
information-sharing piece. For each one of these SEAR Level 1 
and 2 events, we do a Joint Special Event Threat Assessment, 
which is done by the intelligence professionals in the 
interagency; and that is shared, obviously, with the people who 
need to have it at the local events for which the threat 
assessment is made.
    In addition to that, I think a great step forward has been 
our State and local fusion centers. Because any actionable 
intelligence that is going to affect the local community is 
pushed forward as soon as we have it to the State and local 
fusion centers to ensure it gets distributed adequately to 
anybody who needs to have access to it.
    Mr. King. Thank you. Thank you for your testimony.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you.
    I yield 5 minutes to the gentlelady from the Virgin 
Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman; and thank you 
for holding this hearing. It is an important issue. Thank you 
for the report which really sets a good stage for us to begin 
to do some more work on this issue.
    Welcome to our two panelists. As a physician, I am going to 
ask you some health-related questions.
    First, I am extremely concerned about the ability of 
States, territories, tribes and localities to deal with mass 
casualties, which could certainly occur if a mass gathering 
were to be hit with a disaster or an act of terrorism. How has 
the infrastructure protection, Colonel Stephan, taken the 
requirements for med surge into account and especially given 
the inability of most hospitals to take on any more patients, 
given that they are stressed to the max as it is? Actually, 
both of you could answer.
    Colonel Stephan. Yes, ma'am. I will do my best, although I 
will have to defer to a FEMA representative in our Office of 
Health Affairs as they kind of own this responsibility within 
the Department.
    Mrs. Christensen. That is going to get me to my next 
question.
    Colonel Stephan. For example, we have worked very 
specifically with the NASCAR community over the past 18 months 
to develop a mass evacuation guidelines template for them. We 
have worked with the NASCAR leadership, security and emergency 
preparedness folks, looking at three or four different size and 
complexities of various NASCAR venues around the country. We 
work with them hand-in-hand and with a represented sampling of 
local officials, emergency managers and health community 
experts to build a planning guide, which I have actually 
brought with me to leave with the committee if you are 
interested.
    This includes important medical and public health 
considerations, to include: What is the capacity? Have you 
thought about, if you don't have the capacity locally, where 
are you going to take your patients in prioritized sequence? 
Those kind of questions are asked in the template.
    Now it is the responsibility for the NASCAR leadership to 
take this template to the two dozen or so major venues around 
the United States of America and push out this guidance and 
let's work with them to help build those plans to the extent 
that we have the resources to do that.
    Mrs. Christensen. You made a comment about the need to 
provide the buffer funding.
    Colonel Stephan. Yes, ma'am.
    Mrs. Christensen. Do you think that we need to pay at least 
the same amount of attention to building up the health and 
infrastructure in communities around our country so that they 
would be better prepared?
    Colonel Stephan. I think as a general answer I would say, 
yes, we have to focus on the resiliency and the capacity of the 
medical and public health care community, especially with 
respect to very specialized types of threat factors, such as 
burn victims and so on and so forth, given certain types of 
threat scenarios where we probably do not still have sufficient 
capacity across the country.
    Mrs. Christensen. Admiral, did you want to answer the 
question?
    Admiral Rufe. The only thing I would add, ma'am, is that 
the national response framework which was recently published is 
the framework for our response to any event. Any event 
involving--whether it is a hurricane or a natural disaster or a 
terrorist attack, you always have to be concerned with the idea 
of a mass casualties. Within that national response framework 
there is a natural disaster medical system that HHS is 
primarily responsible for supporting. It does provide teams 
that can come into different areas to support the State and 
local folks and their needs for specialized training or for 
just augmented medical help.
    Mrs. Christensen. Right. In the Virgin Islands we have 
taken advantage of some of the DEMAT and other teams.
    But to go back to Colonel Stephan, you mentioned the Office 
of Health Affairs; and I am always interested in how they are 
being utilized within the Department. So how have you worked 
with the Office of Health Affairs to address the health 
concerns? Have their policy and programmatic input been 
incorporated into the product?
    Colonel Stephan. I think the principal distinction between 
Dr. Runge's job and mine is he is responsible for coalescing or 
coordinating the medical and public health aspects of the 
Department's approach to incident management to steady state 
policy development, and so on and so forth.
    Where we have an overlap is in the medical and public 
health sectors, as defined in HSPD-7 as well as the food and 
agricultural sectors as defined in HSPD-7. We have a cross-
fertilization especially in the research and development and 
modelling and simulation and analysis world with not only Dr. 
Runge's office but also Admiral Cohen's office, the Science and 
Technology Directorate, where I serve as a source of 
requirements from the field from those three sectors: medical, 
public health, food and agriculture.
    We use an annual reporting process to determine what 
modeling simulation analysis, research and development and raw 
science requirements come up from the field. We risk them or we 
risk categorize them and push them both to Dr. Runge for his 
shop as well as to Admiral Rufe for final action to stay 
engaged in the process as we research and develop things.
    Mrs. Christensen. They do provide input into the planning 
and the process that you oversee in terms of identifying the 
needs and the vulnerabilities and implementing the actions and 
measures? They have provided input that is used?
    Colonel Stephan. Yes, ma'am.
    A specific example is we collaborated very closely with Dr. 
Runge's shop to develop the Pandemic Influenza Guide across the 
critical infrastructure sectors to include commercial venues. 
That is a document that has been finalized, writ large across 
the sectors, and we are in the process of either distributing 
or finalizing documents that are sector-specific. I, again, 
have a copy of this guidance document for you.
    Mrs. Christensen. Thank you.
    Chairman Thompson. Thank you.
    I now recognize the gentleman from Connecticut for 5 
minutes, Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman; and thank you to our 
witnesses for being here.
    I would like to have you give me a sense of how you sort 
out what right the public has to know if their life is 
potentially in danger. We had this challenge before September 
11. I chaired the National Security Subcommittee in 1998, and I 
focused on terrorism. That was the focus of our Committee on 
Government Reform. When I talked about a Department of Homeland 
Security, people said, what are we, Great Britain? It was just 
like foreign to them. But we all knew that the Twin Towers was 
a target. We all knew it. In 1999, 1998, 1997, it had been a 
target in 1993, and we knew it still was a target. They failed 
to get it the first time. It was still a target.
    When September 11 happened, I had constituents who said: 
How come you didn't tell me? So I am going to quickly give you 
an example, a real-life example.
    A number of years ago, we were given a very real briefing 
that there was a suspected--in December a suspected terrorist 
effort to hijack planes coming from Europe, Great Britain and 
Europe. We were told there were six cities that were potential 
targets for a dirty bomb. So I will just ask you rhetorically. 
Hearing that, would you have your daughter go to Europe, your 
son, daughter go to Europe during that time? No. Would you have 
them go to the celebration, the New Year's celebration in New 
York? No. You are not go going to do that. You are going to 
tell your friends not to do it. That is exactly what I did. 
Then I said it publicly, and the shit--excuse me--things hit 
the fan.
    What I want to know is, where do you draw the line? If you 
know for a fact that five cities are a target and you believe a 
dirty bomb is what you are concerned about and you are using 
technology to determine if there is radioactive material, why 
doesn't the public have a right to know if you sure would tell 
your own family?
    I want both of you to answer.
    Colonel Stephan. Sir, I will take a shot first, if you 
don't mind.
    I think that every one of these scenarios is actually an 
individual case study, although there are certain principles 
that I believe the Secretary, the Intelligence Community, and 
all the way up to the President kind of walk through in order 
to gauge the response or the final decision that is made.
    Some things would be: How specific, how credible, how 
imminent is the threat? How mature and how advanced is the 
plot? What is the opportunity to apprehend more of the network 
if, by waiting, you could do that? If you waited 1 hour or 2 
days, could you bag more of the network or not? What is that 
all about? Will public release have a deterrent effect? That 
is, if the cat is out of the bag, are they now going to execute 
their plot or are they going to move it elsewhere?
    A final principle would be: Will public release, in fact, 
cause more mass panic and hence potentially self-generate 
casualties than the terrorist attack itself or self-generated 
consequences than the terrorist attack itself?
    I think the senior administration decisionmakers, to 
include our Secretary and the FBI Director and others up to the 
President, have to walk through very carefully a series of 
principled questions before they can get to your answer.
    Mr. Shays. Colonel, I think that was a very thoughtful 
answer. Thank you.
    Admiral.
    Admiral Rufe. Yes, sir.
    I don't think I can improve very much on what the Assistant 
Secretary just said. I would only add that I am sure that the 
Secretary--if we had very actionable, specific intelligence 
that was targeted at a specific community, and going through 
the criteria that Bob has discussed here, the Secretary would 
certainly lean forward in terms of talking to the Governor, 
talking to the mayor, talking to the local folks who are, after 
all, responsible for their citizens' safety to make sure that 
that was a decision that they did together, rather than in 
isolation.
    Mr. Shays. Now, in this case, they actually stopped 11 
planes and they never flew from Europe. So we knew our 
intelligence was pretty accurate. Eleven planes never flew from 
Great Britain because of suspected terrorists.
    So you have gone through that process with me. Give me an 
example of where the public would have a right to know.
    Admiral Rufe. I will just say that if we knew for sure that 
there was an attack that was imminent, that there was no 
opportunity to interrupt it or there was a high degree of 
uncertainty that we could interrupt it and that folks' lives 
were in danger, I would say that would be a case where we 
would--I would expect--I can't make that decision myself, but I 
would expect the Secretary and the President would be very 
forthcoming in terms of getting that information to the people 
who needed to have it.
    Colonel Stephan. Sir, I would also add to that. The more 
specific the targeting information is--for example, if we could 
drill down to an individual facility--the easier the decision 
becomes. If it is a sector-wide threat or a widespread 
geographic area of the United States, the decision becomes more 
complex and complicated.
    Mr. Shays. Thank you. I think your answers were very 
thoughtful. Thank you.
    Mrs. Christensen [presiding]. Thank you.
    The Chairwoman now recognizes Mr. Pascrell for 5 minutes.
    Mr. Pascrell. Thank you.
    Secretary Stephan, I am concerned about a couple of things 
here, and that is--and thank you for both of your answers to 
the gentleman from Connecticut--the sharing of information when 
there are potential events. It would seem to me one of the 
biggest criticisms in the first 2 or 3 years that we kept on 
hearing all over the country was locals being the last resort 
for information.
    How do you put a list together? You have all of these 
events. You have an inventory of events out there; and, as you 
said, you can't cover all of them. So you are really depending 
upon local responders and local enforcement folks to do what 
they usually do at these events.
    Since 9/11, there has not only been a high alert from the 
Federal Government but also by local enforcement. You want them 
to have the resources. You want them to have the training. The 
training would seem that is very--you know, we have a role. The 
Federal Government has a role in making sure--but what is your 
specific relationship with the local governments in putting the 
list together and then making sure that they are involved in 
prevention, detention, and response?
    Colonel Stephan. Sir, I am going to answer your question, 
but I want to defer the part about how the list comes together 
to my colleague, Admiral Rufe.
    For known events on more of a major scale, specific threat 
assessments or risk profiles are put together by the Intel 
Community--that spans DHS, the FBI, the CIA and others--and we 
put together documents that are shipped out to the localities 
where the venue or the mass gathering is taking place.
    Mr. Pascrell. But do you use local input in the first 
phase? That is my question.
    Colonel Stephan. To the extent that there have been 
incidents or suspicious activities reports over time that have 
been generated not related to the event or specific to the 
event----
    Mr. Pascrell. Is the network set up to do that right now?
    Colonel Stephan. Yes, sir. I believe it is.
    Mr. Pascrell. So, in other words, you are saying that local 
folks on the ground, particularly law enforcement in this case, 
have the wherewithal, have been taught the strategy and are 
trained to provide this information to you? Is what you are 
saying?
    Colonel Stephan. Sir, I am saying, generally speaking, the 
answer to your question is yes. The fusion center, as Admiral 
Rufe pointed out----
    Mr. Pascrell. We will get to that in a sec.
    Colonel Stephan [continuing]. Are going to put an 
immeasurable capability enhancement in place once those things 
get fully set up. Importantly, prior to the events taking place 
in many cases as well as during the events themselves, I have 
my protective security advisors actually manning the fusion 
centers, the State emergency OPS centers, the local OPS 
centers, basically provide the incident command and control for 
the venue. Though the means of that person, I am extracting 
information from the national headquarters in the intel 
community and I am feeding locally produced information through 
that guy back up to my headquarters.
    Mr. Pascrell. So you are getting information from--if I can 
use the term--``below'' as well?
    Colonel Stephan. Yes, sir. Through my deployed network of 
boots-on-the-ground.
    Mr. Pascrell. That was not happening before 9/11?
    Colonel Stephan. I didn't have this capability 3 years ago.
    Mr. Pascrell. This was not happening. This is a very 
important ingredient to protecting people.
    Colonel Stephan. I agree.
    Mr. Pascrell. Now let me ask you this question: What are 
you preparing in terms of this information to the transition 
team of the next administration?
    Colonel Stephan. In terms of----
    Mr. Pascrell. Well, what are you readying--what are you 
providing? GAO has done a report on what is being transferred, 
what is being prepared for whoever becomes the President of the 
United States.
    Colonel Stephan. Sure.
    Mr. Pascrell. I can only assume--and I am not going to 
assume it--what are you preparing? What is your agency, which 
plays a very critical role in protecting America----
    Colonel Stephan. Yes, sir.
    Mr. Pascrell. Are you preparing a transitional carry-off, 
hand-off to the next administration?
    Colonel Stephan. Yes, sir, I am. Every single one of the 
divisions that works for me is either a GS-15 or a senior 
executive service member that is career in nature. They will be 
in place. They know their programs.
    Mr. Pascrell. I am sorry.
    Colonel Stephan. They know their programs. They know their 
people. Transition briefings have been or are being assembled, 
up-to-date, sector-by-sector checklists of what the status of 
the sector are, where we are going. In fact, Congress will 
receive a status of the 18 critical infrastructure sectors 
series of reports the first week in November.
    Mr. Pascrell. We have been asking about this to many of the 
agencies that have come before the committee or subcommittees 
about their obligation. By the way, it is a legal 
responsibility that we do this. I just want to know, is your 
agency up to snuff right now?
    Colonel Stephan. Yes, sir.
    Mr. Pascrell. You are on time? You are on target?
    Colonel Stephan. Sir, we are on time. We are on target. The 
only person that gets decapitated in this process is, 
unfortunately, me.
    Mr. Pascrell. Why?
    Colonel Stephan. Everybody below me--because I am a 
political appointee, sir.
    Mr. Pascrell. Some political appointees will be here next 
year, correct?
    Colonel Stephan. Sir, some may; some may not. I don't want 
to forecast the future.
    Mr. Pascrell. I have seen some folks come before us that I 
would recommend. I don't care what your political persuasion 
is. I could care less. You do your job in protecting our 
families and our neighborhoods. The rest is all baloney.
    Colonel Stephan. Sir, that is a great approach.
    Mr. Pascrell. Yeah. Well, that is me. I know I speak for 
myself.
    Let me ask this question--can I ask one more question, 
Madam Chair?
    Mrs. Christensen. If it is very short, very brief.
    Mr. Pascrell. I will try to be short.
    Admiral, the National Operation Center, a very key 
ingredient to what we are talking about today, you folks pay 
attention to mass gatherings. But what exactly do you do in the 
process? How do you do that?
    Admiral Rufe. Well the National Operation Center is the 
Secretary's and is the Nation's, actually, primary situational 
awareness and incident management node. It supports the 
Secretary during the steady state times every day, 24/7, 365 
days of the year.
    They monitor--the watch monitors all manner of things going 
on during the course of the day, including the special events. 
So if the mule event that was described before, we are aware of 
that. We know the date is happening. We have contact 
information. Importantly, everybody who has a special event 
knows the National Operational Center is the way to contact the 
Federal Government should there be a need either just prior to 
the event or during the event for any kind of Federal support.
    Mrs. Christensen. I am going to have to----
    Mr. Pascrell. Just one follow-up.
    Mrs. Christensen. No, I can't because I have too many other 
people.
    Mr. Pascrell. I am not going to ask a question.
    Mrs. Christensen. You are already 2--almost 3 minutes over 
time, and we have a lot of other people to ask questions.
    Mr. Pascrell. I want to go back to the point I made with 
what Mr. Stephan said before.
    Mrs. Christensen. Maybe someone will yield you some time 
during their questions, but I have to give the other Members an 
opportunity to ask their questions.
    The Chair now recognizes Mr. Lungren for 5 minutes.
    Mr. Lungren. Thank you very much.
    As maybe the only Member here who has ridden a mule on Mule 
Day in Bishop, California, I hope you are aware of that Mule 
Day as you are of the one in Tennessee.
    I want to thank both of you gentlemen for your public 
service. I happen to think, both in the military service that 
you engaged but also now, you have made a real contribution to 
our country; and I appreciate the work product that you have 
put out and the status that we are at now versus where we were 
before the two of you took your positions.
    Second, you are talking about transition. We are going to 
bring new people in no matter who wins the next election, and I 
hope you will have some lexicon for them of the acronyms that 
you have. Because I counted 24 in your two testimonies: DHS, 
SSA, NIPP, HSPD, CIKR, SSP, PSA, NSSE, SEAR, BZPP, SAV, CV, PI, 
PM, HSIN-CFS, whatever that is. I suppose if you had human 
relations there, it would be his and hers. But I don't know how 
to pronounce it. CBR, ViSAT, R-SAT, HITRAC, BMAP, SEWG, RMA, 
IGP, SBU/FOUO.
    We sometimes talk about our kids texting, and we can't 
understand what they are saying. I don't think they have 
anything on you two. So I appreciate the work that you have 
done.
    Let me just ask you this. The Federal Government can't do 
everything, can't be everywhere, can't be all things to all 
people; and I think we have to state that right up front. There 
seems to be a tendency in this town that nothing is important 
unless it is Federal. Whether it is the Supreme Court or 
whether it is the Congress or whether it is the President, if 
it is not the FBI investigating, it is not an important crime, 
which is just totally wrong since about 98 percent of all the 
violent crime is taken care of by local and State government.
    That being the case, it seems to me very important that we 
don't make your structures so heavy on the top that we don't 
have that conductivity that is necessary, the interoperability, 
the exchange of information on the ground floor where things 
really happen.
    The Chairman mentioned that we have a diversity of mass 
gatherings all the way from Mule Days to the Super Bowl and 
everything in between. So it seems to me it is important to set 
up the structures that you have talked about to make sure they 
are functioning.
    But, to me, the overriding factor where the Federal 
Government can contribute, where local and State cannot do, is 
in the area of intelligence. What I mean by that is, you can be 
the gatherers of information from the bottom up, but, 
obviously, the Federal Government, through DHS, has a capacity 
for intelligence gathering around the world on its own with our 
intelligence agencies and foreign intelligence organizations as 
well. That is why I hope the Senate is going to complete the 
work on FISA today so that we will have a capability of getting 
that information in very real ways.
    My question to you, Secretary Stephan, is this. To what 
extent is the intelligence received and analyzed by our various 
elements of the Federal Government broken down and given out to 
the people on the ground, the boots on the ground, local and 
State governments in a comprehensive and understandable way so 
that they can make it work from an operational standpoint?
    To me, we can do all--everything else that you have talked 
about, but if we fail there we basically failed in the true 
Federal responsibility. How do you do that now? Where are 
there--if there are any holes in that, that you need to improve 
on, that we need to improve on?
    Colonel Stephan. Sir, for my part of the information 
sharing puzzle, I try to focus on getting products together and 
disseminating them to the private sector; and then, through the 
operations center and other avenues within DHS, the State and 
local piece comes into play. I will defer that part to Admiral 
Rufe.
    But we focus on building the products collaboratively with 
the private sector. So we have gotten these folks--now almost 
between 900 and 1,000 of them--security clearances so they can 
help in actual product development, be part of the process up 
front, help us craft a document that is not just written by 
just the intel folks. Because the intel folks again will have 
their own speak, and we need at the end of the day the products 
that are used in the field to be understood by the private 
sector folks.
    So we build in now some things up front, a very important 
part of the process where the private sector can come in 
through our sector coordinating council process and the cleared 
members. We have made tremendous progress with the FBI and 
Intelligence Community to declassify or downgrade from Secret 
and above to FOUO.
    We probably have still some work to do in terms of 
shortening that timeline so that we can get it more quickly in 
the hands of the private sector. But when I joined the 
Department in 2003, that was taking a week or more. Now it 
happens in the course of hours or a day or so, depending on 
what situation we are talking about. We have made tremendous 
progress there, but it needs to be a lot--just even a lot 
quicker than that.
    We also need to expand the platform through which 
information is exchanged with the private sector. We released a 
new contract or awarded a new contract with the HSIN network 
about 2 months ago, working collaboratively with Admiral Rufe 
and his staff. He has the lead for this project.
    The first priority of that advance-generation HSIN network 
is the private sector portals that are a piece of the overall 
puzzle. We are leading that first to get the information to the 
private sector at kind of the head of the line, if you will. So 
I think there will be tremendous strides made within the next 2 
to 12 months.
    We are going to cover down on about nine items of general 
functionality across the 18 critical infrastructure sectors 
within the first 60 days of the program in its advanced phase. 
In the course of the next year, we will develop additional 
capabilities and functionalities sector by sector using their 
inputs.
    So we have got products that are built at the top. They are 
integrated by using overseas intelligence, domestically 
produced intelligence, sometimes from the State and local 
community, sometimes from private sector folks. We have got 
more of them cleared in now to help shape the products.
    We are pushing strategic and tactical level intel out to 
the field. We surge during special events to provide advanced 
capability. We are maturing and expanding the platform to get 
information out; and, ultimately, that is going to allow us to 
migrate a capability user potential from 7 to 10,000 to 
multiple tens of thousands, I believe, over the next year or 
so. So I think that is what this is all about.
    Mr. Lungren. Thank you.
    Admiral Rufe. Well, the only thing I would add for the 
National Operations Center that Mr. Pascrell asked about a few 
minutes ago, within the National Operations Center is an 
intelligence watch and warning branch that is our connectivity 
on a 24-hour basis with the Intelligence Community, CIA and all 
the other members of the Intelligence Community that brings in 
actionable daily intelligence. Anything that is hot, we get 
immediately. We disseminate that through that watch and warning 
branch to the State and local fusion centers any information 
that is of relevance or importance to them. So I think that 
system is working better, working well.
    In addition to that, we have 10 different police 
departments that have put officers in the National Operations 
Center from around the country. So, for instance, Miami/Dade, 
Las Vegas Police Department, Chicago, Metropolitan Police 
Department all have officers in our operations center that see 
the same intelligence every day that I do.
    Mrs. Christensen. Thank you.
    Admiral Rufe. They don't distinguish. They get the same 
access that I do.
    Mrs. Christensen. The Chairwoman recognizes Mr. Carney for 
5 minutes.
    Mr. Carney. Thank you, Madam Chairwoman.
    This is for both of you. I represent an area that has kind 
of a unique event. I have the Little League World Series in my 
area. You know, in central Pennsylvania we don't have a lot of 
the resources available, but yet the world comes to central 
Pennsylvania. It is not just Little League players from around 
the country; it is from around the world too.
    How much work do you do with organs of security of other 
countries, of the visiting countries, in preparation for 
something like this?
    Admiral Rufe. Well, certainly part of what we do when we 
give our data call out to the State and locals to find out what 
events we are looking at, we ask them what capacity that is 
being brought to bear that they can address as part of what is 
being prepared for this event. That enables us to determine how 
much additional capacity they need.
    In terms of what foreign support is given, I have to get 
back to you on that, because I don't know that, for instance, 
for the Little League World Series, that the nations that send 
their teams over here provide any particular intelligence or 
security support to those teams, but I can answer that for the 
record if you would like.
    Mr. Carney. Sure. Well, I would like to see that. For 
example, you know, we had a team from Saudi Arabia before, you 
know, Latin America, various Asian nations represented as well. 
You can imagine a showcase like the Little League World Series, 
with what it is, it is as American as it gets. That is 
Rockwell's America right there. What a target. So, you know, 
working with other security organs of the visiting countries I 
think is something I would really like to see what you do.
    Colonel Stephan. Sir, we have protective security advisors 
on the ground. What they will do is they will plug in, if the 
State Homeland Security office is working the overall security 
protocols, they will plug in to whatever structure the State 
sets up. If the State passes it down to a more local level of 
responsibility, my folks would plug in to that type of event at 
that level.
    We don't do specific, direct outreach to foreign 
governments or foreign enterprises, but through the planning 
mechanisms and security collaborative framework that the State 
or the local guys set up to manage the venue.
    Mr. Carney. Well, let me ask this then: Is there a way for 
foreign governments to reach out to you and say, ``This is what 
we are doing''? Is there some sort of international outreach?
    Colonel Stephan. Again, I would--since that particular 
event would be hosted in the principle security and emergency 
preparedness planning responsibilities either reside at the 
State or local level. It would be to reinforce them as they do 
their----
    Mr. Carney. Sure. I guess I didn't phrase the question well 
then. From just the general DHS perspective, do we have the 
opportunity or is there a way for foreign governments to keep 
us apprised?
    Admiral Rufe. Sure. I mean, I don't think there is any 
formal mechanism where we reach out to ask them. For instance, 
as Bob indicated, the event planners are the ones who are 
responsible to alert us to what are the particular 
peculiarities of the event and who is coming to support them, 
what the capacity is available locally and what the shortfalls 
are. That is usually the process in which we get that 
information.
    Certainly if someone wanted to reach out to us, they could. 
If we saw a need, we would probably do it ourselves. Although, 
in your particular case, I don't know whether we have.
    Mr. Carney. Sure.
    Colonel Stephan. For the bigger events such as the national 
special security events that are really led by the Secret 
Service, those types of formal mechanisms do exist.
    Mr. Carney. Okay. Yeah, I mean, the Little League World 
Series certainly is not the Super Bowl or NASCAR, but it does 
get a lot of play, over a long period of time, frankly, and a 
lot of the games are televised. So it is one of the things we 
would need, I think, to pay close attention to. But I really 
want to understand how everybody works together, from our 
Nation to those of the visiting countries as well.
    Thank you, ma'am. No further questions.
    Mrs. Christensen. Thank you.
    Mr. Dent, you are recognized for 5 minutes.
    Mr. Dent. Thank you, Madam Chairwoman.
    To follow up on Congressman Carney's question about these 
non-national special security events--he mentioned central 
Pennsylvania, Little League World Series--a few miles from 
there is Penn State, 110,000 people, six or seven Saturdays 
every fall, similar situations in other States, for college 
football games.
    What can local municipalities and private organizations do 
better to utilize Homeland Security dollars to prepare for 
these types of non-national special security events? Anyone 
want to take a shot at that?
    Colonel Stephan. In my opinion, as I stated earlier, I 
think a better cross-jurisdictional collaboration in terms of 
pulling resources together. In some places that just naturally 
occurs, but a lot of it is personality-driven and operating-
environment-driven, jurisdictional-authorities-driven.
    But I think one of the big things that I see across the 
country, many different States, many different local types of 
jurisdictions, the successful or the not-so-successful approach 
is based upon the relationships and the pre-event planning that 
takes place across jurisdictional boundaries to integrate a lot 
of different resources, authorities and capacities together to 
solve a common problem.
    Admiral Rufe. Grant funding doesn't fall in my area of 
expertise, but I know within the Department they are always 
reviewing their grant guidance on the various Homeland Security 
grants that go to State and locals. If you have something 
specific you would like to suggest in terms of a change to 
grant guidance, I would be happy to bring that back.
    Mr. Dent. I guess my follow-up question would be, what kind 
of cooperation have you received from the NFL or Major League 
Baseball regarding the preparation for games that might not 
rise to a level of a national special security event? What kind 
of involvement does the Department have in planning for these 
types of events?
    Colonel Stephan. Sir, our relationship with them is through 
our Commercial Facilities Sector Coordinating Council. We have 
a sports league sub-council; that includes hockey, baseball, 
tennis, soccer, football, baseball, basketball. We have worked 
with them to develop a protective measures guide that we have 
recently published, actually in January of this year. That 
gives a template for, based upon different threat scenarios, 
what are physical protection, cyber protection, insider-threat-
type protection issues you should look at, and how the private-
sector owners and operators need to be connected with State and 
local law enforcement emergency managers at the local, State 
and Federal level. That is put together jointly with the sports 
leagues and now distributed widely across all the cities where 
these venues are housed. So that is one example.
    Another example is providing them at Government expense, 
actually, standardized vulnerability assessment methodologies 
that are Web-based, user-friendly tools where the facility can 
do a self-assessment. We provide IED-specific training to 
security cadres, both on the law enforcement side as well as 
the private-sector venue owner and operator side, prior to the 
events, where we get with the Homeland Security advisors to 
understand the schedule. We push focus training to those 
particular jurisdictions based upon an annual event schedule.
    Mr. Dent. Thank you.
    At this time, I would be happy to yield the balance of my 
time to my friend, Mr. Pascrell from New Jersey, if he would 
like it.
    Mr. Pascrell. How much time is left?
    Mr. Dent. One minute, 48.
    Mr. Pascrell. I wasn't kidding before when I said the 
American people deserve to have a solid transition during the 
time of transferring of powers regardless of if it is a 
Democratic or Republican President. American people need to not 
have extended anxiety over, are we are going to the next 
chapter? There should be one chapter here. We should be all on 
the same page when it comes to defending the Nation. That was 
my point, and I meant what I said.
    I think we should, Mr. Chairman, go on record, I think we 
should go on record some time in stating this as a principle, 
that we believe there should be a continuity. If it need be, to 
have some people, even in political appointments--I have met 
some great political appointments from the Bush administration. 
I didn't find too many redeeming qualities in any other area, 
but in Homeland Security I thought there were some great folks 
that really loved this country and are seeing beyond the 
politics. We should insist upon that, that that is very 
important in securing the homeland.
    That is my point. Thank you.
    Admiral Rufe. I will just respond to that by saying that 
the Secretary has made it very, very clear to all of us that 
that is one of his main priorities, to make sure that he turns 
over a Department that is fully functional, operational and is 
in great shape for the next administration, no matter who it 
is.
    He has taken steps, I think, in terms of putting, as Bob 
said, people in place at the non-political level, at senior 
levels in non-political positions, to make sure that we have in 
place--if the new administration decides to take all the 
politicals out, to make sure there are career civil servants in 
place at senior levels to make sure there is continuity across 
the Department.
    Mr. Pascrell. Thank you.
    Chairman Thompson [presiding]. Thank you.
    I think Mr. Pascrell is correct. As you know, we have had a 
hearing and some follow-up already on transition. So, this is a 
priority, as is the entire transition to the next 
administration, for the Department.
    We now yield 5 minutes to the gentlelady from New York, 
Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman, for calling this 
important hearing.
    Mr. Secretary, Admiral, in April, Pope Benedict visited the 
United States, including stops in New York City and Yonkers. 
This was a wonderful opportunity for my community, but it came 
at great expense to the city of Yonkers. It paid over $400,000 
for security. Unfortunately, no Federal funds helped cover the 
cost, and Yonkers was told it could reallocate previous DHS 
grants in the absence of new money.
    Now, this is a recurring issue in New York--Washington, DC, 
I would say, as well--as the New York Police Department 
provides security for non-head-of-state diplomats attending 
United Nations meetings. To date, the New York Police 
Department is owed $40 million for security expenses. I am not 
sure of the amount of money, Ms. Norton isn't here, but I 
believe Washington, DC, faces similar expenses with 
Presidential inaugurations.
    I would like to ask you whether the Federal Government 
should help offset the cost to local governments for the most 
high-profile national special security events.
    Colonel Stephan. I believe that there are sources of 
funding available in terms of some existing Homeland Security 
grant programs that can be leveraged to provide enhanced 
security for exactly these types of special events, 
specifically the UASI program and the State Homeland Security 
Grant Program. Again, these moneys can be leveraged to support 
surge requirements.
    Mrs. Lowey. Well, I would be happy to follow up with that, 
because Yonkers is out $400,000, and it is not a local football 
game. Having the Pope come is a national event. I was told that 
it could reallocate previous DHS grants.
    What I was also told is, the way those grants are set up, 
that money is already obligated. So what I would like to do, 
and I would be happy to follow up with you, is to see whether 
there is any way they could apply directly. Because Yonkers was 
not given a positive response.
    Colonel Stephan. We can reach out to your staff through our 
legislative affairs folks and get them in contact with the FEMA 
grant shop that really has responsibility for the grant 
guidance and the rules of the road, in terms of what can and 
can't be used.
    Mrs. Lowey. So you are saying there may be a possibility, 
although we were told there wasn't, and I thank you.
    Colonel Stephan. No, I think what I am saying is your 
information is accurate, that previously allocated grant 
moneys, moneys that the States were pushed in either 2008, 2007 
or earlier, I believe can be used in some way, shape or form to 
cover down on some of these expenses, depending on what they 
might be.
    Mrs. Lowey. Well, I would like to follow up, because the 
issue is, if they are already obligated, we are looking for 
moneys for an event that are clearly national events. So we 
will follow up with you.
    When calculating the fiscal year 2008 Homeland Security 
Grant Program's awards, FEMA uses threat vulnerability and 
consequence criteria to calculate the relative risk of a 
terrorist attack on an urban area. While FEMA has not publicly 
released all variables that comprise the risk score, it does 
not appear as though mass gatherings are included.
    Now, another question that I would like to follow up on: Is 
there any coordination between your offices and the FEMA grants 
directorate in determining how mass gatherings should impact 
grant allocations? If not, should mass gatherings be included 
in grant determinations?
    Because it is not a surprise that New York and Washington, 
DC, for example, have these mass events. These are very, very 
difficult for a community to deal with and to absorb.
    Colonel Stephan. Ma'am, in terms of the overall risk 
calculator of the Department, I own the input that feeds the 
FEMA folks the infrastructure component across all the risk 
engines of the Department. That is based upon a tabulation of a 
Tier 1 and Tier 2 set of established criteria, sector by 
sector.
    Inside the Commercial Facilities Sector, we have various 
categories of commercial venues that would be the sites where 
mass gatherings would generally take place. They could be 
colosseums, arenas, stadiums, amphitheaters, performing art 
centers, so on and so forth. Based upon criteria specific to 
each category of commercial facility, we do a risk ranking 
based on, principally from my shop, potential consequences and 
vulnerabilities. I feed that part of the algorithm that FEMA 
controls with respect to the infrastructure target set. There 
is very close collaboration between my staff and the FEMA staff 
that owns that overall algorithm.
    Mrs. Lowey. Well, thank you very much.
    I see my time is up, so I will save the other question on 
interoperability, because I am always interested in knowing who 
is talking to who and whether their equipment is interoperable. 
But I will save that, Mr. Chairman.
    We will follow up with you. I thank you very much for your 
response.
    Chairman Thompson. Thank you very much. I am sure that the 
city of Yonkers appreciates your persistence.
    Mrs. Lowey. Well, I am sure they do. Thank you, Mr. 
Chairman.
    Chairman Thompson. We now recognize the gentleman from 
Colorado, who I am sure has an interest in mass gatherings 
going forward, Mr. Perlmutter, for 5 minutes.
    Mr. Perlmutter. Thank you, Mr. Chairman. Yes, I do; we have 
the two conventions coming up.
    The first question I have is, listening to you two today 
and just reading some of the materials, that there is a real 
focus on law enforcement, at least in the materials. How do you 
think the coordination has gone at either convention or 
generally with firefighters and paramedics and hospitals who 
might have to also respond to a mass casualty kind of a 
situation?
    Admiral Rufe. Well, as you know, both conventions are 
NSSEs, national special security events. So that is under the 
guidance of the Secret Service, and they have that down very 
well, in my opinion. You would have to really speak to them 
directly to get their sense as to what the interaction is. But 
they have a principal Federal official designated from the 
Secret Service in each one of those places to be their guy. 
That person is, I am sure, working very closely not just with 
law enforcement, with the State and local responders from the 
fire and medical community as well.
    Mr. Perlmutter. I think they are. We have been working on 
the thing for about a year now, so I feel like there has been 
decent coordination.
    Let's move to the next level. Let's say it is either one of 
these conventions or it is some other big gathering, and it 
isn't a situation where there is intent to do harm but there is 
an intent to disrupt and just bring it to a halt, whatever the 
situation is. How do the Federal officials, how does the 
Federal coordination play a role in that?
    So, I mean, let's just say there is lots of vandalism, 
rioting, whatever it might be. Is there a Federal role? Do you 
just say, ``Police, that is your problem. We are not getting 
involved.''?
    Admiral Rufe. It is pretty much a State and local problem. 
But, obviously, if they are overwhelmed--and, in fact, this has 
happened before in a natural disaster. Katrina is a good 
example of that, where the local law enforcement was not able 
to keep up with that level of unrest, and we had to bring in 
Federal support to do that.
    So I think when they do their planning for these big events 
like the conventions, obviously there have been disruptions at 
conventions in the past, a long time ago, most recently it is a 
long time ago, and that is part of the planning. Principally it 
is the responsibility of the State and the locals to handle 
that sort of criminal or disruptive activity. But the Secret 
Service certainly plays a role in that and would bring in extra 
Federal support, if needed.
    Colonel Stephan. The key to making that successful is the 
joint operation centers that have law enforcement and emergency 
manager people from across jurisdictions of government and 
across disciplines are all sitting together in an incident 
command post, and everybody would know or have the same 
situational awareness, know what was happening, know what 
capabilities were being exhausted and where additional 
authorities, resources and capacities need to be brought into 
the fight. You do that through the nodes that are then 
connected up to the regional and the national level, such as 
the NOC.
    Mr. Perlmutter. I am sorry Sheriff Reichert isn't here now, 
but the WTO up in Seattle, I assume that would be an NSSE, that 
would be a special event.
    Admiral Rufe. No, I don't think it has been. I am not sure 
where that came at this year. It is not at NSSE.
    Mr. Perlmutter. Okay.
    Admiral Rufe. It would be categorized as one of the SEAR-
level events. I am not sure where that would fall.
    Mr. Perlmutter. But there was one where people were there 
to make trouble. So, in that instance, there would still be an 
incident command post and everybody trying to work in a 
coordinated fashion. I mean, was there Federal involvement in 
that?
    Admiral Rufe. An example of that is World Bank-IMF meetings 
here in the District of Columbia, which are sometimes the 
subject of considerable protest, and the chance for disruption 
is there. That, this year, is a Level 3 event. So that does not 
qualify at the higher level for Federal support.
    But, certainly, if there is additional Federal support 
needed for any of these lower-level events, it is provided on a 
case-by-case basis.
    Mr. Perlmutter. Thank you, Mr. Chair.
    Chairman Thompson. Thank you.
    Admiral, maybe you can help clear us up. If you take the 
highest level where Secret Service is in charge--is there a 
formula for Federal participation at that level? Or how is that 
derived?
    Admiral Rufe. There is not, no, sir, Mr. Chairman. There is 
not a strict formula. There are some guidelines, however. For 
NSSEs, that is within the purview of the Secret Service, as we 
said. They look at each event individually and decide what 
level of support is needed.
    You may have noticed that, just recently, that the 
Democratic Presidential candidate is going to do his acceptance 
speech now at the Mile High Stadium, which is going to change, 
obviously, the requirements for protection for that event. So 
the Secret Service looks at those things as they move along and 
makes adjustments, as necessary, for those events.
    On the SEAR 1, SEAR 2 and SEAR 3 events, there are some 
general guidelines. For example, for a SEAR 1 event, the FAA 
always puts in a temporary flight restriction in the area. That 
does not necessarily hold true for a SEAR 2 event. They might 
put in a TFR, but they might not. So it varies depending upon 
the type of event you have. In some cases, you will have a 
waterfront activity where the Coast Guard would play a pretty 
big role. In another case, it might be pretty far inland; there 
wouldn't be a Coast Guard role.
    So there is no real set formula for the amount of Federal 
assets that are used. It is based on what capacity is available 
locally and with mutual aid agreements and then what the holes 
and the gaps are that need to be filled by the Federal 
Government.
    Chairman Thompson. Well, I guess the point I am trying to 
figure out is, how do we derive what is a State or local 
financial burden versus the Federal burden? Is that some 
formula that is worked out in advance? Or how is this done?
    Admiral Rufe. No, sir, there is no formula for that. The 
formula is that when each one of these events, these 4,000 
events is entered into the data call each year, the State and 
local officials who are putting the information in respond to 
the questionnaire, and among the questions that they have to 
answer is, ``Is the State and local capacity sufficient to 
cover the requirement?'' Oftentimes they answer yes. In that 
case, there really isn't a need for Federal assistance.
    Now, whether the State and local capacity that is utilized 
is available for reimbursement from the Federal Government is 
another question. That is where the grants from DHS would play 
a role.
    Chairman Thompson. Thank you.
    I now recognize the gentleman from North Carolina for 5 
minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Since we are on that topic, let me stay with it for a 
moment. Because there a lot of large mass gatherings that 
really, sort of, fall under the radar screen and don't get 
national notice. I can think of one in North Carolina where we 
will have the State fair and we will have 850,000 people in the 
course of a week, and on most any day there will be about 
150,000 people moving through it.
    I didn't realize how many Mule Days they have, since North 
Carolina has one in Benson. It is a large event. Roughly 60,000 
people will show up for that event. Just for a parade, they are 
going to have somewhere in the neighborhood of 20,000 people.
    I share those numbers for a reason: Because you don't hear 
about it here in Washington. It is the local folks who do all 
the planning, all the training, ensure that it is safe, it is 
enjoyable for the people who come and attend.
    With that said, I think the Federal Government does help 
and does spend a lot of time in preparing for emergencies, 
developing best practices for securing large events and 
protecting the public from terrorism. But it isn't clear that 
the guidance is being applied at the local level.
    Let me tell you why I ask this question. Committee staff 
has heard that the Federal, State, territorial, tribes, local 
and private-sector personnel that plan events are often 
separated from other activities, such as training, standard-
setting, and the identification and communications of the 
lessons learned.
    Both of you are retired officers, and you know from your 
experience in the armed and uniformed services that it is 
critical to bring planning together with those activities. So 
my question is, what is being done and what can be done that we 
aren't doing to better integrate these efforts?
    Colonel Stephan. Sir, I think to the extent that the 
special events are identified through either Admiral Rufe's 
process or from my protective security advisors that are my 
eyes and ears forward, my boots-on-the-ground forward, that 
when we have time and we know that something is coming, it is 
deliberately planned----
    Mr. Etheridge. How much time do you need?
    Colonel Stephan. Sir, it depends on the size and scope of 
the event, the complexity of the event. But for something that 
recurs on an annual basis, like a State fair, I will have my 
protective security advisor working with the State homeland 
security advisor to figure out a plan that does involve 
actually building the security plan, figuring out what Federal 
requirements might be needed, helping facilitate cross-
jurisdictional collaboration and coordination, trying to tie a 
grant-funded State and local exercise program to the event.
    For the Vice Presidential and Presidential debates coming 
up, we are doing this very thing to bring bombing prevention, 
IED prevention and awareness training, soft target awareness 
training to those communities specifically, and to make sure 
that all of these folks are connected to the national 
information-sharing network all around the various venues.
    So I think we are making progress, again, principally 
because now I have a cadre of people deployed across the 
country that have been taken up under the wings of the State 
and local officials that they support every day.
    Admiral Rufe. The only thing I would add would be, sir, 
that for the SEAR 1 and SEAR 2 events, we appoint a Federal 
coordinator that is the Secretary's representative for the 
event. Generally, it is somebody from the local area. We try to 
get somebody who has some local knowledge from one of the 
Federal agencies that is in the area. They are tasked with 
putting together, with our support, an integrated Federal 
support plan. As its name indicates, it is a support plan to 
support the State and locals. It is supposed to be integrated 
completely with the planning that is being done at the State 
and local level.
    Mr. Etheridge. The best practices?
    Admiral Rufe. Absolutely.
    Mr. Etheridge. Assistant Secretary Stephan, let me follow 
that up, because I understand that the Department has been 
working with State and local governments and with the private 
sector to develop the planning guidance.
    I guess my question, how would you assess the Department's 
efficiency in providing material that these non-Federal actors 
can actually use in the field?
    I guess the second part would be, what are you doing to 
improve that effort? Because I think that is a critical piece, 
because there is more out there in the private sector, really, 
than in the public sector.
    Colonel Stephan. Absolutely, sir. In this particular 
sector, commercial facilities, there is just such a wide 
diversity in the number of actors involved, it is a difficult 
problem set.
    But we try to conquer that challenge two ways. One is to 
enroll and engage the stakeholders in the development of the 
guidelines documents, so that they are understood and 
translatable down to the local level. So the people that are 
going to have to use them are actually involved part and parcel 
in terms of the process that guides their development.
    The second part that we really need to work on is to get 
more guidance and guidelines pushed out the door to the various 
sub elements of this sector. We have hit the sports leagues. We 
are working on stadiums and arenas. We have a shopping mall, 
giant retail piece about to go out this fall, early next year.
    I just need more time. In fact, I am not going to have more 
time. The next administration will have to pick up this ball, 
understand where we have been able to reach out and touch 
folks, and continue to push the products and the guidelines 
out, hopefully using the template of bringing in the 
stakeholders from the very beginning of the process.
    Mr. Etheridge. Very quickly, scale of 1 to 10, 10 being the 
best, what would you rate?
    Colonel Stephan. Sir, I hate those kind of questions.
    Mr. Etheridge. I knew you would.
    Colonel Stephan. You know, it is a 10 in terms of the 
places where we had the guidance out right now, 9 or 10. In 
places where we don't have the guidance, it is at the 1 or a 2 
level. I mean, it is different depending on which piece of this 
sector you are talking about.
    Mr. Etheridge. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you.
    Colonel, can you provide the committee with a listing of 
where you had the guidance out versus where you don't have the 
guidance out?
    Colonel Stephan. Yes, Mr. Chairman. I would be happy to do 
that.
    Chairman Thompson. Thank you. I think that will help us.
    We will now yield to the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Thank you, gentlemen. This has been a very informative and 
interesting hearing, especially coming from a place like New 
York City, where it seems, every time I leave my house, I am 
involved in a mass gathering.
    There are a number of facilities and environments across 
the United States that routinely handle mass gatherings that I 
believe would likely be classified as SEAR 1 or 2. For example, 
in New York we have Madison Square Garden, which is an 
extremely popular venue for high-profile events that is right 
in the heart of the city. Certainly, being in the heart of the 
city, it is also in the middle of a commercial hub. So you have 
not only the people who gather in the venue, but you have, I 
would estimate, maybe hundreds of thousands of people that are 
just moving about either in the subway system, Amtrak is right 
there, and you have this massive shopping area. So potentially 
hundreds of thousands of people are there.
    With these types of environments, how do you offer support 
and resources? Is it only in the direct run-up to a specific 
event? Or do you work with them on a continuing basis if there 
are facilities that commonly hold mass gatherings, such as 
stadiums and similar venues?
    Colonel Stephan. Ma'am, I think we actually approach it 
from both angles. We do lots of what I refer to as steady-state 
activities, collaborative planning, trying to target the 
various grant programs to fix gaps that have been identified 
through collaborative security planning efforts, so on and so 
forth.
    Then during particular special events, depending, again, on 
the risk factor, surge, additional Federal support as required. 
For example, in New York City, the U.S. Coast Guard is very 
active in working as a team with local law enforcement 
officials, in terms of the waterways around Manhattan island; 
the TSA folks, in terms of no-fly zones during certain periods 
to cover certain special events; TSA, also, in terms of helping 
beef up with additional bomb dogs and things like that, in 
terms of the subway system up there.
    So I think the answer to your question is actually both 
approaches, trying to work them together.
    Ms. Clarke. Is that a consistent, in your estimation, a 
consistent operation?
    In other words, New York is always going to be dynamic like 
that. One of the issues that I think the citizenry of the city 
has is the fact that we get comfortable, because this is the 
way we live. We want to be comfortable in the fact that the 
individuals who are entrusted with our safety are not as 
relaxed about the environment we reside in but are always in a 
state of readiness.
    For instance, what is the protocol in place for these types 
of environments that creates and maintains the state of 
readiness for the deployment of emergency response? Is that 
something that your offices would monitor, or is it something 
that has to be requested from the ground up?
    Colonel Stephan. Ma'am, I think we have consistency in 
terms of the guidance and protective guidelines, vulnerability 
assessment methodologies, training, exercise programs, across 
my mission area, from city to city or from rural area to rural 
area. The guidelines are there, but they are flexible enough to 
allow themselves to be tailored to the specific operational 
risk environments where they have to be applied.
    I think where you are going to find a variance, however, is 
there is a tremendous difference in resources city by city 
across America. A New York City and a Wichita, those are apples 
and oranges. New York City is on a heightened alert posture 
almost every day of the year, whereas other communities around 
the United States of course do not feel, necessarily, that 
sense of urgency with respect to the homeland security mission 
set.
    So you will find different levels of focus, different 
levels of resources being applied. But in the plans that we 
push out and the guidance documents we push out, we try to 
maintain consistency, yet approach that allows flexible 
tailoring of things to the local landscapes.
    Ms. Clarke. Thank you very much, gentlemen.
    I yield back the balance of my time.
    Chairman Thompson. Thank you.
    We now recognize the gentlelady from Texas for 5 minutes, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
thank you very much for what I think is a very important 
hearing that allows us to discuss the best way to go forward in 
ensuring the safety of the American people.
    Secretary Stephan, let me thank you also for your concerted 
leadership. Of course, as we have been quite tough in our 
questioning on a number of occasions, we do appreciate the fact 
that both you and the Admiral are consistent in your commitment 
and dedication, and I truly appreciate it.
    As you well know, I chair the Subcommittee on 
Transportation Security and Infrastructure Protection, so I am 
quite familiar with the many issues we have been discussing 
today.
    We recently had a hearing, and I wanted to ensure that a 
number of the issues of that hearing could be framed in the 
hearing today. I think that it is clearly important for a 
country that loves to come together at big events, that we 
focus our attention on how we can be more effective. The 
hearing I speak of was held on March 12. So I am going to ask a 
series of questions back to back, and then I will yield to you, 
Mr. Secretary, if I can.
    During our hearing, several experts testified that Congress 
should consider creating a lead at the Department of Homeland 
Security for non-national special security events. I would like 
to get an assessment of the progress being made there.
    In addition, I think it is important that DHS develops 
clear metrics for the implementation of security and response-
related measures in the CFS, the Commercial Facilities Sector. 
I would like to get your assessment of how far along the 
Department is. The metrics need to address exercises, resource 
allocation and contingency planning efforts.
    Additionally, I think that it is important that the CIPAC 
will seek to incorporate members that do not merely represent 
an association. This, of course, is encouraging the Department 
to utilize the authority that Congress has already allocated, 
such as the Critical Infrastructure Partnership Advisory 
Council. But I would like to see how you incorporate individual 
asset owners. So go outside of the boundaries of Government and 
see whether or not they can participate as well and give us 
extra insight.
    I also hope that the Department leverages its Voluntary 
Private-Sector Preparedness Certification Program. This program 
can be used to encourage companies to meet voluntary standards. 
I would like to hear from you how that program is proceeding 
and how this program has been introduced to the Critical 
Facilities Sector.
    Then I am interested in something that I have discussed 
with you for a period of time, and that is exercises. I think 
we have had some long-standing discussions on exercises. I have 
listened to the Congresswoman from New York, Mrs. Lowey, about 
the unexpected visit--or, let's say, the visit by the Pope. I 
just think that these exercises are important, and I am 
interested in a full description of these exercises. Probably 
some of that may be in writing, but, anyhow, if you could give 
just a quick assessment, their participants and their 
frequency.
    Again, let me make my request of utilizing the area in the 
Southwest region, in this instance a city like Houston, for an 
opportunity, but I believe we should spread those opportunities 
and have some method of doing so.
    I think there are about 5 points there, and I know that--if 
you give a snippet on each, you will be able to write some of 
the answers presented in writing.
    Colonel Stephan. Yes, ma'am, you are going to have my staff 
busy for quite a while over the next couple of weeks, but we 
are going to get back to you to answer all these questions very 
fully.
    In terms of exercises, we have integrated really more than 
an observer capacity for the first time. All of the elements of 
the critical infrastructure sectors that wanted to be engaged, 
starting back in TOPOFF 4, full players, full members of the 
exercise design control simulation cell, as well as players 
during the exercise event itself. We carried that forward a 
couple of months ago, in May, when we had another national-
level exercise. For the first time, I opened up our National 
Infrastructure Coordinating Center to seat members of the 
private sector in the hub of the nerve center of my operation.
    I think you will receive a favorable report, if you query 
the folks that were involved, that they now have a special 
exercise working group of the private-sector coordinating 
councils across the board.
    Ms. Jackson Lee. If I could just get you to answer the 
point about ensuring that we have a person, a lead at DHS for 
non-national special security events.
    Colonel Stephan. I am proud to announce that that 
individual is seated to my left. Admiral Rufe is the lead.
    Ms. Jackson Lee. Excellent. I only have a short time, if 
you want to finish your last sentence.
    Colonel Stephan. The individual asset owners and operators, 
ma'am, their equities, their interests and concerns are 
incorporated really by my deployed cadre of 78 protected 
security advisors that have solid and growing, ever-maturing, 
professional relationships with the owners and operators in 
their geographic areas of responsibility.
    The private-sector voluntary standards program, in 
accordance with the statutory requirements, has been briefed to 
the sector coordinating council membership writ large. FEMA has 
the lead for that program within DHS. The status we are at now 
is mining what constitutes preparedness standards, figuring out 
what kind of standards are out there, defining what the 
accrediting body will be, and pushing out a contract to bring 
those folks in.
    We are going to roll in through the sector coordinating 
council structure, under the national infrastructure protection 
plan, the private sector input across the 18 sectors into that 
process. That will move out over the course of the next year. I 
will have the FEMA folks put together a more comprehensive 
status briefing.
    The metrics piece, specifically for this sector but all the 
sectors really, will come to you in the sector annual reports. 
I just received each of those on July 1. I am aggregating them 
into a national-level cross-sector risk report that will be 
coming to the Congress of the United States the first week in 
November per statute. That contains a detailed metrics piece 
sector by sector for you.
    I believe I have covered five of five.
    Ms. Jackson Lee. I think you have, but we will pursue it 
further in further discussions.
    Colonel Stephan. Yes, ma'am.
    Ms. Jackson Lee. I yield back.
    Chairman Thompson. Thank you very much.
    In the event, Ms. Jackson Lee, there is something that you 
asked or wanted to ask and we did not, we will gladly provide 
our witnesses with anything you provide us in terms of 
questions for their response.
    We want to thank our first panel of witnesses. You have 
been very thorough in your answers, and we appreciate, again, 
your service to this country. Thank you very much.
    We will now call our second panel of witnesses.
    We would like to welcome our second panel of witnesses. I 
appreciate your patience and, obviously, your service to the 
country.
    Our first witness, Dr. Thomas Blackwell, is a medical 
director for the Center for Prehospital Medicine at the 
Carolinas Medical Center in Charlotte, North Carolina. He is 
also the medical director for MEDIC, the Mecklenburg EMS 
agency, Lowe's Motor Speedway, and the Bank of America Stadium, 
all in Charlotte, North Carolina.
    Dr. Blackwell, we want to thank you, especially for making 
the time to testify today. We know that you have deployed your 
mobile hospital to the State of Indiana to provide support as 
part of the response to the recent floods there. We appreciate 
your dedication to providing emergency medical care throughout 
the Nation.
    Our second witness is Sergeant Scott McCartney. Sergeant 
McCartney is the program manager and lead exercise planner for 
the Large Stadium Initiative for the State of California. He is 
also a member of the Critical Incident Negotiation Team for the 
Sacramento County sheriff's office.
    Welcome.
    Our third witness, Mr. Doug Reynolds, is the director of 
security for the Mall of America in Bloomington, Minnesota. We 
commend his service in this capacity, as well as his previous 
21 years of service as a member of Army National Guard. 
Speaking of the Mall of America, my wife appreciates the 
security.
    We thank our witnesses for their service to the States and 
to the Nation and for being here today.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Dr. Blackwell.

STATEMENT OF THOMAS H. BLACKWELL, MD, MEDICAL DIRECTOR, CENTER 
FOR PREHOSPITAL MEDICINE, CAROLINAS MEDICAL CENTER, CHARLOTTE, 
                         NORTH CAROLINA

    Dr. Blackwell. Chairman Thompson, distinguished Members of 
the Committee on Homeland Security, good morning. Thank you for 
inviting me to testify this morning.
    My name is Dr. Tom Blackwell. I am an emergency physician 
at Carolinas Medical Center's Level 1 trauma center in 
Charlotte, North Carolina. I also serve as a clinical associate 
professor of emergency medicine at the University of North 
Carolina-Chapel Hill.
    My other positions do include the medical director for the 
Mecklenburg Emergency Medical Services Agency, the 911 medical 
provider for Charlotte, and the medical director for Lowe's 
Motor Speedway, the Wachovia Championship PGA, and Bank of 
America Stadium, home to the Carolina Panthers.
    I have had the opportunity to read the committee's report 
on public health, safety and security for mass gatherings, and 
applaud the efforts at better understanding the issues we face 
with preparedness and with response. It was a pleasure to spend 
time with Dr. Asha George, Scott Springer, and other staff 
members during their several visits to Charlotte.
    Before I begin, I would like to iterate that planning and 
preparedness for any mass gathering event goes hand-in-hand 
with any mass casualty planning resulting from a disaster. 
Thus, my comments this morning will apply to both of these 
situations.
    As you think about mass gathering medical support, there 
are four primary criteria that I believe must be acknowledged 
and addressed: No. 1, the coordination between State and local 
authority, including the Federal and tribal governments when 
those are applicable; No. 2, the participation of all law 
enforcement, fire services, EMS, public health and hospitals 
and emergency management agencies; No. 3, the comprehensive 
preparedness, planning and training; and No. 4, the procurement 
or availability of assets or resources required to save lives, 
ease suffering and successfully mitigate the medical 
consequences.
    In Charlotte, we have addressed many of the issues in the 
report and have created solutions that will preserve human life 
and infrastructure, all of which have direct implications for 
mass gathering events and disaster management. First is the 
development of the Advanced Local Emergency Response Team, or 
ALERT, which is a multi-agency team of law enforcement, fire 
and medical staff trained to respond to a weapon of mass 
destruction. No. 2 is the design, development and 
implementation of the state-of-art mobile hospital.
    Our ALERT multidisciplinary program has been training and 
preparing since 1998, way before the events of 9/11. It also 
includes a medical online surveillance tool that was integrated 
into a State-wide detection system. This system is able to 
track disease or potential disease spread and provides 
epidemiologic feedback to the region or the area affected.
    Now, while this is an important public health component, 
the real issue facing communities in mass gathering venues 
today is the acquisition of appropriate resources required to 
manage patient care, especially given to current state of 
health care delivery in the United States.
    The 2006 Institute of Medicine report entitled ``The Future 
of Emergency Care in the United States Health System'' outlined 
the degree of emergency department overcrowding and hospital 
closings. Since many hospitals across this Nation operate at 
surge capacity on a daily basis, it is extremely difficult to 
successfully handle any incident that results in mass 
casualties.
    So to support the ALERT initiative and the overcrowded 
state of our health care system we developed and constructed a 
mobile hospital that was different in design from the 
traditional tent systems that have been used in the past. This 
unit is designed to quickly move to the site of a disaster, can 
be deployed in under 20 minutes, and supports the provision of 
comprehensive medical and surgical care for traumatic injuries, 
infectious disease, and general emergency and ambulatory care.
    It incorporates a two-bed operating room, four-bed 
intensive care unit, and an eight-bed emergency department in 
an expandable 53-foot tractor trailer. When more beds are 
needed, a shelter system can be deployed from the trailer that 
can support an additional 250 beds.
    In the immediate aftermath of Hurricane Katrina, MED-1 was 
dispatched to Waveland and Bay St. Louis, Mississippi. Within 
an hour after set-up, we began seeing patients. Within 24 
hours, we had conducted our first surgical procedure, 
transferred our first pregnancy who was soon to deliver in Gulf 
Port, and saw our first traumatic injury.
    This case involved a 12-year-old boy who was riding an all-
terrain vehicle when he was struck by a car. Due to the head 
injury, the child had stopped breathing on their arrival at our 
facility. We resuscitated and stabilized the child and quickly 
transferred him by Coast Guard helicopter to the trauma center 
in Jackson. It is my pleasure, Mr. Chair, to report to you that 
this child eventually survived, walking out of the trauma 
center in Jackson with no permanent nor long-term disability.
    During the 7-week deployment, we saw more than 7,500 
patients, sometimes going up to 350 a day. Six months later, 
MED-1 was called to assist in the excessive surge capacity 
conditions in New Orleans, during the first Mardi Gras 
celebration following the hurricanes. During the 2 weeks of 
deployment, 575 patients were treated.
    At this very moment, Carolina's MED-1 is on its third 
deployment in Columbus, Indiana, providing emergency department 
services in the wake of the severe flooding that destroyed 
Columbus Regional Hospital on June 6.
    We are confident that the MED-1 asset, due to these 
deployments and our lessons learned, would be a useful resource 
for any mass gathering event and for tornados, earthquake and 
floods that have plagued our country. The time is now, Mr. 
Chair, to seek unique solutions that support a combination of 
health care needs and mass gathering special events.
    Finally, I would like to comment on two additional 
important issues that we have concerns, and that is sustainment 
and mutual aid.
    It is important to realize that while many of our assets 
and programs are grant-funded, sustainment dollars are equally 
significant to keep those initiatives operational and 
functional.
    Last, I would encourage Congress to entertain methods to 
expedite the process for requesting and authorizing mutual aid, 
using the Emergency Management Assistance Compact, or EMAC. 
When devastated communities and populations need emergency 
care, deployment strategy should be as streamlined as possible 
so as to facilitate that response.
    I thank you again, Mr. Chair and committee Members, for 
your time. I am pleased to answer questions that you may have.
    [The statement of Dr. Blackwell follows:]

               Prepared Statement of Thomas H. Blackwell
                              July 9, 2008

                              INTRODUCTION

    Chairman Thompson, Ranking Member King, distinguished Members of 
the committee and guests, thank you for the opportunity to appear 
before you today. My name is Dr. Tom Blackwell and I am an emergency 
physician at Carolinas Medical Center, a designated Level 1 trauma 
center in Charlotte, North Carolina. I also serve as Medical Director 
for the Mecklenburg Emergency Medical Services Agency, which is the 9-
1-1 EMS provider for the city of Charlotte and Mecklenburg County. 
Additionally, I am a Clinical Associate Professor of Emergency Medicine 
at the University of North Carolina--Chapel Hill School of Medicine and 
the University of North Carolina--Charlotte.
    Carolinas Medical Center, is the flagship hospital of Carolinas 
HealthCare System and is a State-designated Academic Medical Center 
Teaching Hospital. Carolinas HealthCare System is the largest 
healthcare system in the Carolinas and the third-largest public 
healthcare system nationally.
    I have dedicated the last 10 years of my career to improving our 
community's and this Nation's ability to address surge capacity medical 
needs and to respond to incidents resulting from natural and man-made 
disasters. Today, I would like to share with you my experience in 
developing our local capacity to respond to a mass casualty event in 
our region. I would like to emphasize that when you prepare for mass 
casualty incidents at mass gatherings, the same preparation applies 
with mass casualties resulting from a natural disaster; thus my 
comments this morning will apply to both situations.
    In our region, we have addressed many of the issues in the 
committee's Report Public Health, Safety and Security for Mass 
Gatherings and have created solutions that will preserve human life and 
infrastructure. Since 1998, I have been integrally involved in two 
comprehensive medical management initiatives in Charlotte, both of 
which have direct implications for mass gathering events and disaster 
management.
    1. The development of the Advanced Local Emergency Response Team, 
        or ALERT which is a multi-agency team of law enforcement, fire, 
        and medical staff trained to respond to a weapon of mass 
        destruction.
    2. The design, development, and implementation of a state-of-the-
        art mobile hospital.
    Put simply, I am the doctor in the field at ground zero who will be 
there when any incident unfolds. As such, I believe that I am able to 
provide to you a unique perspective from the ground up as to how we 
address patient care issues.

                          DEVELOPMENT OF ALERT

    Charlotte is the second-largest banking center in the country and 
is the only city in the world that has two nuclear power plants within 
25 miles from the center of our uptown district. It hosts the NFL 
Carolina Panthers and the NBA Charlotte Bobcats. The Lowe's Motor 
Speedway, home to several prominent NASCAR events, sits just outside of 
Charlotte in Cabarrus County, North Carolina. In addition, Charlotte 
hosts a number of other annual mass gathering events such as the 
Central Intercollegiate Athletic Association (CIAA) Basketball 
Tournament and the Wachovia Championship Golf Tournament. The 
Charlotte-Douglas International Airport is the tenth largest airport 
and the largest hub for USAirways. Charlotte has the sixth-most Fortune 
500 companies and is home to many international businesses.
    Our wake-up call came in February 1998, when a man entered the 
Mecklenburg County Court House in uptown Charlotte carrying a bomb. The 
Court House is a mass gathering at 9 and 2 every day when district 
court convenes. This man told deputies that he had a second device that 
could be remotely detonated in the trunk of his car several blocks 
away. A rapid search of his home revealed ingredients for constructing 
a bomb, in addition to potential chemicals and biological agents on-
site. While the incident was successfully resolved, the emergency 
response revealed several issues that we, as a community, needed to 
address. Collaborative agreements were fostered between emergency 
management, law enforcement agencies, the fire department, EMS, public 
health, and hospitals. The result of our labor was the formation of the 
Advanced Local Emergency Response Team (ALERT) to ensure preparedness 
for urban terrorism and weapons of mass destruction, as well as natural 
disasters (such as hurricanes and floods). The team makeup is comprised 
of local law enforcement, fire, and emergency medical staff, and 
incorporates resources to effectively and efficiently respond to any 
terrorist incident or natural disaster.
    ALERT has been training for terrorism and mass casualty responses 
including tactical operations involving bombs, biological, and chemical 
agents detection/disposal, decontamination, triage and scene treatment, 
hospital response, and incident command. ALERT exemplifies the kind of 
``culture of collaboration'' among various private and public entities 
that the committee's Report Public Health, Safety and Security for Mass 
Gatherings so appropriately recognized is essential to protecting our 
citizens and preserving the community's infrastructure.
    Two areas that are most critical in medical response and readiness 
are real-time detection and surge capacity. Real-time detection is a 
prerequisite to containing disease outbreak, particularly in a mass 
gathering environment. Our ALERT program includes a medical on-line 
surveillance tool that was integrated into a State-wide detection 
system. This system is able to track disease or potential disease 
spread, and provides epidemiologic feedback to the region or area 
affected. Another critical issue facing communities and mass gathering 
venues today is surge capacity--ensuring the availability of 
appropriate and adequate resources required to manage an enormous 
influx of ill or injured patients. In the 2006 Institute of Medicine 
Report entitled ``The Future of Emergency Care in United States Health 
System,'' one of the three reports ``Hospital-Based Emergency Care: At 
the Breaking Point'' focused on surge capacity. The report outlined the 
degree of emergency department overcrowding and hospital closings. 
This, along with the fact that many hospitals across this Nation 
operate at surge capacity on a daily basis, makes it extremely 
difficult to successfully handle any incident that results in mass 
casualties, particularly from mass gatherings where tens of thousands 
of people could be affected.

                     DEVELOPMENT OF MOBILE HOSPITAL

    Learning from the anthrax attacks, our deliberations surrounding 
the ALERT initiative, and the overcrowded state of our hospitals, we 
set out to design and construct a mobile hospital that was different in 
design from the traditional tent systems that have been used in the 
past. Initiated in 2002, we wanted to build a medical facility that 
could quickly move to the site of a disaster, be rapidly deployed on 
arrival, and be able to provide comprehensive medical and surgical care 
so as preserve hospital resources for the most critical patients. Amid 
the growing concern of biological threats, including infectious disease 
outbreaks which raises the issues of isolation, containment, and 
quarantine, it was essential that the mobile hospital serve patients 
that could not and should not be transferred to local hospitals. 
Transferring patients who may have an infectious disease could 
contaminate and jeopardize the integrity of a hospital's infrastructure 
for indefinite periods of time. Our design incorporated a 2-bed 
operating room, 4-bed intensive care unit, and an 8-bed emergency 
department in an expandable 53-ft. trailer. While 14-beds are helpful, 
a mass casualty incident or pandemic outbreak could result in hundreds 
or even thousands of patients. Thus, to plan and accommodate the 
expected large number of patients, we developed a shelter system that 
could be deployed from the trailer that can support an additional 250 
beds.
    The Department of Homeland Security was incredibly supportive of 
our approach and plan. We applied for a grant and received funding from 
the Department to build the prototype hospital. In April 2004, we 
unveiled the Carolinas MED-1 mobile emergency department. The MED-1 
unit is owned and operated by Carolinas Medical Center, and includes 
emergency physicians, trauma and orthopaedic surgeons, 
anesthesiologists, nurses, and paramedics as the healthcare team. 
Additional support personnel includes drivers, clinical engineers, and 
security staff provided by the Charlotte-Mecklenburg Police Department.
    After much training, planning, and operational exercises, the MED-
1's first deployment came in the immediate aftermath of Hurricane 
Katrina. MED-1's emergency response unit and team was dispatched to 
Mississippi to provide care to the survivors of the hurricane under an 
Emergency Management Assistance Compact between the States of 
Mississippi and North Carolina. Mr. Chairman, it was our great fortune 
to serve the communities of Waveland and Bay St. Louis, and to support 
Hancock Medical Center which was incapacitated by the storm.
    Carolinas MED-1 set-up in a K-Mart shopping center parking lot, 
located approximately 1 mile from Hancock Medical Center. Approximately 
150 refugee families were living in make-shift structures on hot 
asphalt, all without any significant medical care. Within an hour of 
our arrival, we began seeing patients. On day 2, we conducted our first 
surgical operation, transferred our first pregnancy who was soon to 
deliver, and saw our first traumatic injury. The trauma involved a 12-
year-old boy who was riding an all terrain vehicle when he was struck 
by a car. The local EMS provider noted that the child had stopped 
breathing as they arrived at MED-1. Our team was able to resuscitate 
and stabilize the child, provide head injury therapeutics, and complete 
a full diagnostic evaluation including labs and X-rays. He was 
transferred by Coast Guard helicopter to the Level 1 trauma center in 
Jackson, Mississippi. It is my great pleasure, Mr. Chairman to let you 
know that this boy eventually walked out of the hospital intact and 
with no permanent nor long-term problems. Epidemiologists would comment 
on the cost-benefit ratio of a MED-1 unit. In my opinion, that 12-year-
old's life was worth the cost of 1,000 MED-1s.
    During the 7 weeks of deployment in Mississippi, we saw more then 
7,500 patients. The MED-1 staff along with the hundreds of physicians, 
nurses, EMTs and paramedics, and other allied health personnel from 
across North Carolina will forever have a bond with the people of 
Waveland and Bay St. Louis. Our prototype, again funded and supported 
by the Department of Homeland Security, was a true success story from 
the devastation invoked by Hurricane Katrina.
    Six months later, Carolinas MED-1 was called back into service to 
serve as a stand-alone emergency department to assist in the excessive 
surge capacity conditions present in New Orleans during the first Mardi 
Gras celebration following the Hurricane Katrina and Rita. The unit 
quickly became the primary receiving facility for the city of New 
Orleans EMS and other services in the surrounding parishes. During the 
2 weeks of deployment, 575 patients were treated. Dr. Jullette Saussy, 
the Director of Emergency Medical Services for New Orleans has been 
working for the last 2 years to obtain funding for a full-time MED-1 
for her city.
    Presently, Carolinas MED-1 is deployed to Columbus, Indiana to 
provide emergency department services in the wake of the severe 
flooding that destroyed Columbus Regional Hospital. Our first patient 
to arrive was in respiratory failure. A breathing tube was required and 
inserted, he was placed on a ventilator, antibiotics were immediately 
administered, and he was transferred by helicopter to Methodist 
Hospital in Indianapolis. Today, MED-1 and the Columbus Regional 
Hospital staff is seeing approximately 60-70 patients a day.
    Overall, each of our deployments has been a tremendous success. We 
developed MED-1 to meet a critical need in Charlotte and elsewhere, and 
developed a company to produce more MED-1's to meet local preparedness 
needs in other parts of the country. Los Angeles County procured its 
second MED-1 and is in the process of building a program similar to the 
one in North Carolina. Several County Supervisors have expressed a 
great desire to deploy the unit to mass gatherings within the County 
such as the Tournament of Roses Parade, Rose Bowl, and the Los Angeles 
Marathon. Plans are also being developed to use MED-1 to provide 
routine outpatient medical care to the people of Los Angeles County. 
Frequent use will translate to quality training for the medical staff, 
thus ensuring proficiency when a true disaster occurs.

                     CONCLUSION AND RECOMMENDATIONS

    Based on my experience with ALERT and MED-1, as you think about 
mass gathering medical support, I have several specific recommendations 
for your consideration.

Recommendation No. 1: Coordination between Federal, State, and local 
        authorities is essential both before and after a terrorist 
        attack or natural disaster.
    Mass casualty incidents don't recognize county or State lines, and 
our responses shouldn't either. We designed MED-1 to be set up in just 
20 minutes. After Hurricane Katrina, MED-1 began providing patient care 
services shortly after arrival at the K-Mart parking lot. However, it 
took 4 days from the time Hurricane Katrina hit for MED-1 to actually 
be deployed. At the time, extensive conversations were conducted 
between the Federal Government, Mississippi, North Carolina, and 
Carolinas Medical Center. Each time we deploy, there is a great deal of 
paperwork and contracting that has to occur between the public and 
private entities before we are able to move MED-1 toward the patients 
that need the care. We must consider ways to simplify the process by 
which MED-1 and other critical assets get deployed to minimize time 
delays. That means ensuring coordination between the various entities 
ahead of time to the greatest extent possible.
    More specifically, the Emergency Management Assistance Compact, 
(EMAC) is a congressionally ratified organization that provides form 
and structure to interstate mutual aid thus allowing a disaster-
impacted State to request and receive assistance from other member 
States quickly and efficiently. Based on my experience deploying MED-1 
several times out of State, we need for all States to amend their EMAC 
legislation so that the same immunity that applies to State employees 
will also apply to all employees that work with the responding State to 
provide the help that is needed. MED-1 and the employees who agree to 
be part of an emergency response often deploy with or as a part of a 
State's emergency response assets. An amendment to the EMAC model State 
laws that are enacted in each State would save valuable time that is 
now being spent on drafting and executing contracts between the 
hospitals and the responding State so that the hospital employees will 
be covered by the immunity given to the State.

Recommendation No. 2: All law enforcement, fire services, emergency 
        medical services, public health and hospitals, and local 
        emergency management agencies must participate in disaster 
        planning and response.
    ALERT's success is due in large part to the participation of all 
relevant private and government entities. This participation is 
reflected in four key elements: ALERT's operational guidelines are 
established collaboratively; ALERT members plan, prepare, and respond 
as one unit; ALERT's equipment is standardized and has been approved by 
all member agencies; and ALERT personnel wear a standardized team 
uniform with nametags for personal recognition and familiarization, 
thus fostering cohesion and nourishing ALERT's team concept. The 
relationships fostered through our joint preparedness activities 
ensures our cohesive and comprehensive response to any incident.

Recommendation No. 3: Developing comprehensive all-hazards preparedness 
        plans and consistent training on those plans.
    Medical preparedness planning includes an understanding of who is 
going to do what and how regarding evacuation, containment, medical 
care, triage, transport, and recovery. To ensure that preparedness 
plans are complete and to identify and fill gaps in the plans, it is 
critical to test and evaluate the plans through ongoing and sustained 
training and adjust where necessary. It is a never-ending, fluid 
process and we are always learning from our training and experiences 
with both ALERT and MED-1.

Recommendation No. 4: Procurement or availability of assets and 
        resources required to save lives, ease suffering, and 
        successfully mitigate the medical consequences of a terrorist 
        attack or natural disaster.
    Local medical needs include ongoing financial support for 
equipment, personnel, and training. Just maintaining MED-1 on an annual 
basis and having it ready to go costs over $800,000. Ensuring adequate 
response and recovery in the event of a mass casualty incident at a 
mass gathering costs money. Critical assets like real-time detection of 
a biological release should be made available at all mass gathering 
venues. It is not plausible to think that any public hospital or local 
government agency will have the resources on hand to provide the funds 
necessary for full preparedness. While many of the assets and programs 
we do have are grant funded, sustainment dollars are equally 
significant to keep these initiatives operational and functional.
    Last, I would like to emphasize that the time is now to seek 
solutions that support healthcare needs at special events and mass 
gatherings. As a Nation, our preparedness for terrorist attacks also 
serves to ensure our preparedness for the more common occurrence of 
various types of natural disasters which are plaguing the United States 
more and more each year.
    I thank you again, Mr. Chairman and Members of the committee for 
your time, and I will be pleased to answer any questions you may have.

    Chairman Thompson. Thank you very much.
    We now will hear testimony from Sergeant McCartney. If you 
would, summarize your statement in 5 minutes, please.

STATEMENT OF SCOTT MCCARTNEY, PROGRAM MANAGER/EXERCISE PLANNER, 
    LARGE STADIUM INITIATIVE, GOVERNOR'S OFFICE OF HOMELAND 
  SECURITY, SACRAMENTO, CALIFORNIA, AND SERGEANT, SACRAMENTO 
                  COUNTY SHERIFF'S DEPARTMENT

    Sergeant McCartney. Chairman Thompson and Members of the 
committee, on behalf of Governor Arnold Schwarzenegger and 
Director Matthew Bettenhausen of the California Office of 
Homeland Security, I would like to thank you for opportunity to 
appear before you this morning regarding California's Large 
Stadium Initiative and the challenges protecting mass 
gatherings in a post-9/11 world.
    My name is Sergeant Scott McCartney, and I work for the 
Sacramento County Sheriff's Department. I am assigned there to 
the Governor's Office of Homeland Security as the program 
manager of the Large Stadium Initiative.
    I would like to take just a moment to acknowledge Chairman 
Thompson, his staff and the Members of the committee for 
recognizing the importance to preparing States' stadiums and 
venues to be more aware of homeland security challenges.
    In 2004, California recognized the need to develop a 
comprehensive approach to the safety and protection of the 
people and economy relating to mass gatherings of California 
and began the California Office of Homeland Security Large 
Stadium Initiative.
    Originally, the Large Stadium Initiative was focused on 
specific stadium priorities and specific events that rose to 
high-profile status. The program has since evolved into a 
multi-event, multi-venue program utilizing an all-hazards 
approach to public safety.
    LSI assists mass gatherings with strategies for enhancing 
prevention, response and recovery capabilities; establishing a 
high level of security practices in stadiums, regardless of the 
building's size or type; integrating private partners into 
NIMS, an ICS structure, in understanding local, State and 
Federal systems; and provides customized training in venue 
roles and responsibilities, lessons learned, mass care in 
sheltering, and crisis communication.
    LSI provides stakeholders in California a stair-step 
approach to enhancing homeland security preparedness using best 
practices, infrastructure security plans through automatic 
critical asset management systems, shared discoveries, and 
discussion-based exercises such as seminars, workshops and 
tabletops.
    LSI was the focus of California's Golden Guardian 2007 
full-scale exercise, and events were held in all three regions 
of California. The venues and public safety agencies that 
participate in the LSI program are integrated into the State-
wide exercise planning cycles to allow them to fully assess 
their strengths and identify any areas of improvement during 
annual Golden Guardian exercise.
    LSI partnered with other professional and collegiate venues 
around the State, as well. The Large Stadium Initiative program 
highlights target capabilities in the area of prevention, 
preparedness, response and recovery. LSI works with venues and 
first responders to raise awareness regarding criminal and 
terrorist activities, against spectators or venues during mass 
gatherings.
    LSI has partnered with OHS Special Projects Division and 
the Domestic Nuclear Detection Office to develop a 
comprehensive preventative strategy for building a surge 
capacity to detect and interdict radiological and nuclear 
threats at mass gatherings in California. LSI prepares venues 
and stadiums for critical infrastructure protection, which 
enables them to identify, assess, prioritize and design 
protective measures to increase the security and safety of 
venues.
    The LSI program also collaborates and coordinates with 
emergency public safety and security responders, venue 
operators and security partners and to reduce the impact of 
natural, manmade and any other all-hazard incidents by 
discussing and exercising their safety and security plans from 
mass care in evacuations.
    The LSI program is designed to assist mass gathering venues 
with information on structural damage assessments, restoration 
of lifelines, and continuity of business and economic recovery.
    To return a mass gathering facility to a full operation, 
which is vital to the economic sustainment and growth of the 
community, LSI is evolving to meet the needs of mass gathering 
venues of non-national significance. Future program goals of 
the program: major sports television networks, chaplain and 
community services, major award ceremonies and convention 
gatherings.
    I would like to highlight how LSI assists colleges and 
universities in creating the implementing policies and 
procedures for their stadiums. These venues augment security 
with student services and still require assistance from first 
responders. Funding can be an issue regarding training and 
equipment needs for these venues.
    As a result of the program, we see relationships develop 
between universities and first responders and the increase in 
strategic planning, crisis communication and memorandums of 
understanding. The areas of improvement noted during the LSI 
university series include communication process, development of 
evacuation plans for different buildings, safety and security 
equipment resources for normal operations, including consistent 
training and exercising, identification of mass casualty 
incidents, incident command and unified command training, 
recovery and remediation.
    California and the Large Stadium Initiative is committed to 
keeping all mass gatherings, both national and non-national 
significance, protected by partnering with local, State and 
Federal entities in a post-9/11 world. LSI is developing new, 
state-of-the-art ideas to design strategies to better prepare 
all stakeholders and spectators in venue safety and security 
during mass gathering venues for natural and man-made disasters 
and all other hazards incidents.
    Again, thank you for this opportunity today, and I would be 
happy to answer any questions.
    [The statement of Sergeant McCartney follows:]

                 Prepared Statement of Scott McCartney
                              July 9, 2008

    Chairman Thompson, Ranking Member King, and Members of the 
committee, on behalf of Governor Arnold Schwarzenegger, Director Matt 
Bettenhausen and the California Office of Homeland Security, I would 
like to thank you and the committee on Homeland Security for the 
opportunity to appear before you this morning regarding the California 
Large Stadium Initiative and the ``Challenges of Protecting Mass 
Gatherings in a Post 9/11 World''.
    My name is Scott McCartney and I am a Sergeant with the Sacramento 
County Sheriff's Department, California. I am assigned as a Law 
Enforcement Subject Matter Expert to the Office of Homeland Security as 
the Program Manager of the California Large Stadium Initiative--LSI. It 
is an honor for me to share with the committee the many accomplishments 
and strides California is making on the Large Stadium Initiative and 
mass gathering venues for the State of California and the Nation.
    I would like to take just a moment to acknowledge Chairman 
Thompson, his staff and the Members of the committee on Homeland 
Security for recognizing the importance of large-scale mass gatherings 
and the commitment to better preparing States, stadiums and venues to 
be more aware of Homeland Security challenges and to increase their 
capabilities for the prevention, preparation, response and recovery to 
mass gatherings that encompass the true American sprit of freedom.


                        large stadium initiative
    The tragic events of September 11, 2001 demonstrated the need to 
develop programs to deal with terrorism prevention, response and 
recovery at mass gathering venues. Large public venues, such as sports 
stadiums, present unique security and disaster response challenges. 
Through the Large Stadium Initiative, California is able to work with 
our public and private partners to tailor exercises to their specific 
needs to ensure the greatest possible protection for the public at 
these venues.
    California recognized the need to develop a comprehensive approach 
to the safety and protection of the people and economy relating to mass 
gatherings of California; and in 2004, the California Office of 
Homeland Security began the Large Stadium Initiative (LSI). Originally, 
the LSI program was focused on specific stadium properties and specific 
events that rose to a high profile status. The program has since 
evolved into a multi-event, multi-venue program utilizing an all 
hazards approach to public safety.
    The LSI program explores commonalities of large stadium/venue 
Homeland Security preparedness issues and assists in developing 
strategies for enhancing prevention, preparedness, response, and 
recovery capabilities as set forth by Presidential Directive No. 8.
    The Large Stadium Initiative is based on the premise that a 
majority of stadiums are not owned by municipal or State governments, 
and therefore security varies from facility to facility. Managers rely 
on a combination of private security companies, local police/sheriff, 
State, Federal partners and their own employees to protect their 
facilities.
    At a single facility, security strengths and weaknesses, the 
quality of supervisory personnel and operational practices can vary 
from event to event. Consequently, instituting a high level of security 
practices in stadiums across the Nation regardless of the stadium size 
or event type is a critical step in establishing a solid infrastructure 
protection standard for the stadium or mass gathering industry.
    With this in mind, the Large Stadium Initiative partners are 
provided with customized training and exercises which focus on venue 
roles and responsibilities, lessons learned and mass-care and shelter 
issues from previous disasters and crisis communication during 
incidents of both national and non-national significances. California 
is committed to keeping all large-scale mass gatherings protected in a 
post-9/11 world through the Large Stadium Initiative.
    In working with the owners and operators of facilities in 
California and other States, OHS-LSI has developed plans, policies and 
procedures that follow the DHS/Homeland Security Exercise and 
Evaluation Program (HSEEP) guidelines for Prevention, Protection, 
Response and Recovery to assist local, State and Federal partners who 
help secure these large-scale mass gathering venues. At each venue, we 
assess with preventative measures used not only for criminal acts of 
terrorism, but hazard prevention based on the facility, disaster 
preparation and prevention of criminal activities not associated with 
terrorism. We look at the physical plant of the facilities and make 
recommendations on protective measures that can be employed to deter 
criminal acts or provide for the greater safety of the spectators.
    LSI in conjunction with our Critical Infrastructure Protection 
Program (CIPP) and Automated Critical Asset Management System (ACAMS) 
assesses response plans within each facility and make sure those plans 
work together with the response plans for the public agencies that will 
respond to an event within the facility. I facilitate meetings between 
venue operators and public safety personnel to build relationships and 
resolve discrepancies in the plans.
    California provides training in the form of Seminars and Workshops 
following the (HSEEP) guidelines to assess policies and procedures, and 
identify strengths and areas for improvement. Table top exercises are 
developed for these facilities and venues and their first response 
partners, in order to assess their capabilities. The exercises are 
designed to highlight first responders, private security and venue 
facilities on their preparedness, response, recovery and recovery 
procedures for mitigating and managing a terrorist attack or disaster 
or other incident, which may occur at their venue during events.
    I also work with venue operators to develop comprehensive recovery 
plans so they can move toward the return of their facility to normal 
operations as soon as possible. These recovery plans not only deal with 
the physical plant (structure, stadium or venue), but with a marketing 
plan to inform and reassure the public regarding the safety and 
availability of the facility for use. This is an important step in the 
economic recovery of the affected area or region.

                          LSI ACCOMPLISHMENTS

    The goal of the State of California Office of Homeland Security 
Exercise Division is to conduct a series of exercises for Large Stadium 
and Mass Gathering sites, which includes a seminar, workshop and table 
top exercises during a calendar year in support of the Large Stadium 
Initiative (CA-LSI).
    CA-LSI assists large-scale mass gathering stadiums/venues and sites 
with:
  <bullet> Developing strategies for enhancing prevention, response and 
        recovery capabilities;
  <bullet> Establishing a high level of security practices in stadiums 
        across the country regardless of the building size or event 
        type;
  <bullet> Integrating private partners into SEMS/NIMS/ICS structure 
        and understanding local, State and Federal systems.
    CA-LSI partnered with large-scale and mass gathering venues and 
provided customized training:
  <bullet> Venue roles and responsibilities;
  <bullet> Lessons Learned;
  <bullet> Mass Care and Shelter issues from previous disasters;
  <bullet> Crisis Communication during incidents of national or non-
        national significance.
    CA-LSI provides stakeholders in California a stair-stepped approach 
to enhancing Homeland Security preparedness using:
  <bullet> Best Practices;
  <bullet> Exemplars;
  <bullet> Infrastructure Security Plans;
  <bullet> Shared Discoveries;
  <bullet> Exercises.
    CA-LSI was the focus of California's Golden Guardian 2007 Full-
Scale Exercise with events in the Southern, Inland and Costal Regions 
of California, specifically the Honda Center and Angel's Stadium in 
Anaheim, University of the Pacific (UOP) Spanos Center in Stockton and 
the H.P. Pavilion in San Jose.
    Past CA-LSI accomplishments have been with:
  <bullet> Arco Arena in Sacramento involving Professional Basketball;
  <bullet> Staples Center in LA involving Professional Basketball;
  <bullet> Monster Park in San Francisco involving Professional 
        Football;
  <bullet> PacBell Park in San Francisco involving Professional 
        Baseball;
  <bullet> Dodger Stadium in LA involving Professional Baseball;
  <bullet> AAA Club Speedway in Fontana and Infineon Raceway in Sonoma 
        involving Professional Motor Sports;
  <bullet> University of California at Davis involving Collegiate 
        Athletics.
    The California Large Stadium Initiative has worked since 2004 to 
assist these partners and venues with the latest and most progressive 
practices and technologies of Homeland Security. Our goal is to better 
prepare them to respond and recover from terrorist attack, natural 
disaster and all other hazards or incidents while spectators are 
visiting facilities to view sports or other large-scale events. The LSI 
program works with the venues to match their approach to their specific 
or desired focus of their event with first responders.

                              LSI SEMINARS

    LSI Seminars are designed for specific audiences at local, State 
and privately owned mass gathering venues. The seminar focuses on 
shared, new and innovative equipment, local, State and Federal 
resources. The seminars are informal discussions, designed to orient 
participants to authorities, strategies, new or updated plans, 
policies, procedures, protocols, resources, concepts, and/or ideas 
(e.g., a seminar to review a new Evacuation Standard Operating 
Procedure). Seminars provide a good starting point for jurisdictions 
that are developing or making major changes to their plans and 
procedures.

                             LSI WORKSHOPS

    The LSI workshop is designed to build specific products, such as a 
draft plan or policy (e.g., a Mass Evacuation Plan Workshop is used to 
develop a Multi-year Training and Exercise Plan). The workshop, a type 
of discussion-based exercise and represents the second tier of 
exercises in the building-block approach. Although similar to seminars, 
workshops differ in two important aspects: increased participant 
interaction, and a focus on achieving or building a product (e.g., 
plans, policies). A workshop is typically used to: test new ideas, 
processes, or procedures; train groups in coordinated activities; and 
obtain consensus.

                        LSI TABLE TOP EXERCISES

    A table top exercise (TTX) involves key personnel discussing 
simulated scenarios in an informal setting. TTXs can be used to assess 
plans, policies, and procedures or to assess types of systems needed to 
guide the prevention of, response to, or recovery from a defined 
incident. TTXs are intended to stimulate discussion of various issues 
regarding a hypothetical situation. During a TTX, senior staff, elected 
or appointed officials, or other key personnel meet in an informal 
setting to discuss simulated situations. TTXs are typically aimed at 
facilitating understanding of concepts, identifying strengths and 
shortfalls, and/or achieving a change in attitude. Participants are 
encouraged to discuss issues in depth and develop decisions through 
slow-paced problem-solving rather than the rapid, spontaneous 
decisionmaking that occurs under actual or simulated emergency 
conditions. TTXs can be breakout (i.e., groups split into functional 
areas) or plenary (i.e., one large group).

                          OHS APPROACH FOR LSI

Prevention
    LSI is working with the venues and local first responders on 
information gathering and recognition indicators and warnings for the 
ability to see gathered data, potential trends, indications, and/or 
warning of criminal and/or terrorist activities (including planning and 
surveillance) against U.S. citizens and critical infrastructure of the 
stadium or venues during large-scale mass gatherings.
    LSI, in partnership with members of the Special Projects Division 
of The California Office of Homeland Security, is currently working 
with all directorates inside of OHS to partner or leverage 
opportunities on a State-wide collaborative effort to develop a 
comprehensive, preventive strategy to detect and interdict radiological 
and nuclear threats within California's borders. The purpose is to give 
State and local response entities, the tools and resources necessary to 
interdict and resolve radiological and nuclear terrorist threats. 
California has convened a group of key State, Federal and local 
stakeholders to develop this program which is being developed in close 
partnership with the Domestic Nuclear Detection Office (DNDO). In 
addition to everyday monitoring and detection efforts on our land and 
waterways, one capability CA is looking to develop is a surge capacity 
for radiological nuclear detection resources that could be deployed 
throughout the State as needed for large-scale events and mass 
gatherings.

Protection
    Under this priority, LSI works with venues and stadiums on critical 
infrastructure protection which enables public and private entities to 
identify, assess, prioritize, and design protective measures to 
increase the security and safety of the venues. Some of the protective 
measures could involve hardening of the facilities, adjusting 
schedules, installing enhanced fire protection or security systems and 
the training of the facility staff in security and hazard mitigation.

Response
    The LSI program collaborates with emergency public safety and 
security responders, venue operations and security partners to reduce 
the impact and consequences of an incident either terrorist, natural or 
an all-hazards-type event by discussing and exercising their safety and 
security plans for mass care and evacuations. The process works to 
build continuity among venues and first responders to assist in 
providing security support to other response operations and properties 
and sustaining operations from response to recovery. This inclusive 
program requires the coordination among officials from law enforcement, 
fire, and emergency medical services (EMS).

Recovery
    This part of the LSI program is designed to assist large-scale mass 
gathering venues with information on structural damage assessments, 
restoration of lifelines and continuity of business and economic and 
community recovery to return the large-scale mass gathering facilities 
to full operation. It is important to note here the significance both 
to the venue recovery and employee's recovery after an incident. The 
return of patrons to these venues is vital to the economic sustainment 
and growth of the community and Nation. By discussing plans and 
procedures both as a private partner and local community, we show the 
importance of establishing the recovery process for venues and patrons 
to return to the venue with minimal delay or concern.

                          FUTURE GOALS OF LSI

    California LSI is working with the following organizations, 
stadiums and mass gathering venues to introduce them to the LSI program 
and series to them in the hopes of developing a standardization of 
preparedness, response and recovery to large-scale mass gathering sites 
in California and the Nation.
  <bullet> College and University Stadiums
  <bullet> Major Awards Ceremonies and Conventions Gatherings (The 
        Oscars, The Tonis)
  <bullet> Major Sports Television Networks
  <bullet> Chaplin and Community Services

                    COLLEGE AND UNIVERSITY STADIUMS

    I see many ways to expand into the collegiate level mass 
gatherings. Most college or university venues are private or publicly 
owned and operated, which can pose problems with funding and training 
of venue security. Many of these venues require the assistance of local 
law enforcement, fire and emergency management services, which can 
place a strain on the finances and staffing of the locals. Frequently, 
the collegiate venues use student services to augment security and to 
help with the basic needs of the venue. This is a good way to involve 
students and staff, but with that type of service, training becomes one 
of the biggest concerns.
    Training and equipment for these venues can strain the resources of 
the colleges and universities that operate them. While training can be 
provided by local agencies, funding is often a problem. Many of the 
universities have working police officers, which is beneficial in the 
development of plans and procedures; however, those universities who do 
not employ their own law enforcement professionals must create plans 
and procedures without first responder expertise.
    The LSI program works with these colleges and universities to help 
them through the plan development process and networking with locals to 
help solves problems or close issues while planning for events on their 
campuses. One of the major strengths I see from working with these 
universities is the relationships they developed with their local first 
responders. They also work on strategic planning and crisis 
communication plans with local first responders and have memorandums of 
understanding (MOU) for response and assistance at the venue regarding 
incidents.
    I have also seen some areas for improvement during my visits to 
campuses. The development of evacuation plans and training of those 
plans needs to occur more often. Facility staff and management need to 
ensure information sharing between departments on campus; and messaging 
internally in facilities with staff, families and students for family 
reunification is very important.
    In working with some of the colleges and universities in 
California, I have been given many examples of what they need to 
overcome some of the areas discussed above. Here are some of the 
concerns and questions facing college campuses with large-scale mass 
gatherings:
  <bullet> Communication process--lines of responsibility during an 
        incident;
  <bullet> Development of evacuation plans for different buildings;
  <bullet> Consistent training and exercising should be a priority;
  <bullet> Safety and security equipment resources for normal 
        operations;
  <bullet> Communication between various campus groups during events or 
        about events;
  <bullet> Identification of mass casualty incidents during an event;
  <bullet> Incident Command and Unified Command training;
  <bullet> Recovery and remediation needed to restore patrons' faith.

                    MAJOR SPORT TELEVISION NETWORKS

    Create a seminar or workshop, as a part of the LSI program, for the 
major sport networks to raise situational awareness of safety and 
security issues at venues among media personnel. This exercise series 
would provide reporters an opportunity to learn about crisis 
communication and how their roles could change once an incident occurs. 
The seminar's intent is to raise awareness within the sports-casting 
community about how to react to a catastrophic incident, how to 
transition from a sportscaster role into more of a newscaster role or 
even function as a Public Information Officer (PIO) or Joint 
Information Officer (JIC) within the Incident Command Structure (ICS) 
structure during and incident. Perhaps teach the staff of the networks 
how to integrate with the venue security and operational staff to 
increase the overall understanding of incident response and crisis 
communication.

                     CHAPLIN AND COMMUNITY SERVICES

    The LSI program would assist mass gathering venues and community 
first responders to create a network or system of chaplains or 
community volunteers for each venue, whether it is a professional sport 
stadium, public gathering venue or collegiate facility to respond to 
the emotional and reunification needs of the people, both spectators 
and first responders, involved in an incident. Within this network a 
phone list (call down system) would be developed to go into effect in 
the event of an incident. One person would initiate the phone tree to 
bring in local law and fire chaplains to assist with recovery, 
reunification and other volunteer functions as needed. A number would 
be provided to the venue Incident Commander to activate this network of 
agency and community chaplains. Eventually there would be a Nation-wide 
database of chaplains who could be brought into a facility in a time of 
need. These chaplains could be recruited through local first responder 
agencies as well as through local, State and national volunteer 
organizations.

           MAJOR AWARDS CEREMONIES AND CONVENTION GATHERINGS

    The LSI program would utilize the same exercise series: seminar, 
workshop and table top exercise with these mass gathering sites to 
increase awareness among the venue security and first responder 
communities regarding major awards and convention gatherings. The 
exercise process would develop strategies and procedures to meet 
protection, response and recovery goals during these events. It would 
also work with event staff to better understand the need for evacuation 
and sheltering plans and protocols during the planning process. With 
the cooperation of site security and local first responders, the venues 
would be better prepared for a terrorist attack or an all hazard and/or 
natural incident.

                  BEYOND THE LSI PROGRAM IN CALIFORNIA

    The LSI Program is one of many pieces of California's effort to 
protect its citizens from hazards and improve our ability to respond to 
and recover from them. Each year, California hosts a series of 
Functional and Full Scale Exercises that are designed to assess the 
ability of California to respond to and recover from any incident. The 
venues and public safety agencies that participate in the LSI program 
are integrated into the State-wide exercise planning cycles to allow 
them to fully assess their strengths and identify areas for improvement 
during the annual Golden Guardian Exercise.
    In closing, California and the Large Stadium Initiative is 
committed to keeping all large-scale mass gatherings both of national 
significance and non-national significance protected by collaborating 
with local, State and Federal partners in a post-9/11 world. The CA-LSI 
program is working with and developing new state-of-the-art ideas to 
design strategies, following DHS/OHS and HSEEP guidelines for safety 
and security at mass gathering sites, to better prepare all the 
stakeholders in spectator and venues safety and security during mass 
gathering large-scale venues, natural disasters, and all hazard 
incidents.
    Again, thank you for this opportunity to be here today. I will be 
happy to take your questions.
   OHSTED: Office of Homeland Security Training and Exercise Division

                        LARGE STADIUM INITIATIVE

    The State of California Office of Homeland Security Exercise Branch 
(OHSEB) conducts a series of exercises for Large Stadiums and Mass 
Gathering sites, which includes--a seminar, workshop, and tabletop 
exercises (TTXs)--during a calendar year in support of the California 
Large Stadium Initiative (CA-LSI).

                               OBJECTIVES

    The CA-LSI program explores commonalities of large stadium/venue 
Homeland Security preparedness issues and assists in developing 
strategies for enhancing prevention, response, and recovery 
capabilities in an open, stress-free environment.
    The Large Stadium Initiative is based on the premise a majority of 
stadiums are owned by municipal or State governments, and therefore 
security varies from facility to facility. Managers rely on a 
combination of private security companies, local police, and their own 
employees to protect their facilities. Even at a single facility, 
security weaknesses, strengths, the quality of supervisory personnel 
and operational practices can vary from event to event. Consequently, a 
critical step in establishing a solid infrastructure protection 
standard for the stadium industry is to establish a high level of 
security practices in stadiums across the country regardless of the 
size of building or the type of event.
    With this in mind, the Large Stadium Initiative partners are 
provided with customized training which focuses on venue roles and 
responsibilities, lessons learned and mass-care and shelter issues from 
previous disasters and crisis communication during incidents of 
national significance.

                           MISSION STATEMENT

    Provide to large stadium owners and stakeholders in California a 
stair-stepped approach to enhancing Homeland Security preparedness by 
using Best Practices, Exemplars, the Infrastructure Security Plans, 
Shared Discoveries, and Exercises.

                                  GOAL

    The State of California Office of Homeland Security Exercise Branch 
conducts a series of exercises for Large Stadiums and Mass Gathering 
sites, which includes: a seminar, workshop and table top exercises 
during a calendar year in support of the California Large Stadium 
Initiative (CA-LSI).

                            ACCOMPLISHMENTS

CA-LSI assists large stadiums/venues:
  <bullet> Developing strategies for enhancing prevention, response and 
        recovery capabilities;
  <bullet> Establishing a high level of security practices in stadiums 
        across the country regardless of building size or event type.
CA-LSI partners are provided with customized training:
  <bullet> Venue roles and responsibilities;
  <bullet> Lessons Learned;
  <bullet> Mass Care and Shelter issues from previous disasters;
  <bullet> Crisis Communication during incidents of national 
        significance.
CA-LSI provides stakeholders in California a stair-stepped approach to 
        enhancing Homeland Security preparedness using:
  <bullet> Best Practices;
  <bullet> Exemplars;
  <bullet> Infrastructure Security Plans;
  <bullet> Shared Discoveries;
  <bullet> Exercises.
CA-LSI is a focus of California's Golden Guardian 2007 Full-Scale 
        Exercise with events in the Southern, Inland and Coastal 
        Regions.

                              FUTURE PLANS

  <bullet> Racetracks and Speedways.
  <bullet> Professional Outdoor Sporting Venues.

    Chairman Thompson. Thank you, Sergeant.
    We will now hear from Mr. Reynolds for 5 minutes.

 STATEMENT OF DOUGLAS REYNOLDS, DIRECTOR OF SECURITY, MALL OF 
                AMERICA, BLOOMINGTON, MINNESOTA

    Mr. Reynolds. Good afternoon, Mr. Chairman, Members of the 
committee. My name is Doug Reynolds. I am the director of 
security for Mall of America, located in Bloomington, 
Minnesota. It is an honor to be here today to acquaint you with 
the security program of Mall of America and to share our 
challenges for the future.
    For those of you who have never visited Mall of America, it 
is important to understand this is much more than another 
shopping center in fly-over country. In fact, Mall of America 
is the Nation's largest retail and entertainment complex. It is 
two to three times as large as the typical, super-regional 
shopping malls found on either coast. Our building is 4.2 
million square feet, large enough to fit seven Yankee stadiums. 
It includes a 7-acre indoor amusement park. It is home to more 
than 520 stores and 50 restaurants. It is open to the public.
    Mall of America is one of the top tourist destinations in 
the United States. In fact, we have more than 42 million visits 
every year, which is more than the combined populations of 
North Dakota, South Dakota, Iowa, Montana, Wyoming and all of 
Canada.
    On any given day, there are well over 100,000 people----
    [Laughter.]
    Mr. Reynolds. Yeah, pretty big.
    On any given day, there are well over 100,000 people in 
Mall of America, making it the third-largest city in the State 
of Minnesota. Those numbers increase dramatically during 
holiday and summer seasons. Mall of America employs more than 
13,000 people and has an annual economic impact of nearly $2 
billion for the State of Minnesota.
    Mall of America hosts more than 350 events every year. Each 
event is free and open to the public, which can pose some 
unique security challenges. These events may attract from a few 
dozen to more than 50,000 participants. Given the sheer number 
of visitors to the Mall of America and our status as a symbol 
of consumerism and capitalism, security remains a top priority 
for us.
    Unlike a typical shopping mall, our security department has 
approximately 100 people, and we run our operation 24 hours a 
day, every day of the year. We work closely with the local 
police department, as well as other local, State and Federal 
authorities, for the protection of our regular visitors, 
celebrities and VIPs.
    We have been able to institute many programs, procedures 
and policies that help ensure the safety of our guests, 
employees and facilities. Some of the programs that are unique 
to the Mall of America include extensive ongoing training. Our 
security officers go through 240 hours of initial training and 
50 hours of recertification training every year, including such 
things as effective communication, first aid, defensive 
tactics, verbal judo, crisis intervention, terrorism awareness, 
and rapid response.
    That is more training than many municipal police 
departments require.
    We also have two highly trained canine explosion detection 
units that patrol public and non-public areas of the Mall. In 
addition to that, we cross-train with canine units from the 
adjacent 11 counties to maintain our proficiency.
    We have recently implemented two separate ion detection 
systems that can be used to detect explosive residue as well as 
chemical agents. The stationery unit is used to check all 
delivery vehicles that enter our secure loading docks, and the 
portable unit can be used throughout the Mall.
    Most importantly, we have created our own counterterrorism 
unit. We call it the risk assessment and mitigation unit. It 
specializes in behavior profiling. Our RAM unit, or Risk 
Assessment and Mitigation unit, is based on a technique that 
has been perfected over the years in Israel. In fact, leaders 
of our unit received training in Israel at our expense to help 
us develop a special program.
    These officers look for intent, rather than means. The 
objective is to focus on suspicious indicators in three 
categories: people, vehicles and unattended items like 
backpacks, shopping bags, suitcases. Our unit has eight full-
time equivalent positions and is staffed every day of the year.
    External connections have also helped us strengthen our 
security program due to strong support from other agencies. We 
have been able to establish a strong working relationship with 
our local contact with the Department of Homeland Security, 
Glenn Sanders. He has been helpful with sharing relevant 
information, providing access to needed resources and just as a 
voice of reason or a sounding board to make sure our decisions 
are on track with the big picture.
    In 2007, I was granted a seat on the Joint Terrorism Task 
Force Executive Board through the FBI. This was made possible 
when they activated my security clearance. This has proven to 
be an invaluable asset to Mall of America and our security 
program. However, I would like to note that it took more than 7 
years for us to forge these relationships and to gain this 
limited access. We had to be persistent, diligent, methodical 
in order to gain access; and this really is just the beginning.
    As a testament to our effectiveness, we are frequently 
asked to share our expertise and knowledge with other large 
venues and groups across the globe. Whenever time and resources 
permit, we are more than happy to share with others.
    For example, we have worked with the Canary Wharf financial 
and retail complex in London, the world-famous Mayo Clinic and 
a Canadian retail development company, helping each structure a 
strong security program.
    With growing concerns over biological, chemical, explosive 
and firearm threats, we are taking steps to remain effective 
leaders in the private industry. However, in order to continue 
to succeed, we need timely, relevant information from proper 
agencies, insight into new trends or issues and additional. 
Access to training opportunities for our officers is critical 
to the continued success of our programs.
    Although we are a private entity, we are also a national 
icon. If a major terrorist incident were to occur at Mall of 
America, the ramifications to the retail industry and other 
malls throughout the country would be devastating. Our goal is 
to prevent that from ever happening.
    Mr. Chairman, Members of the committee, thank you for the 
opportunity to testify and for your continued leadership on the 
issue of security in public venues.
    Chairman Thompson. I thank all our witnesses on this panel 
for their excellent testimony and your excellent testimony. I 
will leave it at that.
    [The statement of Mr. Reynolds follows:]

                 Prepared Statement of Douglas Reynolds

    Honorable Chair and Members of the committee, this testimony is 
submitted on behalf of Mall of America, the Nation's largest retail and 
entertainment complex located in Bloomington, Minn. It is an honor to 
be asked to acquaint this committee with the security program in place 
at Mall of America; and to share our challenges for the future.

                           SUMMARY STATEMENT

    As a major tourist attraction--and a national symbol of consumerism 
and capitalism--Mall of America (MOA) faces security challenges and 
opportunities that are unique within the industry. Mall of America 
remains committed to working closely with local, State and Federal 
agencies to ensure the safety and security of our guests, employees and 
facilities. We are also committed to sharing our expertise with other 
entities, and continued growth and vigilance of our security program.

       TESTIMONY FOR NON-NATIONAL SPECIAL SECURITY EVENTS HEARING

    For those Members of the committee who have never visited Mall of 
America, it is important to understand that MOA is much more than 
another shopping center in fly-over country located somewhere in the 
Midwest. In fact, Mall of America is the Nation's largest retail and 
entertainment complex.
    MOA is two to three times as large as the typical super-regional 
shopping malls found on either coast. Our building is 4.5 million 
square feet, which is large enough to fit seven Yankee Stadiums, 32 
Boeing 747's or 258 Statues of Liberty. MOA also includes a 7-acre 
indoor amusement park; a 1.2-million-gallon aquarium; is home to more 
than 520 stores and 50 restaurants; and is open to and easily accessed 
by the public.
    Mall of America is one of the top tourist destinations in the 
United States. We have more than 42 million visits every year--which is 
more than the combined populations of North Dakota, South Dakota, Iowa, 
Montana, Wyoming and all of Canada. In fact, on any given day there are 
well over 100,000 people in Mall of America, making it the third-
largest city in the State of Minnesota. Those numbers increase 
dramatically during holiday and summer seasons.
    Mall of America employs more than 13,000 people and has an annual 
economic impact of nearly $2 billion on the State of Minnesota. We host 
more than 350 events every year. Each event is free and open to the 
public which can pose unique security challenges. These events may 
attract from a few dozen to more than 50,000 participants.
    Given the sheer number of visitors to Mall of America--and our 
status as a symbol of consumerism and capitalism--security remains a 
top priority for us.
    Unlike a typical shopping mall, our security department has 
approximately 100 officers, and we run our operation 24 hours a day, 
every day of the year. We work closely with the Bloomington Police 
Department as well as other local, county, State and Federal 
authorities for the protection of our regular visitors, celebrities and 
VIP's.
    We have been able to institute many security programs, procedures 
and policies over the years that help ensure the safety of our guests, 
employees and facilities. Some of the programs that are unique to MOA 
include:
  <bullet> Parental Escort Policy. We have been a leader in the Nation 
        by instituting a policy that helps redirect responsibility for 
        kids back onto parents. This policy has been a model throughout 
        the Nation and requires children under the age of 16 be 
        accompanied by parents or adults age 21 or older on Friday and 
        Saturday evenings. In fact, we receive calls from other malls, 
        businesses and reporters almost every week to learn about our 
        program.
  <bullet> Extensive on-going training. Our security officers go 
        through 240 hours of initial training and 50 hours of 
        recertification training every year (including effective 
        communications, first aid, verbal judo, crisis intervention, 
        terrorism awareness and rapid response). That is more training 
        than some municipal police departments require.
  <bullet> We have two highly trained canine explosive protection units 
        that patrol public and non-public areas of the mall. We also 
        cross-train with canine units from the 11-county metro area.
  <bullet> We have recently implemented two separate Ion Detection 
        Systems (one stationary and one portable) that can be used to 
        detect for explosive residue as well as chemical agents. The 
        stationary unit is used to check all delivery vehicles that 
        enter our secured loading docks, and the portable unit can be 
        used throughout the mall.
  <bullet> Most importantly, we have created our own counter-terrorism 
        unit--our RAM Unit--that specializes in behavior profiling. Our 
        RAM Unit is based on a technique that has been perfected over 
        the years in Israel. In fact, leaders of our unit received 
        training in Israel--at our expense--to help us develop this 
        special program. These officers look for intent rather than 
        means. The objective is to focus on suspicious indicators in 
        three categories: people, vehicles and unattended items like 
        backpacks or shopping bags. Our unit has 8 Full Time Equivalent 
        positions and is staffed every day of the year.
    External connections have also helped us strengthen our security 
program due to strong support from other agencies.
  <bullet> We have been able to establish a strong working relationship 
        with our local contact with the Department of Homeland 
        Security, Glen Sanders. He has been helpful with sharing 
        relevant information, providing access to needed resources and 
        just as a voice of reason or sounding board to make sure our 
        decisions are on track with the big picture.
  <bullet> In 2007 I was granted a seat on the Joint Terrorism Task 
        Force Executive Board through the FBI. This was made possible 
        when they activated my security clearance. This has proven to 
        be an invaluable asset to Mall of America and our security 
        program.
    However, I would like to note that it took more than 7 years for us 
to forge these strategic partnerships with the Joint Terrorism Task 
Force and the Department of Homeland Security, and to gain this limited 
access. Over the years we had to be persistent, diligent and methodical 
in order to gain access. And this really is just the beginning.
    A good example of some of the challenges we face is that of the 
MJAC. Mall of America was the No. 1 source of actionable intelligence 
in the State of Minnesota to the Minnesota Joint Analysis Center, 
supplying more intelligence than any other single entity. 
Unfortunately, we were pulled off of this system of information 
sharing. It is actions such as this that make our job of securing a top 
national tourist destination much more difficult and challenging.
    As a testament to our effectiveness, we are frequently asked to 
share our expertise and knowledge with other large venues and groups 
across the globe. Whenever time and resources permit, we are more than 
happy to share with others. For example, we have worked with the Canary 
Wharf financial and retail complex in London, the world-famous Mayo 
Clinic and a Canadian retail development company; helping each 
structure a strong security program.
    The success of Mall of America's security program has been the 
subject of many news stories and reports including in The New York 
Times, Boston Globe, Inside Edition, Nightline, The Today Show, Good 
Morning America, The Travel Channel, Fox National News, CNN, Wall 
Street Journal and The Washington Post.
    With growing concerns over biological, chemical, explosive and 
shooting threats we are taking steps to remain effective leaders in the 
private industry. However, in order to continue to succeed, we need 
timely, relevant information from proper agencies, insight into new 
trends or issues. Additional access to training opportunities for our 
officers would be quite helpful.
    In short, here's what we need to remain successful:
  <bullet> Access to real time, relevant information;
  <bullet> Additional training opportunities;
  <bullet> Resources to strengthen our security program.
    Although we are a private entity--we are also a national icon. If a 
major terrorist incident were to occur at Mall of America, the 
ramifications to the retail industry and other malls throughout the 
country would be quite severe. Our goal is to work hard to prevent that 
from ever happening.
    Mr. Chairman and Members of the committee, thank you for this 
opportunity to testify and for your continued leadership on the issue 
of security in public venues.

    Chairman Thompson. Dr. Blackwell, first of all, let me 
thank you for the help you have given in the past in addressing 
natural disasters not just in the State of North Carolina but 
my home State of Mississippi as well, as well as Indiana.
    But I am interested in your notion of sustainability for 
your own local unit and how you see the Federal Government 
helping with that. Also the notion of mutual aid you talked 
about and how we can somehow put that in some structure that 
people can just plug into, rather than people coming together 
just because they have good will.
    Dr. Blackwell. First, Mr. Chair, let me say that I can 
think of no better place to initiate our project than Waveland 
and Bay St. Louis. The people there were grateful, they were a 
pleasure to help, and it was a great experience that will long 
live with all of us for the rest of our lives.
    As far as sustainment goes, these programs are expensive. 
When a MED-1 unit is sitting on the ground not deploying, there 
is a cost for that. When MED-1 goes out to a venue to provide 
mass gathering support, to provide medical care in any mass 
gathering venue or strategic event, there is a cost for that. 
For those two costs, our hospital is absorbing those costs 
right now.
    Carolinas Medical Center is a Level 1 trauma center, sees 
the need for that, supports the initiative but is providing the 
funds for the sustainment dollars. When there is a deployment, 
obviously, the Federal Government steps in, be it HHS or FEMA 
or whatever. With our three deployments, we have been under a 
Federal contract. So the Federal Government does step up. But 
to get that unit prepared and ready to go and on the ready, 
there is a cost for that readiness; and no one is picking up 
the tab for that. So sustainment dollars, again, are equally 
important through the Department of Homeland Security to 
support these initiatives to keep them functional and 
operational.
    Regarding getting out the door, it was a real chore for us. 
It took 4 days before we could deploy before moving to the Gulf 
Coast. We were ready to deploy. Our units were packed. We were 
staged. We had units from physicians, nurses and allied health 
personnel, 22 vehicles, 100 staff ready to deploy to the Gulf 
Coast; and it took 4 days before the agreements could be 
mustered to get us out the door.
    Attorneys from both sides were settling contracts. They 
were disputing contracts, and we were ready to go see patients. 
They needed help in the Gulf Coast. We wanted to go. We were 
ready to go. But we had to wait until those contracts were 
signed.
    There is a process in place called the Emergency Management 
Assistance Compact, the EMAC agreement. All 50 States are part 
of that today. But to get a streamlined approach to this, I 
would encourage Congress to really take a critical look at that 
EMAC agreement and see if there are ways--when people need 
help, they need help. Attorneys don't need to be arguing over 
contracts for that.
    Chairman Thompson. Well, and as you know we held some 
oversight hearings on some of those issues. We have heard 
stories of the Royal Canadian Mounted Police offering help; 
and, after about 4 days, they just called Continental Airlines 
from Canada, flew to Houston, rented vehicles, and drove into 
Louisiana. There were a number of stories.
    I think it is incumbent on all of us to fix the mutual aid 
situation so it is seamless. Now we put some language in the 
reorganization of FEMA to cut down on a lot of red tape in 
times of natural disasters. Our national response plan 
basically provided for a seamless approach to that process. But 
we do have to fix it, and your comments won't fall on deaf ears 
because we know what you are trying to do.
    Mr. Reynolds, you talked about a 7-year effort to get into 
the JTTF program. With 100,000 people on any given day in 
operation, that is, in my mind, a significant venue of a 
gathering. What was their reluctance to include the Mall of 
America into this Joint Terrorism Task Force?
    Mr. Reynolds. Mr. Thompson, I am not 100 percent certain of 
where that reluctance came from. I do know that when a new ASAC 
arrived for the area, we gave him a tour of our facility, and 
he understood what we were doing, saw it as cutting edge and 
said, I will get you access to the JTTF Executive Board. I had 
replied, with all due respect, I have heard that before, and it 
hasn't happened. However, he was true to his word, and he did 
speed the process up and get it through.
    I know in the past when we had inquired about access--and I 
had an active Top Secret SCI clearance from the military they 
said, yes, I understand that is a military clearance. It is not 
any good to, you know, the JTTF board. I found it frustrating, 
especially when it was the same paperwork I filled out to get 
the access that he ended up giving me, eventually.
    Chairman Thompson. So, since your inclusion, you feel that 
you are a full partner in the effort?
    Mr. Reynolds. Absolutely. We had talked about--we have 
people out there looking for what we call suspicious 
indicators. We need real-time intelligence to tell our people 
what it is, what the trends are, what the bad things are they 
should be looking for. I do feel we are a great contributor. In 
2007, we were the No. 1 source of actionable intelligence for 
the Minnesota Joint Analysis Center; and that is a private 
entity.
    Chairman Thompson. I guess one of the other questions is, 
Admiral Rufe talked about having to submit paperwork annually 
for every event. Now, as a private entity, are you required to 
submit any paperwork showing how many people come into the Mall 
every day? Or are you exempt from that?
    Mr. Reynolds. That is one of the benefits of sitting on the 
JTTF board. We share that information with others, what events 
we have coming up, that type of thing. We have had assessments 
done by many different agencies that come in and look at our 
facility. Are we required to submit that paperwork? No.
    Chairman Thompson. But they are aware of what is going on?
    Mr. Reynolds. Correct. That is one of the great things, 
again, about being on that board, is just being able to 
exchange information openly with people, build those contacts.
    Chairman Thompson. Okay. Yield to the gentleman from 
California for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I would like to echo your words of compliment to the three 
that are testifying here. I would hope that more members of the 
public would have a chance to be exposed to this kind of 
testimony to realize how much work has gone into protecting our 
Nation on this level since 9/11; and I think we are far better 
prepared than we were before 9/11, although we still have much 
to do.
    Mr. Reynolds I want to congratulate you. Without feigning 
an accent, you managed to sound like a Texan in the beginning 
of your testimony. Everything is the biggest and the best and 
the largest. I haven't heard that since I sat down with my 
colleagues from Texas.
    Mr. Reynolds. Thanks y'all.
    Mr. Lungren. I appreciate that.
    Dr. Blackwell, one of the concerns I have is, in terms of 
responding to a particular incident, the surge that we need to 
do that, there has always been the question of adequate medical 
personnel, and particularly nurses. I just know in my State we 
have a lot of nurses well-trained who are retired now--and I am 
not talking about 80, 90 years of age. I am talking about 
retired, raising families, doing other things. But certainly 
still sharp, still capable. Is there any kind of program you 
have in your State or can you visualize a program in which we 
could create a reserve of nurses as something like a military 
reserve so that, when we did need that, that they would have 
adequate training to sort of keep their skills high in order to 
be able to assist when the surge is necessary?
    Dr. Blackwell. Yes, sir. There is a program that exists 
today. It is the Medical Reserve Corps. It is active in all 50 
States that I know of. It is very active in North Carolina. We 
have a central repository of data where any healthcare 
provider--I agree with you. Nurses--I have run two plane crash 
disasters in Charlotte; and I can tell you, the nurses are the 
ones who made it happen. They are the ones that really get the 
emergency department operational and get patients cared for. 
The physicians do their work, but the nurses orchestrate it.
    It is the same on our MED-1 unit. We are always looking for 
nursing staff. Seventy percent of our staff are nurses on our 
MED-1 hospital.
    But there is a medical reserve component that private 
citizens can sign up for, and it is a repository for their 
credentials to ensure that they have active license with the 
State Board of Nursing or the State Medical Boards, whatever, 
depending on who is signing up. We do have that physician----
    Mr. Lungren. Is there a specific program which allows them 
to have training dedicated to the Medical Reserve Corps to 
bring them up? Or is it a repository of information which tries 
to coordinate, as opposed to a specific program that we need to 
focus on these folks who aren't going to be working during the 
year but need to bring their credentials and their training up 
to snuff?
    Dr. Blackwell. There is not a centralized training that I 
am aware of. That is up to each individual State to put that in 
place. Our State office of EMS does for our State, and we do 
have those programs in place. But that is State-dependent. I 
don't believe that there are Federal programs out there.
    Mr. Lungren. Thank you.
    Sergeant, again thank you for the work that you are doing 
and how much you have advanced this effort in our home State of 
California.
    Let me ask you particularly about the college setting. A 
lot of college campuses, if they have their own facility, they 
rely on volunteers or they rely oftentimes on a core of retired 
folks who are ushers. I mean, my alma mater, Notre Dame, they 
have got some great ushers, but they were there when I was in 
college. They do a great job in terms of getting people to 
their seats----
    Football, we play a little bit there. We are going to even 
play more this year. In fact, we have got some nice trips to 
Mississippi. But, anyway----
    They do a very, very good job of creating an environment of 
welcome and showing people to their seats. But, in many cases, 
they would not be the most physically fit individuals to assist 
in a disaster where you may need some additional hands. How do 
you deal with that in terms of working with the colleges and 
universities?
    Sergeant McCartney. Congressman, I appreciate the question.
    The important thing to remember, too, with colleges and 
universities that I enjoy or that the Office of Homeland 
Security enjoys in the LSI program is we go in and work with 
first responders, the venues, the school, the administrators, 
the staff and try to help them better understand programs or 
games or facilities, basketball, baseball, football, 
graduation. Six thousand people show up to a graduation at a 
facility in UOP, as you know, in Stockton, and with that many 
people they don't have--you know, there is an evacuation plan 
that has to go into effect.
    So the training of staff, the training of students is a 
huge component of that because they use students to augment 
security at these venues.
    Mr. Lungren. That is a question that I would run into. You 
have a large number of students usually at these venues----
    Sergeant McCartney. Right.
    Mr. Lungren [presiding]. Many of them sober--and capable of 
working out. I am just not aware of a program which tries to 
enlist the student body at large, not to be ushers, not to be 
official volunteers but to be able to respond if there were an 
emergency so that they would know their particular assembly 
points in the stadium to assist. Is that kind of thinking going 
on? Are you doing that sort of thing?
    Sergeant McCartney. Yes. Through the Large Stadium 
Initiative, what we do when we go to those schools is we talk 
about that exactly. During their evacuation plans, one of the 
things is they can set up an evacuation plan on paper. But if 
they don't train to that and if they don't exercise to that, 
then it does nobody any good.
    One of the other things we noticed is that what if all the 
lights go out in the basketball arena? It is pitch black. You 
can't see anything. So flashlights was a big proponent, because 
they didn't have flashlights.
    So through the LSI program, through the first responders 
and the local operational areas in California and the different 
regions throughout California, we are able to help with some 
funds through grants or other funds through the after-action 
reporting and the improvement planning to get them to those 
things, flashlights, basic necessity.
    But, again, if this building right now was to--lights to go 
out, minus the light from outside, it would be very dark in 
here; and flashlights for those that are doing security and 
those trying to evacuate people is very important. So we rely 
on the schools and the first responders really to help in the 
training; and through the facilitation of the program, we kind 
of develop policies, procedures and new evacuation plans to 
assist these universities.
    Mr. Lungren. May I ask one more?
    Chairman Thompson. Sure.
    Mr. Lungren. Mr. Reynolds, I am going to be attending a 
convention up in your neck of the woods later this summer. I 
expect that my wife and I and others may visit your mall. I 
presume you are making special efforts for that while you are 
up there. What kind of pressure does that put on the mall when 
you are going to have a national convention in the area where 
you probably would expect more than the 100,000 a day?
    Mr. Reynolds. Certainly we will adjust our staffing levels. 
We are already training up for that. The RNC crew has put me on 
the Crisis Management subcommittee, which helps, again, develop 
what the big picture is, gets us involved in that, who we can 
report to if we see different incidents, what we should be 
watching for, that type of thing.
    Mr. Lungren. Have you noticed a ramp-up in terms of the 
participation you get from DHS and the Federal establishment 
with respect to that versus your everyday large operation and 
relationship to the Federal Government?
    Mr. Reynolds. Two weeks ago, I was invited to or just 
completed some training with the FBI directly relevant to the 
RNC coming up. Prior to that--there is a lot with the local law 
enforcement. The Capitol Police have been out to visit us. I 
had a chance to visit with them yesterday as well.
    Yes, there are a lot of entities that are regularly calling 
and stop out for tours, visits, want to know what our plan is, 
anticipate their people will be coming out to our area and want 
to know what kind of facilities we have and what kind of 
security arrangements we have.
    Mr. Lungren. Well, I look forward to seeing you there.
    Mr. Reynolds. We look forward to seeing your billfold, sir.
    Chairman Thompson. We are sure you will invest in the 
economy.
    We will now recognize the gentlelady from the Virgin 
Islands for 5 minutes, Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I just have a 
few questions.
    Dr. Blackwell, on MED-1, you have deployed it at several 
places. I have operated under the tents, the ones that you blow 
up after Hurricane Hugo. We were able to do surgery, deliveries 
and do regular medical emergencies there. So one question would 
be, how is MED-1 better than the tents? A couple of ways that 
you could tell us that they are better. Do you feel that MED-1 
units should be used either in whole or in part at mass 
gatherings? Do you think they have a role there? Also, I don't 
know how many there are. Is yours the only one in the country?
    Dr. Blackwell. No, ma'am. Los Angeles County just bought 
the first one after ours.
    Mrs. Christensen. How many do you think we should have? 
What would be--the last question on that would be, what would 
be the optimum number that we should have to be able to have 
enough to be deployed?
    Dr. Blackwell. Yes, ma'am. I have got a bit of an interest 
in MED-1 just because our charge--we received grant funding 
from the Department of Homeland Security to build this as a 
prototype. Our charge was to build something different than a 
tent, and that is something that was aesthetically pleasing. 
You as a physician know that a tent looks like a tent, smells 
like a tent and leaks like a tent.
    Mrs. Christensen. It was not aesthetically pleasing. We did 
what we had to do.
    Dr. Blackwell. Yes, ma'am. It was probably very functional 
at the time. What we did is create an environment that would be 
pleasing to patients, No. 1, that anybody that has just 
suffered a disaster----
    When we rolled into Mississippi, there were 150 refugee 
families living on hot asphalt 7 days after the storm with no 
health care; and so many of these had chronic conditions, as 
you can imagine. When we rolled in and set up, they were in an 
emergency department. It looked like a hospital. It was clean 
like a hospital, and it wasn't a tent.
    No. 1 for the patients, No. 2 for the healthcare providers, 
physicians, nurses, allied help that don't work in those 
austere environments. We want them to feel comfortable, that 
they are not worried about leakage coming down. But, literally, 
after 30 seconds after you are in this, we think that you 
forget that you are in a tractor trailer. It looks like a 
hospital.
    So we think we have accomplished our mission on what 
Homeland Security asked us to do and that was create something 
different and prototype it and see if it is something that can 
be used.
    Which brings us to the next, should it be used in a mass 
gathering venue? I think absolutely. It will raise the level of 
care.
    Most mass--not most but many mass gathering venues, 
depending on the level of care they are providing, might just 
be Band-Aid stations or first aid--Boy Scout first-aid-type 
procedures. What we do at Lowe's Motor Speedway and Bank of 
America, we try very hard to keep people on-site. We don't want 
to separate them from their family or friends because that is a 
repatriation issue. So we provide a higher level of care.
    But using a MED-1 does several things. It raises the level 
of care for patrons that are visiting those. It prepares you 
for a mass gathering event, should a terrorist incident 
actually occur; and it provides training for your staff that 
when the river does rise or when the terrorist incident does 
occur, your staff is ramped up and trained on that unit.
    Do I think they need to be across the United States? Yes, 
ma'am. We have proven it. We think it is what is needed today. 
I would say start in every FEMA region across the United States 
and expand it from there.
    Mrs. Christensen. That is what I was thinking, to the 
regions.
    Sergeant McCartney, could you speak to the impact of 
handling numerous events that are happening at one time across 
the State or a big city? Earlier--I think you were here--the 
New York folks particularly talked about having a number of 
things happening on any given one day in New York City. Can you 
speak to that at all?
    Sergeant McCartney. Yes, ma'am. One of the things that 
California does and through the Large Stadium Initiative--and I 
have to say, the first responders in all the communities in 
California and I am sure across the United States are the real 
doers of all these mass gathering events. What they do 
especially is they work together in a unified and ICS 
structure. That is how they manage those big mass gathering 
events or multiple events within a community.
    One of the ways we recognize that and one of the ways we 
help with that in the Office of Homeland Security is the fact 
that we do a State-wide exercise where we bring all three 
regions together at the same time in different parts of the 
State and say, this just occurred. They, through mutual aid, 
through operational areas, work through up to the State and to 
the Federal, depending on the needs, to manage that type of 
event.
    Last year, in 2007, we did use a large stadium mass 
gathering event which happened in the coastal region on the Bay 
Area, San Jose. It happened in the inland region in the 
Stockton--middle of the country--middle of the State, I should 
say, and then in the southern region down in the Anaheim area 
where all three areas were impacted by mass gathering events 
during a day. Each local first responder had to come in using 
unified command ICS structure and how they work through a 
problem, along with emergency medical systems, fire, private 
partners and dealt with the catastrophic events. So, through 
the training and exercising, it really works that way.
    Mrs. Christensen. May I ask just a real quick question, Mr. 
Chairman?
    To Mr. Reynolds, in the training that you listed--this is 
just a real brief question--you listed ``verbal judo''. What is 
that?
    Mr. Reynolds. Yes, ma'am. It is sometimes known as tactical 
communication, also. A gentleman named Dr. George Thompson 
wrote a textbook on it. It is used a lot within law 
enforcement. You are probably familiar with it.
    Sergeant McCartney. Very familiar with it.
    Mr. Reynolds. There is a version for teachers, also. It is 
a way of talking to people and de-escalating situations. There 
was a time in our past when we thought that the way to handle 
things was to increase numbers and, you know, force on force 
and that type of thing. That wasn't the solution. The solution 
was to de-escalate it and to prevent it from getting worse. 
Given the option of talking to somebody into leaving and going 
hands-on with them, I would rather use my brain every time.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I have a couple other questions that I would like to throw 
out.
    Mr. Reynolds, one of the challenges in any kind of 
potential situation is the ability for people to communicate 
with each other. Since you are in a private setting, are you 
allowed to have the ability to communicate with local law 
enforcement on their radio frequencies?
    Mr. Reynolds. That is an excellent question.
    There are a couple different ways to look at that. We do 
have one of the police base radios and one of their handheld 
radios within our dispatch center. Yes, we are. We have direct 
ring-down lines to the local police department that, we pick it 
up, it goes straight to their dispatch. We have unlisted phone 
numbers to their dispatch area. We have a great communication 
center with the local police department.
    Chairman Thompson. So with real-time communication though, 
it is like a relay system or something like that?
    Mr. Reynolds. Absolutely. We pick it up. Their dispatch 
knows it is us on the other end. We know it is them. It is a 
direct call line to them.
    Chairman Thompson. Was that difficult to work out, to get 
the ability to have a radio?
    Mr. Reynolds. No. I started working for Mall of America in 
1996, and we have had it ever since I started, before I 
started. We have continued to make improvements on that along 
the way.
    Chairman Thompson. Sergeant McCartney, while you are 
working with the LSI initiative, have you seen that 
interoperability challenge?
    Sergeant McCartney. It is certain challenges in certain 
areas, depending on interoperability in the local area. But for 
the most part in California that has been the huge component of 
getting ourselves better prepared. Law enforcement, fire, EMS, 
private partners, especially private partners in college 
stadiums which have mostly law enforcement first responder 
assistance during those venues.
    Some colleges in California have police departments that 
are actually the police for that university. Some other 
colleges don't. So in some of the stadiums in some of the other 
areas they used first responders to assist in that. In either/
or, with first responders being there or the private police or 
the police department from the university, they can work 
together. Quite frankly, they are retired from the police 
department in the city is usually how they build the police 
department in the university. So they do work together to make 
sure that if there is a problem anywhere on one of those sites 
that local first responders can talk to each other and talk to 
them to get the best resources in to take care of the problem.
    Chairman Thompson. Thank you.
    Mr. Lungren.
    Mr. Lungren. Following up on that, Mr. Chairman. We haven't 
solved the interoperability problem Nation-wide. We haven't 
solved it here with the Capitol Police, as a matter of fact. We 
are working on that in another committee. But as I understand 
it looking at the technology, we don't have automatically 
compatible systems. There are patches.
    Sergeant McCartney. Correct.
    Mr. Lungren. I have seen the vehicles that can come in. As 
long as you have someone who really knows what they are doing, 
they can patch one through to the other and it almost is 
instantaneous.
    Sergeant McCartney. Right.
    Mr. Lungren. I presume that is part of the efforts that you 
have ongoing?
    Sergeant McCartney. Yes, Congressman. What we do in the 
Sacramento area--I can speak to that in California as much as 
Los Angeles area in the southern region and the Bay Area. There 
are multiple communication vans or vehicles that are out 
traveling through local areas in California. Through those 
vehicles, just like the Congressman stated, a gentleman or 
woman who is very knowledgeable in that activity can go in 
there and I can bring--the three of us could have three 
different radios from three different places, walk into this 
facility, hand them our radios. They get them back and the 
three of us are now best friends because we can all talk.
    I am sure in the Carolinas and I am sure in Minnesota it is 
the same as far as that type of response when it comes to those 
type of vehicles and the knowledge those people have.
    Mr. Lungren. I just want to make sure that as we are moving 
forward to the interoperability solution, which we are not at, 
even this many years after 9/11, we don't forget what I call 
the interim fix, which I call these mobile patch units. I just 
want to make sure that if something comes up in the mean time 
where we decide that there is an interoperability problem 
immediately that we make sure that those kinds of fixes can be 
made and funds can be directed to that. I was just asking those 
of you as experts whether that makes sense. I mean, is that 
technology out there? Are you using it now? Should we make sure 
that that is available as we look to the ultimate solution, the 
better solution where I think we are going to get but it is 
going to be a number of years?
    Sergeant McCartney. I think it is very important very 
quickly to go off of what was talked about in the first panel, 
mutual aid. It is very important to have that connectability 
with those other departments. Because during mutual aid, as we 
all know, we are bringing in resources from faraway places to 
assist us. Fires in California have been astronomical, and we 
require help from other States. So it is nice when we can bring 
those people over and we have that opportunity to communicate 
so we can handle those catastrophic events in California at 
least.
    Mr. Lungren. I was just thinking, Mr. Chairman, you 
mentioned the Canadian Mounted Police coming down and 
assisting.
    Chairman Thompson. Right.
    Mr. Lungren. We wouldn't necessarily have them on the same 
frequency as some of the others. But I know if we have one of 
those vehicles, I know it is a possibility. It is kind of the 
flexibility and agility that we need to build into the system, 
as opposed to rigidity.
    Chairman Thompson. If the gentleman would yield. One of the 
problems with that is how do we plan for the agility? Because 
everybody wants their own piece of equipment. If we have to buy 
mobile command centers for everybody who has a unit to deploy, 
then we won't have many other resources to push toward the 
problem.
    One of the other problems associated with this, too, is our 
vendors have been very strategic in going out and convincing 
some less sophisticated departments that all they need to do is 
buy a new system. Well, that new system is fine for that unit. 
If it is a police system but they can't communicate with the 
fire, you all have stovepiped that communication.
    So you are absolutely correct. The temporary piece is how 
can we patch everyone in with these units. Ultimately, from a 
technology standpoint we just have to be able to move it even 
further. But that has been one of our real, real problems.
    I yield back.
    Mr. Lungren. The other thing is, I have been reading Dwight 
Eisenhower's memoirs from World War II called Crusade in 
Europe; and it is amazing as you pick up insights into 
leadership and so forth.
    One of the things that he points out, and Stephen Ambrose 
writing about World War II did, the success of the American 
Armed Forces was attributable to many things but one of them 
was the creativity of the average GI, the sergeant. They give 
example after example where they did things that weren't 
planned, but they responded.
    I guess if I could just ask one question, my last question 
would be this: How do we ensure that in all the planning that 
you do that we still allow for that creativity, that we still 
allow for someone to figure out the answer to a question that 
you didn't really fully map out beforehand? In other words, are 
we assured that within these plans--all the planning and 
cooperation that we have, that there is enough left there that 
someone with a spark of creativity can respond to a situation 
as opposed to--well, you know, I got the Director from DHS 
which came out to the Office of Homeland Security down to us, 
and we figured out this thing at the Mall of America, and that 
is the way we are going to do it. Is there a way to ensure that 
that maintains itself, that possibility of creative response to 
an unanticipated problem?
    Dr. Blackwell. Congressman, on the medical side of things, 
you raise a great issue. Where would we be if we didn't have 
that? I would simply say, every deployment that we go on, we 
learn something else. The key to our success is after-action 
planning. We debrief on the mission. We spend a lot of time 
around the table and say, what did we do right? What did we do 
wrong? How can we make it better?
    We learned lots of lessons after Katrina, we learned a lot 
of lessons after Mardi Gras, and we utilized those lessons in 
improving our system. The radio communication you just 
mentioned, we realized we were dealing with multiple ambulance 
services coming in, bringing us patients and we had no way to 
communicate with them. Now we have UHF, VHF, 800 megahertz 
radios, and a ham radio and a communications officer that 
travels with us and that mixing box that makes all that happen.
    We have learned those lessons, and we have gotten creative 
every time we deploy. That is what is so vital in all this, and 
that is why I think using our asset for mass gathering venues--
every time you deploy that, you are going to learn something 
else and make your program better.
    Mr. Lungren. Thank you.
    Sergeant McCartney. I think also, in law enforcement, it is 
very much the same way as it is in medical and fire as far as 
creativity. The first-line folks, the folks that are doing the 
job every day have valuable information when it comes to how to 
solve problems and do certain things. Leadership, yes, 
definitely is a process of that. But I think it is the 
leaders--and I can speak for the Sacramento County Sheriff's 
Department in the sense that we allow those people to make 
those creative decisions. We test those things. We exercise; 
and again we also, through after-action reporting and learning, 
we learn new things. When we learn new things, we develop new 
programs, policies, procedures.
    As you know, we have the air show that comes to Sacramento. 
I am the traffic commander for that entire event.
    Mr. Lungren. You have improved.
    Sergeant McCartney. We have improved over the last 2 years.
    Mr. Lungren. I appreciate that. It is not too far from 
where I live. The lines are shorter.
    Sergeant McCartney. We do a lot of creative thinking, 
planning and using our first-line responders to help us make 
those decisions and work with us to find better ways to fix 
whatever the problem may be.
    Mr. Reynolds. Whether you are doing a real scenario or a 
real situation or a training exercise, again, one of the keys 
is to quickly have after-action reports after it. So often when 
people are done with these, they see the situation as being 
done and they want to leave. You have to gather them quickly, 
put pride aside, and if you had some shortfalls, you have got 
to point those out and, again, put pride aside at all levels, 
like you were discussing. It can't just be the command level. 
It has got to be the person on the ground, getting the boots 
muddy, who has got to be able to give you input and what they 
saw going right and what they saw going wrong or else you are 
not going to make a difference, you are not going to improve.
    Mr. Lungren. Thank you very much.
    Thank you, Mr. Chair.
    Chairman Thompson. Thank you, gentlemen, very much for your 
excellent presentations to the committee and again for the 
service all of you do for our country. We appreciate it.
    I think I speak for the entire committee. Our commitment is 
to do all we can to make sure that the planning, the equipment, 
and the resources at the Federal level get pushed down in 
concert with working with State and locals and the private 
sector to see that mass gatherings are as safe as any other 
venue in this country. Thank you again.
    The hearing is adjourned.
    [Whereupon, at 12:41 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Bennie G. Thompson of Mississippi for Colonel 
  Robert B. Stephan, USAF (Ret.), Assistant Secretary, Infrastructure 
Protection, National Protection and Programs Directorate, Department of 
                           Homeland Security

    Question 1. What are the challenges unique to those mass gathering 
events that are not considered National Special Security Events (non-
NSSEs)?
    Answer. Similar to challenges for an NSSE, specific challenges for 
non-NSSEs vary from one event to another. There is no direct Federal 
funding mechanism for non-NSSE mass gathering events. When local event 
sponsors/planners do not have the necessary resources to overcome 
specialized equipment and manpower (security and emergency response) 
challenges, they must first exhaust the mutual assistance agreements 
they share with their neighboring localities. If these agreements are 
implemented and the event planners still face the challenge of 
additional resource shortfalls, they may choose to request Federal 
support as needed to fill a particular gap they have identified, such 
as adequate maritime security or airspace security coverage. Other 
examples could be a need for specialized radiological detection 
equipment or bio sensors beyond their local and neighboring resources 
and capabilities. In such cases, many individual Federal agencies and 
departments that comprise the SEWG may be able to supplement local gaps 
and shortfalls if it is in keeping with their core mission areas and 
responsibilities. Direct requests from the localities is one way to 
determine the level of Federal assistance that may be required; the 
application of SEAR levels to all special events is another (automated) 
way to determine the likely level of Federal assistance that may be 
required.
    Question 2. What additional resources do you think are necessary to 
help secure the venues that host mass gatherings that are not 
considered National Special Security Events (non-NSSEs), from whom, and 
why? What additional contributions are you/Infrastructure Protection 
prepared to make to improve security at these venues?
    Answer. While the responsibility for securing non-NSSE events 
resides primarily with the local authorities, local planners can 
request Federal support from the Federal agencies in their area, 
regardless of the SEAR level of the event. These authorities are 
responsible for developing their own Special Event Plans.
    The coordination conducted on behalf of the SEWG does not provide 
for Federal operational oversight of member organizations, nor does the 
Federal Coordinator have operational oversight of Federal organizations 
during an event. As your question implies, the Office of Infrastructure 
Protection (OIP), other DHS Components and SEWG member agencies are in 
a position to support local planners, if their core mission calls for 
such support.
    Question 3. How can the Department of Homeland Security, State, 
territorial, tribal, and local governments, and the private sector work 
together better to ensure public health, safety, and security for mass 
gatherings that are not considered National Special Security Events 
(non-NSSEs)?
    Answer. The continued participation and engagement of each State 
Homeland Security Advisor and their S/L/T/T planners in the annual DHS 
special event data call is of vital importance to strengthening the 
Federal-State working relationship that can solve resource and 
capability gaps and therefore better ensure the public health, safety, 
and security for mass gatherings of all levels.
    The information from this annual special event data call allows the 
Department to ensure that all of the entered events are accurately 
assessed, rated and communicated to the Federal community for overall 
situational awareness and, when warranted, signal the need for direct 
Federal support to occur. The State Homeland Security Advisors, OPS and 
the SEWG are open to suggestions and feedback from our partner data 
call users to ensure a consistent, reliable and trouble free entry of 
events experience by all of the data call system users. In addition to 
the data call itself, OPS works closely with the DHS Office of 
Intergovernmental Programs to craft special event program messages to 
the Homeland Security Advisors during the year and to communicate 
whenever necessary via written correspondence and by hosting joint 
tele-conference calls with the States.
    Question 4. How do the Operations Coordination Division, Office of 
Infrastructure Protection, Office of Risk Management Analysis, Office 
of Intelligence and Analysis, and the Grants Program Directorate (now 
sitting in FEMA) interact? Short of Secretary Chertoff, who is 
responsible for coordinating the activities of these various entities 
that all have something to do with mass gatherings?
    Answer. The Federal Government coordination mechanism for non-NSSE 
Special Events is the Special Event Working Group. While concentrating 
on SEAR level 1-2 events, the SEWG, which consists of over 50 Federal 
Departments, Agencies and DHS components, is also a mechanism for 
coordinating and interaction on all non-NSSE Special Events. The 
agencies noted above are all members of the SEWG.
    Question 5. We have observed and heard from Federal, State, 
territorial, tribal, local, and private sector personnel that planning 
efforts are often disconnected from other activities (such as training, 
exercises, standard setting, and the identification and communication 
of lessons learned), even within the Department of Homeland Security. 
What is being done, will be done, and/or can be done to better 
integrate these efforts?
    Answer. Following Hurricane Katrina, the President and Congress 
directed DHS to conduct a Nation-wide plan review. The results of that 
review, which were provided to Congress, included a series of 
recommendations to address how planning should be more closely 
synchronized with other elements of the preparedness cycle (e.g. 
training, equipping, evaluating, assessing, and corrective actions). 
Since then, Federal, State, tribal and local governments have made 
significant progress in modernizing emergency planning and ensuring it 
serves as the foundation for preparedness activities. The National 
Response Framework clearly identifies the value of planning in Chapter 
IV. The President issued Annex I (National Planning) HSPD-8 in December 
2007.
    The Integrated Planning System (IPS) will formally establish a 
standard and comprehensive approach to national planning that will 
facilitate the integration of planning efforts across multiple levels 
of government and link planning to other preparedness activities. 
Efforts directed by IPS will provide planning guidance to Federal 
departments and agencies at the national and regional level and examine 
possible approaches for a long-term evolution to a national planning 
system. IPS will also translate policies, strategies, and planning 
guidance into a family of strategic, operational, and tactical plans, 
fostering integration and synchronization with State, local, and tribal 
officials, to include linkages with Comprehensive Preparedness Guide 
efforts.
    The newly updated FEMA Comprehensive Preparedness Guide, CPG 101 (A 
guide for all-hazard emergency operations planning for State, 
territorial, tribal and local governments), provide guidance about 
emergency operations planning to State, local, territorial, and tribal 
governments. The Guide provides emergency managers and other emergency 
services personnel with recommendations on how to address the entire 
planning process, from forming a planning team, through writing and 
maintaining the plan, to executing the plan. It also encourages 
emergency managers to follow a process that addresses all of the 
hazards that threaten their jurisdiction through a suite of plans 
connected to a single, integrated emergency operations plan (EOP). 
Additionally, CPG 101 incorporates concepts that come from disaster 
research and day-to-day experience. The Guide is part of a larger 
series of emergency planning related CPGs published by FEMA. Follow-on 
guides will provide detailed information about planning considerations 
for different response functions and hazards.
    The 2006 Post-Katrina Emergency Management Reform Act (PKEMRA) 
mandated the transfer of certain DHS preparedness functions to FEMA. As 
part of this transition FEMA created the National Preparedness 
Directorate (NPD) with a mission of unifying DHS' preparedness, 
mitigation, response, and recovery missions. Since 2007, NPD has 
overseen the coordination and development of the capabilities and tools 
necessary to prepare for terrorist incidents and natural disasters. NPD 
is working closely with the disaster operations directorate on 
implementation of the IPS and planning integration and synchronization 
with State, territorial, local and tribal governments.
    The IPS and CPG documents are driving the development of planning 
curricula at the Emergency Management Institute (EMI), as well as 
planning instruction for Federal planners. EMI operates within the 
National Integration Center (NIC), which develops, manages, and 
coordinates all homeland security training, external education, 
exercise, and lessons learned programs.
    The FEMA National Exercise Division (NED) supports an all-hazard, 
capabilities-based approach to exercises. Exercises are designed and 
facilitated to address identified needs and underdeveloped capabilities 
at the Federal, State, local, and tribal level of government. Each 
exercise is targeted to a jurisdictions needs or to exercise previously 
untested/under-tested capabilities, including those capabilities that 
address hazards specific to a mass gathering event.
    Through the Regional Exercise Support Program (RESP), the NED has 
delivered or scheduled 72 exercises for State and local communities in 
fiscal year 2008. Of those exercises, the following exercises represent 
a sample of exercises with scenarios related to supporting planning 
relative to a mass gathering event:
  <bullet> Loudoun Speedway (NASCAR).--Facilitated in Loudoun, New 
        Hampshire, this Table Top Exercise (TTX) occurred in March 
        2008. The exercise validated command and control plans for a 
        small town (a population less than 5,000) that has a NASCAR 
        track, which can become overwhelmed on NASCAR weekends. The 
        town depends heavily on State/mutual aid and, because New 
        Hampshire is a strong commonwealth, the State cannot become 
        involved in an emergency event unless requested by local 
        officials.
  <bullet> Martinsville Speedway (NASCAR).--Facilitated in 
        Martinsville, Virginia, this TTX occurred in May 2008 and was 
        the third in a series of building block exercises supported by 
        NED. This exercise is a good example of how to use the building 
        block approach, through workshops and seminars, to develop 
        plans and then validated plans in the TTX. The State and local 
        officials have indicated that they will request a full-scale 
        exercise through RESP in fiscal year 2009.
  <bullet> Olympic Trials Preparation.--Facilitated in Portland, 
        Oregon, this Functional Exercise was held in June 2008 to 
        validate plans and procedures related to the pending Olympic 
        Trials in Oregon.
  <bullet> Baltimore Ravens Stadium (M&T Bank Stadium).--This Full 
        Scale Exercise will be facilitated in Baltimore, Maryland, on 
        August, 2008. The exercise will test evacuation, security, and 
        decontamination plans and procedures. The exercise will utilize 
        approximately 1,000 volunteers for a scenario involving a 
        ``dirty bomb'' inside the stadium.
  <bullet> Presidential Candidate Debate at Hofstra University.--This 
        exercise, scheduled for September, 2008 in New York, will 
        support the local emergency preparedness community with their 
        preparations for the actual debate, scheduled for October 2008.
    Question 6. Committee staff members have visited a number of venues 
that feature mass gatherings that are not declared National Special 
Security Events (non-NSSEs), and have witnessed the presence of FEMA, 
ICE, and other organizations from the Department of Homeland Security. 
Please provide a list of all organizations from the Department of 
Homeland Security that provide support at mass gatherings that are not 
National Special Security Events (non-NSSEs). What is the Department of 
Homeland Security doing to institutionalize such support at these types 
of gatherings?
    Answer. Some DHS organizations that have participated in past SEAR 
Level 1 & 2 special events include the Immigration Customs Enforcement 
Agency, the Federal Emergency Management Agency, the Office of Health 
Affairs, the United States Coast Guard, The United States Secret 
Service and the Transportation and Security Administration among 
others. Local planners are always able to solicit Federal support from 
the local Federal agencies represented in their area, if the local 
planners feel such support is needed, regardless of the SEAR level of 
the event.
    DHS OPS continues to support special events and mass gatherings 
through interagency coordination efforts. Formalized procedures for the 
Special Events Working Group are in development. The formal procedures, 
when completed, will develop processes for SEAR Level 1 & 2 special 
event support to include air space security procedures, joint threat 
assessments, joint risk assessments, Federal Coordinator designations, 
Integrated Federal Support Plans and other inherently Federal roles 
that cover the spectrum of prevention, protection, response and 
recovery activities. A copy of a list of all members of the SEWG is 
attached for your information.*
---------------------------------------------------------------------------
    * See Exhibit 1, Prepared Statement of Vice Admiral Roger T. Rufe, 
Jr., page 18.
---------------------------------------------------------------------------
    Question 7. How have you involved high-level decisionmakers at the 
Federal, State, territorial, tribal, and local levels personally in 
planning efforts? What are you doing to improve the processes by which 
this should occur?
    Answer. From a Federal perspective, the SEWG (for non-NSSE events) 
is the established planning process. All high level decisionmakers in 
the Federal organizations represented on the SEWG endorse these 
planning efforts.
    DHS OPS and the SEWG have made considerable efforts to identify 
special events through the annual special event data call and through 
continued outreach to the Homeland Security Advisors of each State. 
During the annual mass teleconference between DHS OPS and the State 
Homeland Security Advisors there is an open forum to discuss any 
feedback to improve the data call program. Outside of this call, the 
HSAs remain in regular contact with the DHS Office of Intergovernmental 
Programs, a key working partner and member of the SEWG.
    The data call process enables any event considered important enough 
to Federal, State, territorial, tribal, and local planners to be easily 
entered electronically for ultimate evaluation by the SEWG co-chairs 
and member organizations. Electronic submission and tabulation 
eliminates the introduction of favoritism based upon any pre-existing 
relationships between local high level decisionmakers and DHS program 
administrators.
    On-going relationships at the local level between local event 
planners and local Federal field offices enable specific requests for 
assistance to be made to specific Federal organizations at any time in 
keeping with core mission responsibilities in the communities they 
serve.
    Question 8. Mr. Thompson has said that the Department of Homeland 
Security must provide additional guidance to the public and private 
sector about what to do when the National Threat Level changes. What 
are you doing to get guidance out about what mass gathering venues 
should do when the National Threat Level changes--especially at mass 
gatherings that are not National Special Security Events (non-NSSEs)?
    Answer. DHS, in conjunction with the FBI and other affected Federal 
agencies, uses a coordinated notification process when the national 
threat level changes. This process involves notification to appropriate 
Federal, State, territorial, tribal, and local officials, and if 
appropriate, the American public. The guidance is often in the form of 
a national advisory or sector-specific area, so it may not be specific 
or applicable to all individual special event venues in every locality 
Nation-wide.
    The listing of current and upcoming special events is monitored by 
the National Operations Center (NOC) at DHS. Should a change to the 
National Threat Level occur and specifically and disproportionally 
affect a particular State or city, the NOC may contact the State's 
Homeland Security Advisor regarding the event and provide? establish 
mutual? [sic] situational awareness. In addition to the Homeland 
Security Advisor of the affected State/s or areas, other agencies, such 
as the FBI, may engage and collaborate further with local high level 
decisionmakers. Any ultimate determinations about whether an event 
should be canceled or not is made at the local level in tandem with 
event organizers. Local/city managers would engage pre-determined local 
communication mechanisms to announce any changes to the local public 
and/or event attendees.
    Question 9. We applaud the Department's willingness to work with 
the non-Federal Government and private sector to develop planning 
guidance. However, we question the efficiency of the Department's 
processes to do so. For example, evacuation planning guidance has been 
returned by the private sector to the Department six times. What can be 
done to make these processes more efficient?
    Answer. To say that the document was returned to the Department six 
times is misleading and does not properly illustrate the level of 
Federal and private-sector collaboration that was involved in the 
development of the product. The document was developed over a 1-year 
period between the 2007 and 2008 National Association for Stock Car 
Auto Racing (NASCAR) Security Summits.
    From the outset of the project, the release date for the final 
document was set for the January 2008 NASCAR Security Summit. The 
development process included an initial scoping meeting with the NASCAR 
Security Director. Two additional teleconferences were held to finalize 
an initial draft. NASCAR had the opportunity to review this draft 
document before and after the inaugural ``dry run'' visit to Lowes 
Motor Speedway in Concord, NC, during the Coca Cola 600. The initial 
draft was intended to be a foundation document of common evacuation 
practices.
    After the Coca Cola 600, DHS, NASCAR track officials, and local 
first responders attended a validation meeting to ensure that the 
document correctly captured the NASCAR racing environment and 
recommended realistic processes for evacuating a NASCAR facility. It 
was also suggested during this session that DHS refine the initial 
draft to reflect lessons learned and prepare for the three unique track 
type visits. DHS provided drafts before and after each visit to the 
unique track types of Talladega, AL (large track), Infineon, CA (road 
course), and Milwaukee Mile, WI (small track). The draft document was 
shared before each visit to ensure that all attendees (i.e., DHS 
personnel, NASCAR track personnel, State and local first responders, 
and other Federal partners) had a similar foundation for the 2-day 
sessions at each track. These sessions were carefully planned to ensure 
that the document captured the uniqueness of each track type. The 
document was reviewed after the visits to the three unique track types 
to ensure that it reflected the wide span of NASCAR facility types and 
was ready to be presented at the January 2008 NASCAR Security Summit.
    We will continue to engage with the sectors and stakeholders to 
identify ways to improve the process.
    Question 10. How has Infrastructure Protection worked with the 
Office of Health Affairs to address the health concerns that could 
arise from mass gatherings? How--if at all--has policy and programmatic 
input from the Office of Health Affairs been incorporated into your 
products--including guidance to commercial facilities and other venues 
where mass gatherings occur?
    Answer. The Office of Infrastructure Protection is the Commercial 
Facilities (CF) Sector-Specific Agency. We have worked with the Office 
of Health Affairs, and through that Office, with the Department of HHS, 
which has the lead for health care and public health under HSPD-7 and 
the National Infrastructure Protection Plan, to address health concerns 
that could arise from mass gatherings--most notably in its work in 
accordance with the National Strategy for Pandemic Influenza: 
Implementation Plan. This important work has been accomplished through 
a series of briefings, workshops, and conferences with the CF 
stakeholders representing each of its eight sub-sectors. Information 
provided through these venues is representative of intradepartmental 
and interagency coordination and collaboration to support CF Continuity 
of Operations and Continuity of Business planning. Examples include 
identification of essential functions and personnel, targeted layered 
containment strategies, supply chain management issues, infection 
control information, etc.
    Question 11. We are extremely concerned about the ability of our 
States, territories, tribes, and localities to respond to mass 
casualties--which could certainly occur if a mass gathering were to be 
hit with a disaster or an act of terrorism. How has Infrastructure 
Protection taken the requirements for medical surge into account--
especially considering the inability of most hospitals to take on many 
more patients, as they are at top capacity on a daily basis right now?
    Answer. Department of Homeland Security (DHS) is committed to 
ensuring that the Federal response, whether it is a medical, 
environmental, or law enforcement response, is well-coordinated with 
State and local officials to ensure a seamless and integrated response. 
The role of the Federal Government is to supplement the State and local 
efforts, and to provide assistance when it is needed.
    The Department of Health and Human Services (HHS) has the primary 
responsibility for building and enhancing medical surge capacity. DHS 
Office of Health Affairs (OHA) works closely with HHS, which in turn 
works with State and local jurisdictions to assist in developing inter-
State and multi-State agreements to provide supplies, hospital beds, 
medical professionals during a catastrophic event. Also, HHS has 
response assets such as the National Disaster Medical System (NDMS) 
which partners with the Department of Defense and the Department of 
Veteran's Affairs for the care and transport of disaster patients. DHS 
constitutes the fourth partner in the NDMS consortium. These 
partnerships are important to ensure medical surge capacity.
    The Office of Infrastructure Protection works with the OHA through 
active participation on the Government Coordinating Councils (GCC) for 
the Health and Public Health and Emergency Services Sectors, organized 
under the National Infrastructure Protection Plan (NIPP) framework. 
Both offices work with private sector representatives through those 
sectors' Sector Coordinating Councils (SCC). This partnership framework 
supports coordination and collaboration with the HHS Office of the 
Assistant Secretary for Preparedness and Response (ASPR) and the 
Centers for Disease Control and Prevention (CDC) to address the issues 
that affect our Nation's ability to effectively prepare for and respond 
to a mass casualty event.
    Question 12. During the hearing, Mr. Etheridge asked Assistant 
Secretary Stephan about how the Department of Homeland Security has 
been working with State and local governments and with the private 
sector to develop planning guidance for mass gathering events. The 
Assistant Secretary responded that some guidance and guidelines had 
been developed and ``pushed out the door.'' Chairman Thompson 
subsequently asked Assistant Secretary Stephan if he could provide the 
committee with lists of where the guidance has gone out versus where 
the guidance is not yet out. Please provide those lists here, along 
with any necessary qualifying information.
    Answer. Guidance documents currently provided to the Commercial 
Facilities (CF) Sector are shared with our various critical 
infrastructure partners at the Sector Coordinating Council (SCC) level. 
Some guidance is shared with the entire SCC (e.g., the Pandemic 
Preparedness Guidance), which then shares it with members of its sub-
sectors, be it one or more associations or a single group of security 
chiefs with assets at one or more locations. Guidance developed in 
close collaboration with private-sector partners (e.g., the Protective 
Measures Guide for U.S. Sports Leagues) is shared only with the 
participating sub-sector's chairperson, who then distributes the 
document to the sub-sector's membership. Some guidance (e.g., the 
Infrastructure Protection Report Series Papers) is shared with all 
Critical Infrastructure and Key Resources stakeholders at the Federal, 
State, local, territorial, tribal, and private-sector levels during the 
execution of Infrastructure Protection outreach initiatives, private 
sector security training and awareness programs, and vulnerability 
assessments. Last, guidance developed for a specific organization 
(e.g., the NASCAR Mass Evacuation Planning Guide) is shared with the 
specific organization, which, in turn, shares the guidance within its 
membership. Current guidance documents provided to the CF Sector that 
pertains to events of mass gathering are:
  <bullet> NASCAR Mass Evacuation Planning Guide;
  <bullet> Protective Measures Guide (Sports Leagues Sub-Sector);
  <bullet> Bomb-Making Material Awareness Program;
  <bullet> Commercial Facilities Pandemic Preparedness Guideline;
  <bullet> Infrastructure Protection Report Series Papers for:
    <bullet> Racetracks (Horse and Dog);
    <bullet> Stadiums and Arenas;
    <bullet> Large Public Outdoor Gatherings (i.e., parades, fairs, 
            festivals, rallies, flea markets, demonstrations, concerts, 
            and celebrations);
    <bullet> Convention Centers;
    <bullet> Motor Race Tracks;
    <bullet> Performance Venues (i.e., theaters, movie theaters, 
            concert halls, auditoriums, amphitheaters, and community 
            playhouses);
    <bullet> Hotels;
    <bullet> Casinos;
    <bullet> Office Buildings;
    <bullet> Shopping Malls;
    <bullet> Apartments.
    Future guidance developed for the CF Sector will be shared as 
described above. Guidance documents in development that pertain to 
events of mass gathering are Mass Evacuation Planning Guide for 
Stadiums, and Protective Measures Guide (Retail, Outdoor Events, and 
Lodging Sub-Sectors).

  Questions From Chairman Bennie G. Thompson of Mississippi for Vice 
Admiral Roger T. Rufe, Jr., USCG (Ret.), Director, Office of Operations 
       Coordination and Planning, Department of Homeland Security
    Question 1. Does the Operations Coordination Division of the 
Department of Homeland Security provide the same level of monitoring 
for all events receiving a Special Events Assessment Rating? Please 
explain.
    Answer. The Special Event Assessment Rating (SEAR) is broken up 
into 5 levels. These levels are a starting point for further 
coordination and monitoring by the DHS and the Special Event Working 
Group (SEWG) member agencies. All events, level 1-5, are monitored by 
the DHS National Operations Center (NOC) for Situational Awareness.
    DHS OPS and the SEWG further coordinate the Federal support and 
monitoring of events that are identified as SEAR Level 1-2. Special 
events designated SEAR Level 1-2 signify events which involve close 
monitoring by the National Operations Center due to their scale, 
complexity and the large degree of Federal resources, support and 
manpower allocated, including the appointment a Federal Coordinator by 
the DHS Secretary and the issuance of an Integrated Federal Support 
Plan document. SEAR Level 3-5 special events are monitored by the NOC 
as well for situational awareness purposes, but due to their minimal or 
non-usage of Federal resources, they fall below the threshold of the 
appointment of a Federal Coordinator and they do not require an 
Integrated Federal Support Plan.
    Question 2. In your opinion, why do States not apply for Special 
Event Assessment Ratings for many of the mass gathering events that 
occur throughout the year? Is the application process prohibitive?
    Answer. ``Applying for a SEAR rating'' mischaracterizes the process 
for obtaining a SEAR rating. The only way a special event is given a 
SEAR rating is through participation in the DHS coordinated Special 
Event Working Group (SEWG) data call, which is conducted each year in 
the fall.
    Prior to the opening of the yearly special event data call a mass 
State Homeland Security Advisors (HSA) tele-conference is convened with 
assistance and coordination provided by the DHS Office of 
Intergovernmental Programs. The purpose of the mass HSA tele-conference 
is to notice the upcoming DHS special event data call for the new year, 
welcome and encourage participation of every State in the process, 
engage active discussion as to any difficulties that are occurring, 
provision of on the spot technical support to system questions and last 
to open a yearly forum for any suggested improvements for system users. 
The special event data call that quickly follows is open to all State/
local/territorial/tribal (S/L/T/T) Planners. Further participation 
within the State is coordinated directly through the State Homeland 
Security Advisors that participated on the teleconference kick-off 
call. Each HSA can encourage participation locally but there is no 
penalty for non-participation. Reasons for non-participation may 
include no forthcoming Federal funds to assist local special event 
planners and no anticipated need for Federal resource allocation to the 
special events in question.
    The DHS/SEWG purpose for the data call is two-fold. First, the list 
compiled from the data call enables DHS and the Inter-Agency SEWG 
members to monitor activities and events around the Nation for 
situational awareness. Second, the iconic nature of SEAR Level 1-2 
local events often requires considerable Federal support and 
coordination. All Federal support for these Level 1 & 2 events 
generally comes from the SEWG members' operating budgets, and not State 
and local budgets. DHS and the SEWG have no leverage to compel S/L/T/T 
Planners to participate in the data call, yet many S/L/T/T participate 
and users entered approximately 4,000 events for 2008.
    The data call itself is not a prohibitive process. A focus group of 
past S/L/T/T users is convened by DHS prior to the mass Homeland 
Security Advisors teleconference and the special events data call to 
discuss changes and their suggestions and comments. The Homeland 
Security Advisors are briefed in detail before the data call and asked 
to identify S/L/T/T personnel responsible for entering the events into 
the system. The entry of data itself is quite easy, using a web-based 
secure application, which includes helpful drop-down guidance boxes for 
individual assistance with many of the questions and also provides some 
examples of entries for new uses. This year, users who enter events in 
the data call will see the entire list of special events, as an added 
user benefit and situational awareness. If an event reaches the 
criteria warranting a Federal Coordinator or an Integrated Federal 
Support Plan (SEAR Level 1-2), the local elected official is notified 
by the Secretary.
    Question 3. Do you believe that each mass gathering venue or event 
should have an emergency action plan? Do you believe that an emergency 
action plan should be required of each mass gathering venue or event 
that applies for a Special Event Assessment Rating? Why or why not?
    Answer. Yes, the benefit of an emergency action plan to a special 
event planner is immeasurable. However, the lack of a plan or an 
insufficient plan may be an indication that a special event, usually an 
S/L/T/T event by definition, may require some type of Federal 
assistance or guidance. Accurate event data are crucial to the DHS data 
call process and enables the SEWG and DHS to identify and/or fill any 
gaps, if appropriate.
    Many localities are achieving a common national standard by 
adopting the Incident Command System as part of their training and 
procedures on their own schedule. It is not the intent of the SEWG to 
dissuade event planners from access to the system based on whether or 
not they have achieved emergency action plans for all of their mass 
gatherings. The data call system does question each locality as to 
whether their event security and resources are met by their local 
existing capabilities. The capabilities question is one of many that 
help to determine an events SEAR Level; however, the SEWG, a Federal 
interagency mechanism, does not have the authority to actually mandate 
submission of emergency action plans or require them for events 
occurring in a local domain.
    Question 4. Who is the individual responsible at the Department of 
Homeland Security for events designated as Non-National Security 
Special Events?
    Answer. The Secretary of DHS has delegated programmatic, 
administrative and operational coordination of Special Events to Roger 
T. Rufe, Jr., Director of Operations Coordination and Planning (OPS). 
The interagency Special Event Working Group (SEWG) is the coordination 
body for non-NSSEs, and the OPS Future Plans/Special Events Branch 
coordinates this entity.

   Questions From Chairman Bennie G. Thompson of Mississippi for Dr. 
   Thomas H. Blackwell, MD, Medical Director, Center for Prehospital 
     Medicine, Carolinas Medical Center, Charlotte, North Carolina
    Question 1. How do you (as head of emergency medical services, as 
Director for Medical Services at Lowe's Motor Speedway in North 
Carolina, and Director for Medical Services for the Carolina Panthers 
games) gather and analyze health data for unusual trends at mass 
gatherings? If you do not do so, are you aware of anyone who does? How 
would you recommend this be done or done better?
    Answer. A patient care report is generated for every patient 
encountered at each mass gathering venue covered. The reports are 
similar regardless of the type of mass gathering event. Reports are 
analyzed and specific data is entered into a secure database to track 
the number of patients encountered, types of injuries or illnesses, 
medical supplies used, and number of patients transported for further 
care. While this is a retrospective review of the activity and as such 
would not provide real-time information during an incident, our mass 
gathering venues are such that direct interoperable communications is 
maintained. Physicians and nurses staffing the Emergency Care Centers 
on-site would immediately be apprised of multiple patient encounters 
where similar signs or symptoms presented during a finite period of 
time.
    I am unaware of how other stadiums, arenas, or race tracks conduct 
their medical or public health activities.
    To improve our system, an electronic patient care reporting system 
that supports real-time downloading of patient information could 
expedite a system of epidemiologic surveillance. Perhaps the best 
scenario would be to activate Fusion Centers that include pubic health, 
hospitals, and emergency medical service staff so that intelligence-
sharing of potential threats is enhanced. If a biological or chemical 
incident did indeed occur, this advanced knowledge would lessen the 
time for definitive diagnoses and treatment algorithms.
    Question 2. What types of mobile hospitals do you think would be of 
most use at disasters involving large numbers of people--whether they 
occur at mass gatherings, or otherwise? What are your recommendations 
in this regard?
    Answer. When Carolinas Medical Center received the Homeland 
Security Grant to design, construct, and deploy a mobile hospital, we 
set out to create a facility that is different from previous 
structures, specifically tents, which are often used as medical 
shelters at mass gathering events. Patients and healthcare workers 
alike should not have to endure the nuances of tents that leak, mildew, 
smell, and have size restrictions. The MED-1 design incorporates an 
esthetically-pleasing therapeutic environment such that one forgets 
that the infrastructure is a trailer shortly after entering. Just as 
important, the set-up time from site arrival until commencing patient 
care is approximately 20 minutes. Patients inflicted by a disaster 
should not have to wait hours or days for a medical shelter or 
structure to be erected.
    Using MED-1 mobile hospitals at mass gathering events would 
accomplish several objectives.
    1. The equipment would be used on a regular basis keeping it 
        operational and functional (important for medical devices).
    2. Staff would be afforded the training opportunity to refresh 
        their knowledge and skills on the set-up, equipment, patient 
        care, and movement processes associated with a mobile facility. 
        Thus, retention and recall, along with core competencies are 
        maximized when a disaster does occur.
    3. The mobile hospital would continue to store current medical 
        supplies and pharmaceuticals so that when an unexpected 
        incident occurs, the unit is always in a state of readiness to 
        respond.
    Question 3. You have deployed the MED-1 mobile hospital three times 
following natural disasters. Do you feel that the MED-1 unit could be 
used for mass gathering events and if so, should more of these units be 
available for use or deployment across the country?
    Answer. Absolutely. A MED-1 unit could be deployed to any mass 
gathering venue to provide routine medical care before, during, and 
after the event. Should a disaster occur, the asset is deployed and 
staffed, ready to begin triage and treatment of patients, and would 
serve to immediately augment the local healthcare delivery system to 
prevent excessive hospital surge and to preserve resources for more 
critical patients.
    Question 4. We understand that MED-1 has been deployed in support 
of Hurricane Katrina to the State of Mississippi, and that the hospital 
is currently deployed to Indiana to help provide emergency medical 
services after the floods. How have your experiences responding to 
disasters with this mobile hospital helped you provide support at mass 
gatherings, and vice versa?
    Answer. The three MED-1 deployments have provided valuable feedback 
and information to improve our system of response and care delivery. 
Following each deployment, After-Action Reports and debriefing sessions 
serve to identify gaps in our system and targeted areas for 
improvement. The third design version of the MED-1 unit is currently 
under construction and incorporates each of the identified improvements 
in infrastructure that were noted from these deployments. All design 
modifications serve to address patients in any mass casualty incident 
regardless of a mass gathering or natural disaster.
    Question 5. What sorts of detectors for weapons of mass destruction 
and agents of terrorism do you believe are necessary to be used at mass 
gatherings for which the U.S. Secret Service, the FBI, and/or other 
Federal agencies do not bring in their own detectors?
    Answer.

Chemical
    Current and periodic training for staff in recognizing clinical 
signs and symptoms of chemical nerve agents, vesicants, pulmonary 
agents, blood agents, and riot-control agents would be the best 
preparation for recognizing a chemical agent release.

Biological
    The Biowatch air samplers would likely assist in determining what 
particular agent was released if multiple patients presented 
simultaneously. Again, the key for any biological event will be the 
syndromic surveillance and advanced intelligence activities. The SMART 
Tickets (Litmus paper) for biological detection have high false 
positive rates and would not be useful unless they show a negative 
reaction.

Radiological
    While the thermoluminescent dosimeter (TLD) film badge and 
dosimeters records the quantity of radiation to which one is exposed, a 
Geiger-Muller tubes would be useful for surveying a scene to determine 
if it is safe to enter.
    Question 6. What issues do you have with hand-held detectors for 
weapons of mass destruction and agents of terrorism--especially those 
being used by emergency medical services and other first responders in 
the mass gathering context?
    Answer. As outlined above, the actual detectors that are available 
today are not particularly practical for first responder use, if 
biological detectors are setup in advance of an event and can provide 
direct, real-time information at the time of an agent release, this 
assists in planning for those mass casualties that would likely present 
days to weeks later. Public information would be important under such a 
scenario. Chemical agent detectors are very time-consuming to use and 
do not measure all of the specific chemicals that could be used. The 
radiological detectors are easy to use and easily deployable.
    Question 7. What challenges have you faced in deploying your mobile 
hospital?
    Answer. The main challenges we have faced are two-fold: (1) 
Sustainment funding to ensure readiness and (2) rapid deployment when 
the need arises.

Sustainment
    Simply having a MED-1 mobile hospital does not translate to a unit 
being capable of responding. Supplies, pharmaceuticals, clinical 
engineering and preventative maintenance, generator maintenance, 
tractor and trailer maintenance, etc. are all required to keep the 
resource active. Maintenance staff, administrative oversight, and 
training are all cost-generating areas.

Deployment
    When disasters strike and patients are suffering, all means and 
processes for medical assets to respond must be simplified and 
streamlined. The Emergency Management Assistance Compact (EMAC) 
agreement is in place to afford such processes; however, inordinate 
time periods plague this system. The three deployments have all been 
associated with contract negotiations between States, resulting in 
prolonged delays in our response.

  Questions From Honorable James R. Langevin of Rhode Island for Dr. 
   Thomas H. Blackwell, MD, Medical Director, Center for Prehospital 
     Medicine, Carolinas Medical Center, Charlotte, North Carolina
    Question. Your job is to provide prehospital medicine, and it is 
clear that you are expert at doing so in a variety of environments. As 
the Chairman of the Subcommittee on Emerging Threats, Cybersecurity, 
and Science and Technology, I am particularly interested in emerging 
biological threats. Can you talk about how you would treat patients 
that have been attacked with a biological agent, such as weaponized 
anthrax, at a mass gathering occurring at either of the stadiums for 
which you serve as medical director? Do you feel that you have the 
right assets at your disposal to be able to adequately treat numerous 
patients--especially if you were told that there would be no 
evacuation, and that people would have to shelter in place? What would 
you need to deliver the adequate prehospital care in this context?
    Answer. A specific pharmaceutical cache is required to provide the 
antibiotics or other countermeasures indicated for the specific 
biologic attack. Most large cities engaged in Federal preparedness 
programs have prepackaged pharmaceuticals in strategic locations. These 
can be mobilized quickly and efficiently if the training component has 
been satisfied. If anthrax were disseminated, stockpiles of antibiotics 
(doxycycline or ciprofloxicin) would be required for initial treatment 
of exposed patients. If chemical nerve agents were released, the nerve 
agent antidotes (atropine and 2-pralidoxime chloride) would be 
required. Each of the pharmaceutical resources are stockpiled at our 
hospital facility.
    The stockpiles of these agents are not sufficient to treat a 
population that would be present at our larger mass gathering events, 
e.g. Lowes Motor Speedway or Bank of America Stadium. A mechanism of 
triage would be required to identify those individuals who have the 
highest likelihood of survival and to provide comfort care to those 
noted to be moribund. To achieve the numbers of pharmaceuticals 
required, the Strategic National Stockpile of pharmaceuticals would 
need to be requested. The issue now becomes one of time. The request 
procedures, approval processes, mobilization, transportation, delivery, 
inventory, and distribution all are time-prohibitive to be completely 
effective unless the stockpile were within a few hours of the event. In 
such instances where prolonged times were inherent, there would need to 
be a facility for the sheltering in place that supports emergency 
medical care. The MED-1 mobile hospital provides such a platform. In 
the basic form, there are 14 beds capable of providing acute care. 
Expanding the awning system that extends from MED-1 unit to a full-
scale general medical-surgical hospital will support up to 250 beds. 
Having this capability prevents surge capacity and keeps isolated/
quarantine patients off-site while providing the acute and ambulatory 
and surgical care required during such conditions.

Questions From Chairman Bennie G. Thompson of Mississippi for Sergeant 
   Scott McCartney, Program Manager/Exercise Planner, Large Stadium 
    Initiative, Governor's Office of Homeland Security, Sacramento, 
    California, and Sergeant, Sacramento County Sheriff's Department
    Question 1. What lessons have you learned as part of your work with 
large stadiums in California that could be applied to securing mass 
gatherings nationally?
    Answer. Response was not provided at the time of publication.
    Question 2. How are you utilizing information from the State Fusion 
Center to support your activities with the Large Stadium Initiative in 
California?
    Answer. Response was not provided at the time of publication.
    Question 3. What partnerships have you seen (via the Large Stadium 
Initiative and other activities) that you think should be utilized at 
all venues?
    Answer. Response was not provided at the time of publication.
    Question 4. How have you seen information shared with trusted non-
Federal and even non-governmental (private sector)?
    Answer. Response was not provided at the time of publication.
    Question 5. How have you seen State assets stretched to support 
mass gatherings? If so, how?
    Answer. Response was not provided at the time of publication.
    Question 6. Would you speak to the impact of handling numerous 
events--including mass gatherings--in a State simultaneously?
    Answer. Response was not provided at the time of publication.
Questions From Honorable James R. Langevin of Rhode Island for Sergeant 
   Scott McCartney, Program Manager/Exercise Planner, Large Stadium 
    Initiative, Governor's Office of Homeland Security, Sacramento, 
    California, and Sergeant, Sacramento County Sheriff's Department
    Question. You've done a great deal of work with large stadiums in 
California. To what extent have you addressed the biological threat to 
such venues? Have you exercised any biological scenarios? If you have 
not addressed this threat, can you talk about how you would?
    Answer. Response was not provided at the time of publication.
 Questions From Chairman Bennie G. Thompson of Mississippi for Douglas 
Reynolds, Director of Security, Mall of America, Bloomington, Minnesota
    Question 1. How are you utilizing information from the State Fusion 
Center to support your activities at the Mall of America in Minnesota?
    Answer. Unfortunately there is no State Fusion Center in Minnesota. 
If the action directly pertains to Mall of America (such as a mall 
shooting) then the Minnesota Joint Analysis Center (MN JAC) contacts me 
directly. If the information is not determined to impact me directly 
then it is filtered through the Bloomington Police Department. The 
filtered information may be trends in terrorism that the sender does 
not see as being relevant to MOA. However, we use these trends to 
develop a list of possible methodologies and create associated 
suspicious indicators. It is difficult to generate suspicious 
indicators for our Risk Assessment and Mitigation (RAM) Team without 
adequate intelligence. Our RAM Team, which utilizes behavior profiling 
and other techniques to detect potential terrorist incidents, was the 
number one source of actionable intelligence in Minnesota for 2007. Due 
to changes in the past year, we can no longer submit information 
directly to the MN JAC. All of our reports now go through local law 
enforcement which delays or stops the report from reaching the 
necessary recipients. A cleaner line of communication (directly to the 
Minnesota JAC) would help Mall of America and the United States 
greatly.
    Question 2. What partnerships have you seen (via the activities you 
participate in) that you think should be utilized at all venues?
    Answer. We have many strong partnerships, most of which could be 
utilized by other mass gathering venues. These partnerships include 
local/Bloomington Police, Federal Air Marshalls, Airport Police, 
various Metro Area Police Departments, local County Sheriff (mostly for 
intelligence), 55th Civil Support Team, numerous K-9 units (Federal 
Protective Service, A.T.F., and the FBI (for peroxides to train our in-
house K-9 teams), Minnesota ARNG (Military Intelligence, Joint 
Operations Center, etc.), Metropolitan Emergency Manager's Association, 
Bloomington Fire Department, HSAS, Imulik Juchtam with International 
Consultants on Targeted Security (ICTS) for behavior profile training, 
and the International Association of Bomb Technician's and 
Investigators.
    Question 3. How have you seen information shared with trusted non-
Federal and even non-governmental (private sector)?
    Answer. We are an active member of the Joint Terrorism Task Force 
(I am on the Executive Board), Tripwire (HSAS), the Security Management 
Daily publication (ASIS), ICEFISHX (MN JAC) which shares Law 
Enforcement Sensitive Information through local law enforcement. 
Information from private-to-private entity is created by developing 
strong relationships before the incident occurs. In emergency 
management it is well known that a crisis is no time to exchange 
business cards. Develop the contacts before the need whenever possible. 
There is a tool that is used by the Federal Air Marshall's called the 
Tactical Information Sharing System (TISS). This allows for a 
searchable platform to determine if others in your area/industry are 
seeing the same trends as you are. It is used to validate, or mitigate 
concerns and show patterns. It can provide invaluable intelligence for 
both the end users and those echelons above that are developing 
national or global trends. Those that enter and retrieve data would be 
credentialed into the program. The private sector could benefit from a 
process similar to TISS and the cost would be minimal.
    Question 4. Do you think that Federal, State, territorial, tribal, 
and local governmental support to private sector entities that host 
mass gatherings can be improved? If so, how?
    Answer. Yes. It took Mall of America Security 7 years (2008) to 
gain access to classified information. Prior to that we had to hope for 
someone to forward information to us, but that was sporadic and spotty. 
For example, MN JAC would share information with Bloomington PD who in 
turn might share it with Mall of America. The private sector needs 
direct access to searchable intelligence. AII money should be 
controlled by the private sector that it is designed to protect instead 
of at the determination of law enforcement, for example:
  <bullet> Money for the private sector could help cover over time and 
        temporary security positions needed during heightened alert 
        levels. Currently the money is given to law enforcement and 
        they determine when they need to provide overtime coverage. The 
        person in charge of the venue should be making that 
        determination.
  <bullet> Federal intelligence programs should have open seats for the 
        private sector to be represented.
  <bullet> Federal training should be open to credentialed critical 
        private sector groups. The private sector can pay for their own 
        lodging and travel expenses. This would be utilizing seats that 
        often go unfilled at government conducted training. This 
        provides common language, an understanding of acceptable 
        standards, and forms critical relationships prior to an 
        incident.
  <bullet> Federal grants could be used for equipment such as CBRN 
        (monitoring & response), rescue equipment, K-9's, CCTV and 
        digital recording. These are all assets that protect the public 
        and may aid in the recovery of evidence or the prosecution of 
        those with harmful intentions.
    Question 5. What could the Department of Homeland Security do 
better to help secure the public from terrorist attacks in facilities 
such as yours?
    Answer. Information sharing is the key to our success.
  <bullet> We would like access to verify ID's (for nationals and non-
        nationals) and to verify that license plates are associated 
        with the correct vehicle and not stolen.
  <bullet> Access to a TISS-type system for same or similar incidents; 
        a searchable database of suspicious or terrorist activity.
  <bullet> Access to International Alien Query (IAQ) information. IAQ 
        is currently available to law enforcement only. The IAQ is used 
        to check an international traveler's status in the United 
        States and determine if they are properly registered to be in 
        the United States.
  <bullet> Ability to share ideas that are effective such as our RAM 
        program. MOA has created several programs that we are quite 
        proud of. I would like to share these programs with others in 
        the industry and walk them through the hurdles we had to 
        overcome.
  <bullet> Assign Reconnaissance & Surveillance (R&S) Teams (aka: 
        Intelligence and Information Teams) during major events to 
        assist with identifying suspects; and be alert for pre-event; 
        surveillance and rehearsal.
  <bullet> Training and intelligence sharing.
  <bullet> Mall of America will train other private entities or groups 
        to be familiar with our RAM program. The training would be free 
        or minimal--I would simply ask for them to pay for their 
        travel, lodging, and meals.
    Question 6. Minneapolis/St. Paul is hosting the Republican National 
Convention this September, with a mass influx of people coming into the 
Twin Cities for over a week. How is the Mall of America preparing from 
a security standpoint, and how can the Federal Government be of 
assistance?
    Answer. I know this event has already occurred. I apologize again 
for my late response and will send the answer I had written prior to 
the RNC.
    There are a number of areas that the Federal Government could be of 
assistance including:
  <bullet> CCTV--Mall of America has a very developed camera system. We 
        could use additional people to assist with monitoring these 
        cameras during peak RNC times. Although we will always have at 
        least two people assigned, it is difficult to actively monitor 
        hundreds of cameras with a small group of people. If more 
        people are assigned to our CCTV area it can turn from mostly 
        reactive to a more proactive approach.
  <bullet> Access to police operation's and communication centers for 
        real time information and answers about our assets. This will 
        allow a better understanding of how we can assist law 
        enforcement. We have our own K-9 department, limited chemical 
        monitoring unit, and more. These assets may not be properly 
        utilized if the responding officers don't know they exist. This 
        is more likely as law enforcement officers from throughout 
        Minnesota are drawn together.
  <bullet> Detection (radiological) equipment provided by the 
        Department of Energy. This was provided the day before the RNC 
        and provided another tool to use should a threat arise.
  <bullet> Access to Federal training programs.
  <bullet> Assigning R&S personnel to Mall of America--we would supply 
        an office and communication center they could use as their base 
        of operations.
  <bullet> K-9 teams--we could use an additional four teams on site.
  <bullet> Funding for MOA Security staff overtime.
  <bullet> MOA owned chemical agent detector.
  <bullet> Training with FBI, Bloomington Police Department and the 
        ATF. We conducted many training exercises that ranged from 
        reactions to protestors to WMD incidents. We were treated as 
        equals by those we trained with and the level of respect 
        appreciated.
    Ways that we prepared for the Republican National Convention 
included:
  <bullet> Restricted time-off for security staff.
  <bullet> Purchased chemical detection equipment and trained staff for 
        proper use.
  <bullet> Conducted regular protest awareness briefs.
  <bullet> Held regular protest intelligence meetings.
  <bullet> Conducted in-house training to deal with the most likely 
        scenarios that might occur during the RNC.

Questions From Honorable James R. Langevin of Rhode Island for Douglas 
Reynolds, Director of Security, Mall of America, Bloomington, Minnesota
    Question. As as director of security at the Mall of America, you 
must be aware that there are numerous planning scenarios in which a 
biological agent such as Yersinia pestis--plague, is released at a 
popular mall. Please describe the steps you have taken to protect the 
Mall of America from biological threats such as this one?
    Answer. There are a number of actions we have taken:
  <bullet> There is restricted access to our ventilation systems 
        including required security escorts to those areas that house 
        our primary ventilation systems.
  <bullet> We have a strong partnership with the 55th CST and done have 
        done many studies and much training with them as well as the 
        local fire and law enforcement agencies for WMD incidents.
  <bullet> Our RAM offers routinely train on rehearsal, surveillance, 
        and execution techniques associated with this threat.
  <bullet> CCTV and door alarms are monitored 24/7--including primary 
        ventilation access areas.
  <bullet> We rely on intelligence and information-sharing--biological 
        threats are generally slow to develop and recognize.
  <bullet> In rapid incidents (i.e. Anthrax) we rely on recognizing an 
        incident, isolating the area, and alerting the Bloomington 
        Police Department as well as the State Duty Officer.
  <bullet> We have stopped chasing the means, and look at intent 
        instead--this is a specialty area of our RAM officers. Too 
        often the U.S. counter-measures focus solely on the means (look 
        for the weapon). The weapon can change and be almost anything; 
        I hope that lesson was learned on 09/11/01 by most Americans. 
        Although the means may change, it is hard to conceal intent. 
        That is why we focus on intent. This is not to say we ignore 
        means, it is just not viewed as the sole indicator.
  <bullet> We utilize intelligence to track trends and techniques.
  <bullet> For biological threats we rely heavily on other circles or 
        aspects of a broader security plan to not let the suspect get 
        this far.
    Again, I thank you for this great honor and to be associated with 
your efforts to enhance the security of this great Nation.

                                 <all>

</pre></body></html>
